<html>
<title> - COMBATING TERRORISM: PROTECTING THE UNITED STATES, PARTS I AND II</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


<DOC>
[107th Congress House Hearings]
[From the U.S. Government Printing Office via GPO Access]
[DOCID: f:84601.wais]
 
   COMBATING TERRORISM: PROTECTING THE UNITED STATES, PARTS I AND II 

=======================================================================

                                HEARINGS

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         MARCH 12 AND 21, 2002

                               __________

                           Serial No. 107-156

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               -------
84-601              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
_______________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 
20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman

BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 12, 2002...............................................     1
    March 21, 2002...............................................   107
Statement of:
    Bremer, Ambassador L. Paul, III, chairman, National 
      Commission on Terrorism, Marsh Crisis Consulting; Randall 
      J. Larsen, director, ANSER Institute for Homeland Security; 
      Joseph Cirincione, Director, Nonproliferation Project, 
      Carnegie Endowment for International Peace; and Henry L. 
      Hinton, managing director, Defense Capabilities and 
      Management, General Accounting Office......................    44
    Keating, Frank, former Governor of Oklahoma; and Edwin Meese 
      III, former Attorney General, co-chairman, Homeland 
      Security Task Force, the Heritage Foundation...............     7
    Verga, Peter, Special Assistant for Homeland Security Office 
      of the Secretary of Defense; Stephen McHale, Deputy, Under 
      Secretary, Transportation Security, Transportation Security 
      Administration, Department of Transportation; William Raub, 
      Deputy Director, Office of Public Health Preparedness, 
      Department of Health and Human Services; Kenneth O. Burris, 
      Director of Region IV, Atlanta, Federal Emergency 
      Management Agency; James Caruso, Deputy Assistant Director 
      for Counter Terrorism, Federal Bureau of Investigation; and 
      Joseph R. Green, Deputy Executive Associate Commissioner 
      for Field Operations, U.S. Immigration and Naturalization 
      Service....................................................   115
Letters, statements, etc., submitted for the record by:
    Burris, Kenneth O., Director of Region IV, Atlanta, Federal 
      Emergency Management Agency, prepared statement of.........   146
    Caruso, James, Deputy Assistant Director for Counter 
      Terrorism, Federal Bureau of Investigation, prepared 
      statement of...............................................   155
    Cirincione, Joseph, Director, Nonproliferation Project, 
      Carnegie Endowment for International Peace, prepared 
      statement of...............................................    61
    Green, Joseph R., Deputy Executive Associate Commissioner for 
      Field Operations, U.S. Immigration and Naturalization 
      Service, prepared statement of.............................   170
    Hinton, Henry L., managing director, Defense Capabilities and 
      Management, General Accounting Office, prepared statement 
      of.........................................................    70
    Keating, Frank, former Governor of Oklahoma, prepared 
      statement of...............................................    12
    Larsen, Randall J., director, ANSER Institute for Homeland 
      Security, prepared statement of............................    49
    McHale, Stephen, Deputy, Under Secretary, Transportation 
      Security, Transportation Security Administration, 
      Department of Transportation, prepared statement of........   127
    Meese, Edwin, III, former Attorney General, co-chairman, 
      Homeland Security Task Force, the Heritage Foundation, 
      prepared statement of......................................    21
    Raub, William, Deputy Director, Office of Public Health 
      Preparedness, Department of Health and Human Services, 
      prepared statement of......................................   135
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statements of 
    Verga, Peter, Special Assistant for Homeland Security Office 
      of the Secretary of Defense, prepared statement of.........   118


       COMBATING TERRORISM: PROTECTING THE UNITED STATES, PART I

                              ----------                              


                        TUESDAY, MARCH 12, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shay, Otter, Kucinich and Tierney.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Dr. R. Nicholas Palarino, senior policy advisor; 
Thomas Costa, professional staff member; Sherrill Gardner, 
detailee-fellow; Jason M. Chung, clerk; David Rapallo, minority 
counsel; and Earley Green, minority assistant clerk.
    Mr. Shays. I would like to call this hearing on, 
``Combating Terrorism: Protecting the United States, Part I,'' 
to order and welcome our witnesses and our guests.
    Yesterday, we paused to remember all of those lost 6 months 
ago in the deadliest terrorist attack to date within our 
borders. In the unimaginable horror of those events, we are 
reminded of another harsh reality, the World Trade Center, the 
Pentagon, and a field in Shanksville, Pennsylvania, were not 
the first and will not be the last plots of American ground 
sanctified by innocent civilian blood.
    How prepared are we for the next act of terrorism? Long 
before the events of September 11, 2001, panels of experts and 
special commissions identified critically needed actions to 
improve counterterrorism preparedness and response.
    The General Accounting Office, GAO and others, called for 
timely, integrated threat assessments and a comprehensive 
national strategy to combat terrorism as early as 1998.
    The U.S. Commission on National Security, 21st Century, 
also called the Hart-Rudman Commission, proposed creation of a 
cabinet level homeland security department to streamline and 
consolidate counterterrorism programs spread across more than 
40 Federal departments and agencies. Governors and mayors 
joined the call for better first responder training and 
improved public health systems.
    In the wake of the airline and anthrax attacks last year, 
air travel has been made somewhat safer, border security 
strengthened, and medical stockpiles are being augmented. The 
President created the Office of Homeland Security, and Governor 
Ridge has as his first priority formulation of a national 
strategy framework for domestic preparedness and consequence 
management.
    But there are signs the passage of time and pictures of a 
war being fought on the other side of the world may be inducing 
a false sense of security here at home. All checked baggage on 
airlines is not yet being screened. Seaports remain avoidably 
vulnerable. Proposals to merge border security functions have 
met stubborn resistance.
    Medical surge capacity to treat mass casualties is not 
available in most communities. Inconsistency and blind spots 
continue to plague disease surveillance efforts. Comprehensive 
long-range strategy to discipline spending decisions will not 
take hold before the beginning of the 2004 fiscal year, 24 
months after the World Trade Center towers fell.
    In the war against terrorism, time is not our ally. As we 
speak, a clock ticks down toward the all but certain hour a 
chemical, biological, radiological or nuclear weapon will be 
used against us. We are in a race with terrorists to shut them 
down before that happens. Complacency, fragmentation, 
bureaucratic infighting, any short-sighted attachments to the 
status quo only increase the likelihood and depth of the next 
attack, the deadliness of the next attack. This is the first of 
two hearings to assess what has been done, what needs to be 
done, and what impedes faster progress in defending the United 
States against the menace of global terrorism.
    Next week representatives of Federal departments and 
agencies responsible for key counterterrorism initiatives will 
testify. Our witnesses today bring unquestioned expertise and 
depth to this discussion of homeland security issues. We are 
grateful for their time and their work and their participation 
in this hearing.
    Our first panel is comprised of the Honorable Frank 
Keating, the Governor of Oklahoma, and also the Honorable Ed 
Meese, former attorney general, co-chairman, Homeland Security 
Task Force and the Heritage Foundation.
    And before swearing them in and hearing their testimony, I 
invite Mr. Kucinich to make a statement.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Mr. Chairman. Welcome to 
our witnesses, Mr. Meese, Governor.
    In over 20 hearings on counterterrorism, this subcommittee 
has heard a repeated refrain: Priorities, priorities, 
priorities. Scores of experts have testified before this 
subcommittee that the administration should take three concrete 
steps. First, assess and prioritize in a comprehensive way all 
of the threats to our country. Second, craft a national 
strategy that addresses these priorities in a most effective 
manner. And third, align budget decisions according to these 
priorities.
    The administration has failed to take these essential 
steps. No comprehensive threat and risk assessment has been 
conducted. The administration has no national strategy. And the 
President's budgets proposal fails to address security threats 
in an organized fashion. What does this mean in practical 
terms? The dangers that the President's budget allocates 
funding to programs that are not top national security 
priorities, and thereby deprives other programs of needed 
funding. Urgent programs are being shortchanged. And the 
country's security could be comprised.
    After September 11th and in light of the huge infusions of 
funding from Congress, there is no longer any excuse for 
operating in the dark. We need an organized plan now. We must 
assess threats realistically, prioritize them logically, and 
deal with them efficiently.
    We cannot afford to waste billions of dollars for political 
reasons. For these reasons, Chairman Shays and I, along with 
Chairman Burton and Ranking Member Waxman, wrote to President 
Bush in October when he appointed Governor Ridge as director of 
Homeland Security. We urged the President to take these steps: 
To analyze all threats side by side. To develop a national 
strategy. And to align budget decisions to that strategy. We 
joined together in a spirit of bipartisan cooperation because 
these issues are some of the most important we will ever face. 
I would like to make our letter part of the record.
    Mr. Chairman, more than 4 months later we have no response 
from the administration, no comprehensive assessment, no 
national strategy, and a budget proposal replete with funding 
that is not aligned with what are current threats. The 
administration's theological fascination with missile defense 
is one example.
    President Bush is spending $8 billion a year on missile 
defense, making it the single largest weapon program in the 
Federal budget. Over the next 5 years the administration plans 
to spend over $38 billion on missile defense, and the 
Congressional Budget Office estimates that the full system 
could cost as much as 238 billion. But no threat assessment 
exists to justify this spending. In fact, just the opposite is 
true. Experts, including U.S. intelligence and military 
officials, have concluded that the threat of a rogue state 
launching a missile at the United States is not as great as 
other threats, particularly since such an attack would invite 
immediate and devastating response.
    To the contrary, experts warn that the more urgent threat 
is from unsecured Russian stockpiles of weapons of mass 
destruction, nuclear devices and materials, chemical and 
biological weapons, weapons expertise. All of these are urgent 
threats because terrorists are actively seeking these materials 
and resources.
    In testimony before the Senate Select Committee on 
Intelligence, CIA Director George Tenet said, ``Russia appears 
to be the first choice of proliferant states seeking the most 
advanced technology and training.''
    But the administration is spending only 1.5 billion to help 
secure Russian stockpiles. The pressing question is, how did 
the administration come up with these two figures? The 
president wants to spend $8 billion on missile defense and 1.5 
billion on Russian stockpiles. Who decided on these funding 
levels? Upon what were these decisions based? What threat 
assessments were examined? Were these threats ever analyzed 
side by side? And, ultimately, how does the administration 
justify spending so much on such an unlikely threat? These are 
the questions I hope that we ask in today's heightened security 
environment.
    And finally, Mr. Chairman, I think it is important that we 
deal with the issue of terrorism without ourself being 
terrified. Because fear robs us of our capacity to take 
rational action. Thank you.
    Mr. Shays. Thank the gentleman.
    At this time let me get some housekeeping out of the way. I 
ask unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, and that 
the record remain open for 3 days for that purpose. Without 
objection, so ordered.
    And I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And without objection, so ordered.
    We are blessed with two excellent panels. Our first panel 
is Frank Keating, who was the former Governor of Oklahoma when 
the Murrah Federal Building in Oklahoma City was bombed, and 
168 precious lives lost. Important lessons were learned from 
that catastrophe and the Governor is here to share them with us 
today.
    And also welcome the Honorable Edwin Meese, III, who is 
currently the chairman for the Center for Legal and Judicial 
Studies at the Heritage Foundation. He was U.S. Attorney 
General during the Reagan administration, and is co-chairman of 
the Heritage Foundation report, ``Defending the American 
Homeland.''
    At this time I would invite both witnesses to stand. As you 
know, we swear our witnesses in.
    [Witnesses sworn.]
    Mr. Shays. I would like to recognize as well--does the 
gentleman, Mr. Otter, have any statement that you would like to 
make?
    Mr. Otter. Thank you very much, Mr. Chairman. My apologies 
for being late.
    Mr. Shays. No apologies necessary.
    Mr. Otter. Mr. Chairman, I want to thank you and the 
ranking member for holding this hearing. I also want to thank 
Governor Keating from Oklahoma, and the other witnesses for 
testifying. In the 6-months since September 11th, our country 
has been guarding against future attacks for the entire 
country.
    The administration has done an admirable job appointing 
Governor Ridge to run the Office of Homeland Security and 
creating the Transportation Security Administration to adopt 
new security measures for our airway systems. Much remains to 
be done to protect against, to prepare for the next terrorist 
attack.
    History has shown us that the trend line for terrorist 
attacks casualties are steadily upward. Should our foes strike 
again, they will probably dwarf the losses of September 11th. 
In light of this real threat, we cannot afford to waste 
resources on duplications and inefficiencies.
    As the witnesses will tell us, we are already seeing 
counterterrorism being used as a justification for every type 
of spending imaginable. Stronger controls are needed in 
Washington, DC, to ensure that our spending is directed to the 
most necessary security measures. More attention must be given 
to the rural areas of our Nation than the current antiterrorism 
strategy.
    While our great cities will always be at risk of attack, 
rural areas contain such key critical infrastructure whose 
destruction would be viewed as deadly for our citizens and 
dangerous obviously for our economy. Rural areas also are less 
likely to have the resources in place to deal with a nationwide 
biological threat or a mass exodus from our cities.
    One of the lessons of September 11th is the importance of 
local leadership and preparation. All of the Federal 
antiterrorism preparation was of little use to the mayor in New 
York City that morning, without the city and the State's own 
years of planning for a worst-case scenario.
    If new Federal spending does not support our local 
emergency services and law enforcement, it will be worse than 
useless, lulling us into a false sense of security while 
neglecting the men and women on the ground who bear those 
dangerous burdens.
    History will record that the terrorists who struck this 
country on September 11th struck without warning or without 
mercy. We must all work to ensure that when our foes strike 
again, history does not say of us that we were forewarned and 
we did not forearm.
    So, Mr. Chairman, once again, I want to thank you very much 
for calling this very important meeting. I would also like to 
submit my little longer statement for the record.
    Mr. Shays. Without objection. Thank you.
    I would like to thank Ambassador Bremer. We wanted to have 
two panels and enjoy the synergy, Ambassador Bremer, of you 
participating in the second one.
    So as well, welcome both our witnesses here. We will start 
off with you, Governor, and then we will go with you, Attorney 
General.

 STATEMENTS OF FRANK KEATING, FORMER GOVERNOR OF OKLAHOMA; AND 
EDWIN MEESE III, FORMER ATTORNEY GENERAL, CO-CHAIRMAN, HOMELAND 
          SECURITY TASK FORCE, THE HERITAGE FOUNDATION

    Mr. Keating. Mr. Chairman and members of the committee, 
thank you for giving me this opportunity to once again appear 
and share some perspectives from the State and local vantage 
point. First I want to thank President Bush for his leadership 
in responding to the terrorist events of September 11th and his 
magnificent leadership in bringing together the world community 
to resist further terrorist events.
    Second, I want to thank the Congress and the President for 
their leadership role in providing the assistance to my 
colleague, Governor Ridge, my former colleague Governor Ridge, 
in placing an emphasis on homeland security. As the members of 
the committee are well aware, two-thirds of the Nation's GDP is 
consumer confidence, and if there are frequent events like 
those of September 11th, there will be few people traveling, 
there will be fewer people investing, and it will be 
calamitous, not only for the people of the United States, but 
also for our economy as well.
    I want to ask that the committee consider the formal 
presentation that I have placed before it, but I would like to 
make a couple of comments that might be of some interest or 
relevance to the membership, from a State and local leader's 
perspective.
    First, I want to thank the Congress for providing some 
financial assistance to us to prepare and to train. I think as 
the Governor of Oklahoma during the Oklahoma City bombings and 
also the worst tornadoes ever to strike an urban area of the 
United States, the tornadoes of May 3, 1999, I have had 
regrettably my fair share of man-made and natural disasters. In 
all of those experiences, I have been enormously impressed with 
the coordinative mechanism of FEMA, the fact that we are able 
to draw on other State and local entities to send us assistance 
in our time of need. I think FEMA is a first-rate organization 
that does wonderful work, and I commend the Congress for their 
commitment to that organization.
    But I would encourage you to recognize something that many 
of our citizens, fellow citizens don't recognize, and that is 
there is no such thing as a Federal posse coming to the 
assistance of Oklahoma City or Cleveland or whatever community 
you may be from. There is no such thing as a 747 filled with 
doctors and nurses from Walter Reed Army Hospital. The first 
responders are State and local officials. The second responders 
are State and local officials. The third responders are State 
and local. All of them are State and local.
    When we had to ask for help and received it from President 
Clinton following the April 1995 bombing of the Murrah Building 
in Oklahoma City, the Sacramento and the Phoenix and the Los 
Angeles, Fairfax County, Virginia, Prince Georges County, 
Maryland, New York--and, yes, many of the New Yorkers who 
helped us in Oklahoma City were killed on September 11th--all 
of these were State and local officials. Only the FEMA team 
from New York had a law enforcement component. All of the rest 
were strictly firefighters. And, of course, they had knowledge 
of rescue and recovery procedures, and they were, as members of 
those teams, first rate and professional.
    But it is important, following the events of September 
11th, to encourage those other FEMA teams to have a law 
enforcement component as well. These events are criminal 
events. There are communities in the United States that do need 
the assistance of highly trained law enforcement officers as 
well.
    Second, it is very important, I think, to provide that any 
plan, any system to provide for distribution of Federal funds 
back to the States to prepare for another terrorist event be 
required, first, to be based upon a State plan.
    I testified in New York in front of a--with Governor Barnes 
of Georgia and Governor Bush of Florida in front of a 
subcommittee of this House. And one of the Members asked me 
what was the No. 1 issue as a Governor of a State or a mayor of 
a State that you faced to prepare against a similar national or 
man-made event, and I said the lack of interoperable radio and 
communications equipment.
    Interestingly, Governor Barnes said exactly the same thing. 
And obviously Oklahoma is a middle-sized State, Georgia is a 
much larger State, and Florida is a much larger State still. 
Governor Bush said exactly the same thing.
    We had a tragedy in Oklahoma City, and my youngest is a 
state trooper in Oklahoma. But we had a tragedy in Oklahoma 
City where a police officer in pursuit of a criminal, with 
lights and sirens, went up the interstate in the wrong way. A 
state trooper coming in the other direction with lights and 
sirens pursuing someone else, neither of them communicated one 
with the other, both of them crashed into each other and both 
law enforcement officers were killed.
    This is not uncommon around the United States. And the bill 
for replacing many of these ad-hoc decisions is to the lowest, 
best price for communications gear for ours is $50 million.
    If those moneys are provided strictly on the basis of local 
need, I am afraid that we will have the same thing again. 
Cities will acquire, at the lowest best bid, perhaps utterly 
incompatible communications equipment and other cities, other 
counties, other law enforcement agencies, Federal, and of 
course any out-of-state assistance won't be able to communicate 
as well. It is very important that whatever we do, we do it 
with the State planning and regional planning, that the 
equipment that is purchased is compatible with Federal, State, 
local, even, for example, electric utilities coming from other 
States to assist in putting back a communications system or an 
electricity or a gas system that was disrupted by a natural or 
man-made event.
    It is just very important that we have a State plan. In our 
State we divided up with the State into eighths. I placed an 
individual, an ex-FBI agent, and my commissioner of the 
Department of Public Safety in charge.
    The FEMA, or the State version of FEMA, the local rescue 
and recovery people are a part of that. We have two pieces. We 
have an avoidance piece, that is a prevention piece, as well as 
a response piece. I think it is as sophisticated as any State 
in the union. But it only works as long as all of those people 
can communicate each with the other. For the first time now we 
have a public health component, something we have not had 
before.
    By the way, I also would encourage that FEMA be required to 
have a public health component. When they come into a State, 
that is something that is extraordinarily important.
    Also on that same note, I might add that I know, Mr. Shays, 
after Dark Winter last summer, I had the opportunity to appear 
with others to testify before you and the members of this 
subcommittee. But we discovered then that if there were a 
bioterrorism event and it took many days to determine what in 
fact had happened, those are many days to create panic, those 
are many days to create mayhem.
    So to the extent that there can be an aggressive research 
and development program--we defeated the Germans and the 
Japanese in 4 years in World War II. We ought to be able to 
provide an ability quickly to identify anthrax or smallpox or 
some other bioterrorism challenge and not have to wait several 
weeks before we know if, in fact, there is a problem.
    Also--and I appreciate the leadership of the members of 
this committee as well. It is important for us at the State and 
local level to know that if an event occurs, what is it that 
occurred, what kind of dosage units are available and where to 
provide for vaccinations for our rescue and recovery personnel, 
and we want to make sure that we can identify whatever that 
event is quickly so we can vaccinate our rescue and recovery 
people to prevent them getting sick and provide an opportunity 
for our citizens to be safe.
    As you know, one of the problems is if there is an--if 
there is--there is a suggestion of a bioterrorist attack, it 
may well be that if the people working in public health, a 
third don't show up, because they don't want to get sick, a 
third may already be affected, and maybe you only have a third 
of the people who can really address the issue at hand, namely 
the protection of the public. This is a very complex and a 
very, very worrisome potential scenario to me. And in our own 
murder board, if you will, our own actions and reactions at the 
State level, the public health piece is the one that is the 
least sophisticated to start, because we never imagined 
something like this to happen to the United States.
    Let me mention something briefly about the avoidance or the 
prevention piece. There are more State and local law 
enforcement officers out there than Federal agents. Today most 
States require police officers in urban areas, even State 
troopers, to be college graduates.
    When I was an FBI agent, you had to be a lawyer, 
accountant. Many States today, their local police, State police 
are as well educated and as well trained as any Federal agents. 
There are a lot more of them out there. And we need obviously 
to encourage the sharing of intelligence between the Federal 
authorities and State and local authorities. They are best 
positioned to identify on the ground what could happen and best 
positioned--to be in a position if someone is in the United 
States meaning us harm to make arrests and to avoid--we find in 
our State the FBI has been excellent in coordinating with us. 
If there has been a failure it has been on our part to change 
the open records and open meetings laws to permit them to share 
intelligence with us. That is something we are addressing this 
legislative session.
    I commend to the members of the committee that is a problem 
in every State. Every State needs to look at their statutes to 
make sure that they can coordinate with the Federal 
authorities. But we are only as good as the intelligence given 
us. If the intelligence given us is inadequate or incorrect, we 
will take action or we won't take action to the--to the great 
disservice of our people. That has to be addressed.
    We do need assistance in training. I think it is very 
important that the Congress provide a seamless mechanism out 
there where people come to our State or our people go to your 
State, they know how to react, and they have been trained 
pretty well similarly.
    If you have a regional event, for example, in our State, 
let's say, a train derails in a rural area right across the 
border from Texas and it is a much more urban area, the people 
who will come rushing into Oklahoma will be from Texas, not 
from Oklahoma. There wouldn't be that number of people in our--
in that part of the State to respond. So they need--we need to 
have intercommunications equipment that is interoperable on the 
regional level. We have to have people trained on a regional 
level. We have to have the sharing of intelligence and the 
sharing of preparation on--in intelligence on a regional level, 
not just simply on a State level.
    I would encourage, and I have to my fellow Governors and 
mayors, that they look at all of these issues and they focus on 
the best intelligence provided us by the Federal Government, 
the best intelligence we develop ourselves and murder board and 
prepare over and over again, so that in the event something 
happens we are truly and well prepared so that the public has a 
sense of confidence and trust.
    [The prepared statement of Mr. Keating follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Governor, thank you. Your oral statement only is 
identical to your written statement, very thorough and very 
helpful. I would like to thank you publicly for so many of the 
families who lost loved ones in the bombing in Oklahoma City, 
their participation up in New York.
    I had a number of families from the Fourth Congressional 
District who lost loved ones, and they found tremendous 
guidance and comfort from people from Oklahoma who came to New 
York.
    Mr. Keating. Thanks, Mr. Chairman.
    Mr. Shays. Also, just to let you know, on April 23rd we 
will be having a hearing on the allocation of radio frequency 
spectrum and proposals to designate certain frequencies for 
police, fire and emergency medical use, both nationally and, 
frankly, internationally. So we are going to be trying to 
followup on that.
    Attorney General Meese.
    Mr. Meese. Thank you, Mr. Chairman.
    I am honored to have the opportunity to appear before this 
committee and particularly to join my good friend, Mr. Keating, 
and my colleague and co-chairman ambassador Bremer.
    Mr. Shays. We are honored to have you.
    Mr. Meese. I would join Mr. Keating in expressing 
appreciation for the outstanding leadership of President Bush 
in dealing with both the international and the domestic aspects 
of terrorism.
    Following the September 11th attacks, the Heritage 
Foundation established its homeland security task force which 
brought together some of the best experts in the world on this 
subject.
    It included a former chief of staff of the Army, a former 
commandant of the Marine Corps, Mr. Keating himself was a 
member of that task force, a number of police chiefs and others 
who had particular expertise in this field.
    That report and the findings of that commission which, by 
the way, looked at all previous commission reports and other 
recommendations to see what had been accomplished up until that 
time, what continued to need to be accomplished, has been 
summarized in this booklet, ``Defending the American 
Homeland.''
    And I would ask, Mr. Chairman, that be entered into the 
record, along with a full copy of my testimony, since I will be 
limited in what I can present here.
    Mr. Shays. That will be done. Thank you.
    Mr. Meese. Thank you. Since that time we have had briefings 
for White House Office of Homeland Security, Governor Ridge, 
Members of Congress, and other organizations and individuals 
that were interested in the subject. We have a continuing 
dialog with the Office of Homeland Security, including a 
conference that will take place later on this afternoon.
    Basically our report covered four major areas: Protecting 
the Nation's infrastructure, strengthening civil defense 
against terrorism, improving intelligence and law enforcement 
capabilities, and military operations to combat terrorism.
    In regard to protecting the Nation's infrastructure, I 
think it is important to stress what Mr. Otter mentioned 
earlier, that many of the facilities in the infrastructure are 
located in rural areas, particularly nuclear facilities, power 
plants, that sort of thing.
    When we talk about infrastructure we really are talking 
about a variety of very critical items within our Nation, such 
as communications networks, utilities, water supplies, banking 
and finance systems, transportation nodes, and intelligence 
systems.
    And that is why this particular recommendation is so 
important. Part of this also involves local and State 
officials, because obviously the inventory of the 
infrastructure assets that need to be protected can best be 
done at the local level where the officials there will know 
what are the particular facilities, plants and otherwise that 
need to be protected, and so it is very important to facilitate 
the communication on infrastructure issues between the Office 
of Homeland Security and other Federal agencies and State and 
local officials.
    One of the interesting things in our report was the 
highlighting of the fact that the global positioning system is 
one of those critical infrastructure items. And I was pleased 
to see just within the last week or so that is being recognized 
by the Federal Government as one of the particular items in our 
infrastructure that will in fact be protected.
    In terms of strengthening civil defense against terrorism, 
as Mr. Keating mentioned--and one of the critical items is the 
protection against bioterrorism, since that is the one thing 
that is new to the inventory of potential disasters. As the 
Governor pointed out, we have things like railroad accidents, 
we have hurricanes, we have earthquakes and various other types 
of major incidents. But our country has never really 
experienced a bioterrorist attack, and so the chemical and 
biological aspects of terrorism particularly deserve attention, 
and the inclusion of the health component in our planning and 
preparation to deal with those kind of incidents.
    I would indicate particularly the importance of, at the 
present time, I believe the country is without a surgeon 
general, and that might well be the key place where the Federal 
Government could concentrate its leadership in terms of 
coordinating the various Federal agencies, since the National 
Institutes of Health, the Center for Disease Control and 
Prevention and other aspects of the Department of Health and 
Human Services would be involved.
    But it is critical that the planning include the State and 
local officials, officials such as the State departments of 
public health and county and city departments of public health, 
as well as extending this cooperation to the medical 
profession, which is largely in the private sector, as well as, 
of course, our series of hospitals.
    It is my understanding that at the present time that the 
Center for Disease Control and Prevention has a network of some 
115 hospital laboratories throughout the country that are 
prepared to analyze a potential attack, chemical or 
bioterrorist attack. But it is important that there be the 
coordination with the local officials so the information can 
get from local doctors and local health officials to these 
laboratories.
    In terms of intelligence and law enforcement, one of the 
critical issues is the one that the Governor mentioned, that is 
the willingness and ability of intelligence sharing on a two-
way basis between or among all of the levels of government.
    In the past, much of the knowledge that we have had of 
terrorist incidents, and I am not--even before September 11th 
came from local officials who saw something strange in their 
particular jurisdiction. In many cases they were the ones that 
actually apprehended the potential terrorist. It is very 
important that the steps be taken so that local law enforcement 
officers have the information, the intelligence that is 
possessed at the Federal Government level, that there be 
communication links so that local officials can provide that 
information to the Federal agencies.
    At the Federal level, the principal recommendation in terms 
of intelligence is that there be a fusion system, so that the 
information coming in from a variety of sources can be brought 
together and analyzed and processed in a central clearing 
house, and that then would be the--would give the ability for 
this information then to be disseminated out to those agencies 
at all levels of government where it can be utilized.
    The other major recommendation in terms of law enforcement 
has to do with control of our borders, and the importance of 
making sure that information particularly is transmitted to 
those officials who have something to do with the border 
control or the control of people, particularly foreign 
nationals, that are coming into this country. A very important 
element that often is left out is the fact that we can best 
control our borders by dealing with foreign nationals coming 
into this country at the source. In other words, at the foreign 
country location where they receive their visas. And that is 
why the consular service of the State Department needs to be 
brought into this whole system of information, particularly 
about foreign nationals who might have a potential for 
terrorist activity.
    In addition to this, it is important that we control those 
foreign nationals within our borders. It is estimated that over 
300,000 foreign nationals are now illegally in the United 
States, a large proportion of them illegal in the sense that 
they have overstayed their visas or they have not complied with 
other requirements of being in this country. And so aspects of 
controlling that type of foreign national, which specifically 
pertains to the people who were involved in the September 11th 
incident, ought to be a very high priority.
    Finally, our fourth area of recommendation had to do with 
military operations to combat terrorism. And there, it is clear 
that the most important military element to deal with homeland 
defense is the National Guard. This involves two major policy 
changes at the Federal level.
    One is to be sure that there is adequate funding for the 
National Guard in order to provide for their homeland defense 
mission, which often would otherwise be left to State funding 
which, as the Governor mentioned, is not really available in 
concrete terms.
    And the other thing is that our national war plan must be 
reviewed to be sure that we are not depending upon National 
Guard troops to be serving overseas in the series of military 
activities taking place in foreign nations at the time that 
they may be needed for homeland defense within this country.
    We also, I think, have to review the issue of to what 
extent we want National Guardsmen to be on duty essentially 
full time, as they are presently at the airports, inasmuch as 
this interferes with the concept of citizen soldiers or citizen 
military personnel in which they still have to go about their 
normal jobs and carry out the responsibilities of their 
employment.
    Finally, Mr. Chairman, members of the committee, let me 
make a couple of observations that cover the entire report. One 
is, we believe it is absolutely critical that homeland defense 
and homeland security be engaged without in any way violating 
the essential liberties guaranteed by the Constitution. We feel 
it is possible with the proper planning, with the proper 
oversight, of the entire homeland security effort that we can 
indeed continue, even though we may deal--we may have to invade 
some of the conveniences that people enjoy, such as at 
airports, which we know about at the present time. But the 
basic protections of the Constitution must be guaranteed to all 
U.S. citizens at all times, including time of war.
    Second, I would reiterate what the Governor said in terms 
of the first responders. We know it will be the local police 
and fire who are responsible, and medical emergency medical 
services for the initial response. This means that Federal 
funding must be adequate to give them the necessary planning 
and coordination capabilities to give them the equipment they 
are going to need, to give them the training, particularly, and 
Federal agencies can be very helpful as in the FBI providing 
intelligence training to local law enforcement.
    But particularly the point that the Governor made, which I 
would like to reiterate and which is contained in our report, 
the importance of exercises to work out the plans, to see what 
works and what doesn't, to see what glitches occur, to see what 
difficulties there are, and I suspect, as the Governor 
mentioned, the communications difficulties, the 
interoperability of radios, for example, will be one of the 
first things that would be recognized if an exercise were held 
today.
    Third, it is important, I believe, that the intelligence, 
as I mentioned earlier, be shared horizontally among Federal 
agencies, and then vertically with State and local agencies.
    And finally, let me again mention the fact that control of 
our borders is an absolute key if we are going to provide 
adequate protection against terrorism.
    Mr. Chairman, I believe that concludes my testimony, but I 
would be happy to respond to any questions.
    [The prepared statement of Mr. Meese follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Meese, thank you very much. And thank you 
for such a thorough statement in writing. You couldn't possibly 
cover it in 10 minutes, the four areas. The significant number 
of priorities you stated in each area are very helpful to the 
committee, and I have a feeling very helpful to Mr. Ridge's 
office as well. So I thank you for that.
    First, let me just recognize the presence of a very active 
Member, Mr. Tierney from Massachusetts. We are going to start 
with Mr. Otter. If you wanted an opening statement, we will 
have you use the opening statement in the next panel, if you 
want to use an opening statement because we are somewhat under 
a time restraint with this panel. Mr. Otter.
    Mr. Otter. Thank you very much, Mr. Chairman. And I would 
like to start out with the Governor. I happened to be in the 
audience 2 weeks ago in Boise, Idaho, Governor, where you gave 
a very comforting speech. I will tell you that the thousand 
people in that room went out of there feeling like we truly did 
have the leadership at the State level, in many of the States, 
and it was a great source of comfort to most of those folks, 
because they hadn't had the opportunity obviously to hear a 
Governor speaking from a national level on the importance of 
our readiness and on the importance of this war against 
terrorism.
    Your State was the first one, I should say was the State 
prior to September 11th that had witnessed--had been the victim 
of the worst terrorist attack on the United States prior to 
September 11th. And I know that you stated during your opening 
statement that there were several conditions that the Federal 
Government did not seem to be prepared for when they came to 
Oklahoma City to help you assuage the problems that were 
created by that terrorist attack.
    I am also familiar that you did make many recommendations, 
or many recommendations were made as a result of that terrorist 
attack to the Federal Government. Could you briefly go through 
those for us and which ones the Federal Government did adopt 
and has not yet adopted that may have helped us greatly with 
the events of September 11th?
    Mr. Keating. Mr. Otter, after the April 19, 1995 tragedy in 
Oklahoma City, I had occasion to share my observations and 
experience with many different Federal agencies and 
individuals, and I think those suggestions and observations 
were placed in action plans and were in fact a part of the 
response suggested in the event of a national or man-made 
calamity.
    The challenge, of course, is that you have a rescue and 
recovery mission on the one hand, and a criminal investigation 
on the other. In Oklahoma City, for example, with wind and with 
rain, with a building that could collapse at any minute and 
literally kill hundreds of additional people who were rescue 
workers in that building, the FBI was conducting a 
comprehensive criminal investigation and found the key, as a 
matter of fact, some blocks away to the rental truck that was 
responsible for taking the bomb to the site. So it was an 
extraordinary cooperative venture.
    We could not prepare for such a thing. We did not because 
we never anticipated it. But because of rough weather in our 
section of the United States--some sections of the country have 
hurricanes and some floods and some mud slides and some forest 
fires. We unfortunately have been plagued obviously by 
tornadoes in the central part of the United States. We had 
prepared for those kinds of scenarios, bringing together the 
hospitals and the rescue workers and the police and fire and 
the like where they did know what to do. And that was basically 
the response to the terrorism event. I think the suggestions we 
had about using the military, and having military assets 
quickly available, having FEMA come within 24 hours, and do the 
superb job, the excellent job that FEMA does do, all of those 
things that were suggested, all of those things that worked, I 
think worked in New York.
    I can't think of anything--for example, providing perimeter 
security. That was something we suggested, not only to avoid 
looting, but we had 320 buildings damaged or destroyed. We had 
no act of looting at all. New York was slow in getting their 
perimeter established.
    But the other things that we suggested were done. But what 
was not done was interoperable communications gear, because the 
people who come from out of State have their own systems and 
their own frequencies. Even the people within State. In the 
event of a massive--and, Mr. Otter, you are right. I think that 
if bad people continue to do bad things, we may have other 
events like September 11th. If you have a huge onslaught of 
professionals, firefighters, police officers, rescue workers, 
public health professionals, they had better be able to talk to 
each other, because they have to warn each other of what is 
ahead as well as suggest a response.
    That is--that was, in my judgment, the biggest missing link 
in Oklahoma City, and the biggest missing link on September 
11th, the fact that a lot of those people could not talk with 
one another.
    Now, the FEMA teams are highly trained. The problem is, you 
want to make sure that all of our local law enforcement know 
what they are going to do, the local fire service, they are all 
trained together. They speak the same language regionally and 
nationally and, of course, locally. They identify the same 
problem. They respond, especially in a bioterrorist or 
radioactive challenge, in the same way. That is the thing that 
most concerns me, that we are not dealing with one bomb and one 
building that knocks down 320 other buildings, but perhaps a 
regional challenge, or a very large metropolitan challenge, to 
be able to have many other agencies together.
    We do practice, as Mr. Meese has indicated, but we really 
need to make sure that we are practicing on a national scenario 
plan more than just simply our little local challenges.
    Mr. Otter. Thank you. My time is up. But I just want you to 
expand just a little bit on that because I see a potential for 
us here in citing and recognizing the common denominators in a 
terrorist attack that would be the same throughout the United 
States. But I also see some geographic discipline that is going 
to be needed, because there are--there is terminology, there 
are many situations. And I think Mr. Meese mentioned a couple 
of those with infrastructure, that are particularly unique to 
the West or perhaps to the Pacific Northwest, that we are going 
to need some regional geographic discipline as well, aren't we?
    Mr. Keating. Absolutely. In our planning process, State by 
State, that is the missing piece, to regionalize the response, 
because you have sometimes highly urban populations up against 
very rural borders. And you may have an event, let's say a fuel 
spill, I mean a train derailment, or in Oklahoma's case, for 
example, you have most of the pipelines in the United States go 
through that State. If you were to have an event there, you 
need to know are there people coming who have knowledge of how 
to respond to this, and is there a regional response able to 
come, not just simply local. That may actually be further away 
than a regional response.
    Mr. Otter. Mr. Meese, would you like to respond to that? I 
see you getting to the edge of your chair.
    Mr. Meese. No. That is fine.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Shays. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I want to 
thank the witnesses and say to Mr. Keating when I read your 
testimony about the importance of involving State and local 
responders, you know, you certainly have the experience on 
this. And I, by having been a mayor, I can tell you that I 
understand totally the points you are making, as well as 
addressing the issue in your statement of avoiding Federalizing 
local response.
    I think that is a particularly important point for this 
government to keep in mind, because there are great 
constitutional implication there. And your speaking out on 
that, I think, is extremely important. And I want to let you 
know that I support that.
    I would like to, for the moment, turn to the testimony that 
was provided by Attorney General Meese, and say that first of 
all the presentation that the Heritage Foundation's homeland 
security task force has come up with is quite comprehensive. I 
think that many of us in Congress would agree with most of it. 
You might understand not all of it, but most of it. And the--
you know, it shows a well thought-out approach.
    Mr. Meese. Thank you.
    Mr. Kucinich. But there is one area in particular that I 
thought would be interesting to talk about, given our next 
witness. And that is, the section of military operations to 
combat terrorism.
    Priority No. 2, protect U.S. borders and critical national 
infrastructure with air defense and missile defense. I would 
like to focus on that part of your testimony and ask you on 
what basis of a threat assessment do you conclude that the 
threats of an attack by cruise missiles and ballistic missiles 
requires that United States establish a robust air and cruise 
missile defense system and begin testing ballistic missile 
defenses on land and at sea, on full design capacity, and that 
Congress--and the--that the Congress should go ahead with 
providing additional funding and that the Pentagon should 
deploy these defense systems? Can you share with this committee 
the basis of that threat assessment?
    Mr. Meese. I would be happy to. As a matter of fact, there 
are a number of sources of this. One of the important aspects 
of this was the Rumsfeld Commission, which during the last 
administration looked into this at the behest of Congress, and 
found that there were--that there were a number of nations now 
that have ballistic missile capability, and that many of these 
nations also had the capability for weapons of mass 
destruction, not only in the nuclear field, but also in the 
chemical and biological field, and that this was true, and 
there has been other studies since that time that verify this. 
It was true not only in terms of the importance of ballistic 
missile defense to protect the United States but also to 
protect the lands of our allies, such as the Republic of China 
and Taiwan and other places.
    And so the ballistic missile defense I think has repeatedly 
come to the attention of both the public and the U.S. 
Government as a key part of our total homeland defense here, as 
well as the ability to carry out our international obligations.
    Mr. Kucinich. I thank the attorney general. The question, 
of course, was raised with respect to defense of this country. 
It is my understanding that the Rumsfeld Commission focused on 
speculation regarding a medium-range missile, known as Typo 
Dong that dealt with the capacities of North Korea.
    I am going to have to be more specific, Mr. Attorney 
General, and ask you on what basis should the United States 
deploy a missile system to defend against long range, 
intercontinental ballistic missiles? What is the threat 
assessment?
    Mr. Meese. We have a number of countries that either have 
or are developing an intercontinental ballistic missile system. 
And----
    Mr. Kucinich. Which countries are those?
    Mr. Meese. Well, obviously the former countries of the 
Soviet Union, several of them have intercontinental ballistic 
capability. There is talk about Iraq developing a longer range 
ballistic missile capability, as well as in North Korea. So 
there are a number of countries.
    There is also the possibility of this technology being 
seized by rogue elements of the military. This is particularly 
true in some of the countries of the former Soviet Union. So 
there are a number of threats. But the fact that this--we also 
have, of course, the potential in Iran. There are other 
countries as well.
    The fact that this technology is being exchanged or could 
be exchanged between countries that have it at the present 
time, and those other countries that might use it to our 
disadvantage, indicates that we should be working on this at 
the present time.
    The time that you need a ballistic missile capability or 
any defensive capability is not when the attack comes, and 
particularly with a complex system such as this. It takes many 
years of development in order to have it ready when the time 
comes that you need it. It is very similar to the research and 
development that went into other major advances in warfare such 
as the airplane, certain types of ships, nuclear submarines and 
the like. And so it is the time length that is involved in 
developing these that means that we should not be behind the 
curve.
    Mr. Kucinich. All right. Mr. Chairman, I would just like to 
submit for the record--I thank the gentleman. And I would say 
to the gentleman again, I appreciate the tremendous work that 
Heritage has done on this. The one area that I have great 
concern about is on the area of threats assessment, Mr. 
Chairman. I want to submit for the record this study of threat 
assessment done by the Carnegie Endowment for International 
Peace, which says actually that the trend on threats, threat 
assessment for intercontinental range ballistic missiles is 
down, that threats--intermediate range ballistic missiles down, 
the threats for nations with ballistic missile programs of 
concern, down. The potentially hostile nations with ballistic 
missile programs, down.
    And I think it is important that as we get into these 
discussions that we try to use the most available information. 
Thank you.
    Mr. Meese. Mr. Chairman, if I might respond to that, 
because I read that report. And I noted that it was a very 
subjective report designed to--where the--even the charts there 
were designed to reach a certain conclusion that the authors 
had in mind, which was not borne out by the factual material 
that they even included in their report.
    One of the things we have to recognize, that while indeed 
there may be fewer nations, only because of some of the 
international things that have occurred recently, the fact that 
the potential that those nations have, has increased 
considerably in recent years.
    So I would say if you look at the whole report and the 
underlying data, it gives a very different picture than the 
conclusions that might be reached.
    Mr. Kucinich. Thank you very much, Attorney General. I 
would like to associate myself with your remarks with respect 
to the Rumsfeld Report.
    Mr. Shays. Bottom line, this committee will be, at the 
request of the minority, holding a hearing on national missile 
defense, so we will probably get into more of that. It is only 
a small part of the overall picture here, but a legitimate 
question to ask our witnesses.
    Mr. Keating, I am very interested in getting a sense of 
what kind of clearance problems you might have encountered or 
if you anticipate there are potential clearance problems. Let 
me just illustrate. We had police chiefs who basically came 
before us and said that--Mr. Meese, happy to have you respond 
to this as well--saying that they had personnel assigned to 
work with the FBI and other offices of the U.S. Government in 
which their officers had clearance, but the chief of police was 
not told what was going on, and he or she did not have 
clearance.
    I am wondering if the same thing applies to Governors as 
well.
    Mr. Keating. Regrettably, yes. As a matter of fact, I had a 
similar incident. I appointed the adjutant general of Oklahoma, 
who served our people most capably after the Oklahoma City 
bombings. I am the commander in chief of National Guard of 
Oklahoma. Bob Ricks, who is our commissioner of the Department 
of Public Safety, former DEA general counsel, former deputy 
assistant director of the FBI, special agent in charge of the 
FBI during the Oklahoma City bombing, General Korite came to 
the two of us and said, well, I have got some information that 
I have to share, but I can't share it with the two of you 
because you are not cleared.
    Well, I was his boss. And obviously Commissioner Ricks is 
the chair of our response and avoidance team. He needs to know. 
Well, I don't question the need for clearance. What I hope is 
that those clearances can be speedily provided to those public 
officials, like mayors, like Governors that have to take charge 
and respond to a national or man-made disaster, particularly 
those that require some degree of clearance.
    There is a level of discomfort and embarrassment over this 
but it needs to be addressed and in our case it has been 
addressed. But still it's disquieting.
    Mr. Meese. I would certainly concur with the Governor. Both 
he and I, for example, had the highest security clearance you 
could get but when we served in the Justice Department I don't 
think it would be very hard for them to update those clearances 
rather quickly. I would suspect that in most cases the 
background investigations could be performed quickly on police 
chiefs, mayors and Governors. But I think it's absolutely 
critical that those people in the chain of command where there 
would be a response or the need to prevent a terrorist incident 
have the necessary clearances available so that no intelligence 
would be kept from them.
    Mr. Shays. One of the untold stories, frankly, with the 
past administration continues today. This one is the number of 
security clearances that have not been done. Hundreds of 
thousands backlogged. So even the private sector that hires 
people that need clearances, they may be on the payroll for 9 
months, say, at Sikorsky or United Technology, Pratt & Whitney 
and not be able to do the job they're paid to do because they 
don't have clearance. So it's a major problem.
    We knew it was a problem with the chiefs of police. I am 
frankly very surprised to learn that it would be with the 
Governor and, obviously, mayors on occasion need it as well. So 
Governors, mayors, chiefs of police, anyone else that strikes 
you that we need to be looking at in terms of trying to 
encourage clearance?
    Mr. Keating. I think that would be obviously the 
centerpieces of an intelligent avoidance piece. Obviously we're 
not talking about response here. I don't think we have a 
problem in most--in most response incidents. But the problem is 
every State if they're doing it wisely, for that matter every 
city, you have to have the sharing of information between the 
Federal and the State and local authorities so that we can 
avoid another calamity like September 11th. If you can't share 
that information to put people on high alert, you obviously are 
taking the risk of having another similar incident. But I 
didn't want to admit to my wife that I wasn't cleared, but it 
was rather awkward and embarrassing during that period of time.
    Mr. Shays. The amazing thing is as soon as you're elected 
as a Member of Congress you have automatic clearance. I think 
we will be able to address it fairly quickly.
    Mr. Meese. I think, Mr. Chairman, it's particularly 
relevant now because the Office of Homeland Security is, as you 
know, kind of refining their system of alerts. It was indicated 
only within the last 24 hours I believe the new system they've 
developed. And with that needs to come the information that 
underlies those particular alerts so the proper response and 
the proper protective measures can be taken. That necessarily 
implies the people like Governors, commissioners of public 
safety, mayors and chiefs of police in determining how to 
deploy their forces in response to the particular alerts.
    Mr. Shays. State Attorney Generals as well.
    Mr. Meese. I would certainly think that the State Attorneys 
General. The people who have command responsibility for law 
enforcement and for emergency response, that would include 
directors of the State offices of emergency services, for 
example, others that might have a need to know. And that's been 
pretty well--the need to know concept has been pretty well 
established in the Federal Government. I think it could be 
extended today to State and local governments.
    Mr. Shays. I think we've made it pretty clear. I think the 
record would show that. But, I mean, in this process of I think 
five gradations of alert--are there five? Right. Bottom line 
you could have a very serious warning and yet under present law 
I'm gathering the Governor might not be able to be told exactly 
whatever the basis is for this alert.
    Mr. Keating. As Attorney General Meese said, some attorneys 
general are strictly civil officers. Some don't have any 
command and control responsibilities. But others do have 
responsibility for law enforcement, Governor is commander in 
chief of the National Guard and/or responsibility, in my case, 
for law enforcement as well. I mean for me not to be able to 
take that alert and reassure the public or take that alert and 
take action to prevent an event in my State certainly appears 
reckless not to be able to do that because you're denied 
information.
    As you know, we know from our own experience these 
clearances can be reasonably quickly obtained. They can be 
updated and there are gradations of clearance. All we're asking 
for is information which will protect us and provide us an 
opportunity to respond, which I don't think is too much to ask.
    Mr. Shays. I have about 5 minutes more of questions. But 
I'm happy to follow you, Mr. Otter, if you like.
    Mr. Tierney, any time you want the floor you can claim it.
    Mr. Tierney. No, thank you. I'm all set.
    Mr. Otter. Yes, I have a couple that I would like to 
followup both with the Attorney General and with the Governor. 
First would be on the security clearance. As we establish a pro 
forma for security clearances and the type of information that 
we put out with that, then how do we govern the distribution of 
that? We were told, this very subcommittee was told when the 
Army Corps of Engineers, for instance, made an assessment of 
the vulnerability of all of the infrastructure, whether it was 
the dams or power corridors or pipelines, whatever it was, how 
vulnerable we were, anybody that wanted to tap into and go 
online could have figured out not only where we were the most 
vulnerable but in many cases where exactly a small device could 
be put within a nuclear plant in order to blow up the plant and 
create the greatest amount of damage.
    So as we provide security for those that need it, security 
clearances for those that need it, how do we then govern the 
distribution of that information so that it doesn't get into 
the wrong hands?
    Mr. Meese. Well, this is always a problem with any 
information. And the need is to then, obviously concurrent with 
the clearances, provide necessary training to the people who 
have those clearances. My own experience, I found in the 
Federal Government you have hundreds, perhaps thousands of 
people that have security clearances of various types. And 
there's a discipline that goes with that in the departments. 
That same kind of discipline can be utilized and implemented by 
officials at the State and local level. I would say since in 
the Federal Government there's much more classified information 
that goes through offices, that at the local level this will be 
more of a novelty and therefore I would suspect at the local 
level there would be even greater attention to the need to 
safeguard this kind of classified information.
    Police departments every day have all kinds of information 
that requires a great deal of security about organized crime, 
about narcotics rings and so on. They seem to be able to handle 
this. I would say that they would be able to handle to this 
kind of information likewise.
    Mr. Otter. If I could get both of you to respond to this. 
Would the distribution of security knowledge include--go down 
as far as let's say--and I don't mean down, that's the wrong 
word to use--but would it include the county sheriffs? Would it 
include the 44 county sheriffs in Idaho?
    Mr. Keating. It really depends on the nature of the 
information, certainly rural California, as an example, that 
counties really provide the law enforcement. Municipalities do 
not have law enforcement. Those individuals are well trained 
and they are well educated and they certainly ought to be in a 
position, as the Attorney General said, on a need to know basis 
to provide assurance to the public and a response and avoidance 
piece to their law enforcement duties.
    Congressman, we're struggling with this now in my State, 
I'm sure Idaho, perhaps Massachusetts and Connecticut are as 
well, you know, are you going to make terrorism a crime. What 
is terrorism? Is that a status crime? And then are you going to 
provide the public the information they need to know, the media 
the information they need to know or are you going to put a 
cloak over everything or in effect make everything secret or 
everything subject to exclusion from open records. We're 
struggling with that right now. The legislature is in session 
as we speak. We're attempting to find that proper balance. 
There are some who want to overdo and basically take everything 
out of the public circulation. Others would under-do and not 
provide very much protection at all.
    So I mean we're trying to walk that very difficult straight 
and narrow.
    But I think what's most important is to be able to have the 
FBI call the sheriff and say we have a problem. Here is what 
we're looking for. You need to go out there and help us man the 
line, if you will. Police sheriffs, State police and what have 
you. So that kind of information is crucially important.
    Now, more arcane information, you know, should a sheriff 
have knowledge of the intricacies of a nuclear power plant or 
the intricacies of a pipeline? Perhaps not. I'm not sure that 
is particularly relevant. That information would perhaps not be 
helpful on the Internet and could be accessible, available to 
somebody who could do us harm. But law enforcement needs to 
know what is the threat. If you have a red threat or a green 
threat or yellow threat, whatever the threat may be, you need 
to be able to hand that off like a baton from Federal officer 
to State or local officer and say go get 'em. You have to have 
that seamless information. And those individuals need to have 
the access to the information. They need to have the security 
clearance to get it.
    Mr. Otter. Attorney General.
    Mr. Meese. I think it would depend in terms of sheriff. 
Reality would be is this principal the chief executive officer 
of a law enforcement agency. And this varies from State to 
State, even within States. In Virginia, for example, many 
sheriffs have complete law enforcement authority. Other 
sheriffs have only responsibility for detention in the service 
of court orders and they're county police departments. So I 
think the definition of the people that would need it are they 
are the chief executive officers of a law enforcement agency.
    Mr. Otter. The discussion that you had with the ranking 
member earlier made me think of the Idaho Constitution which of 
course is a duplicate, if you will, of the Federal 
Constitution. And actually the highest ranking Constitutional 
officer in the county is the sheriff and can only be arrested 
by one person and that happens to be the coroner.
    I would just ask you to reflect on one more thing. One of 
the greatest advances or I guess I should say deterrents is 
disinformation. Is there any part of the dimension of our 
national security in which we're purposefully--we're 
contemplating giving out disinformation in terms of our 
security and in terms of our strategy for that security?
    Mr. Meese. Well, I guess if we were to say that there was 
would itself be self-defeating then for any such 
disinformation. But I know of no such effort on the part of the 
U.S. Government and certainly I think it would be wrong to 
provide disinformation to public officials who have a duty to 
carry out particular responsibilities. But I think that we have 
enough trouble in the government generally just getting the 
right information let alone disinformation.
    Mr. Otter. I would only conclude--Mr. Chairman, I thank you 
for the flexibility you have given me in time here. I would 
only conclude that our first line of defense for our 
communities are going to be the individuals within those 
communities. And to the extent that we can get the citizens of 
this country, 283 million citizen soldiers out there all 
prepared to defend themselves, their families and then their 
communities, it would probably bring a little more purpose to 
the mandate that we were given with Flight 93 and the folks 
that took the airplane down in Pennsylvania. And I would hope 
that we always make that a generous portion of any national 
policy that we have.
    Mr. Keating. May I say something along that line. I had the 
opportunity before I came here to speak to a large Red Cross 
gathering in Milwaukee. The point I made to them, and I would 
encourage the Congress as you look at funding State plans, in 
effect that's what your doing, to encourage that municipalities 
be a part of that, that they sit on that board. You can say 
cities of 100,000 and more have to have a representative, 
whatever the suggestion might be, but also the nonprofit 
community. Because the Red Cross, all these people they show 
up. If they have no knowledge, if they are potentially affected 
by a very serious physical challenge by showing up, by 
providing meals, by being there heroically as they do day by 
day, the Salvation Army as well, they need to know these 
things. They need to be a part of the mix in discussing a 
response, not particularly the response piece but they must--
the health piece has to consider the 501(c)(3) community as 
well because they're going to be there with most of the assets. 
They're going to be there timely. They're going to be the very 
first people off the boat, if you will, will be those 501(c)(3) 
folks. They need to be at the table to know what it is they can 
expect if they get involved.
    Mr. Shays. Mr. Meese, I know you need to leave soon. Do you 
have 5 more minutes here? Let me say to you that I believe and 
I think a lot of other Members do as well that any 
disinformation program would be deadly because not only do 
public officials need the truth but our bosses do. If they're 
not told the truth, they're not going to be able to tell us the 
right things to do. And our bosses are being basically the 
general public. They need to know the truth to tell their 
elected officials what they want done. And so I just shudder 
when I think that there was any possibility of a disinformation 
program.
    We know in the early 1950's President Eisenhower had to 
deal with a new assessment of a threat and develop a new 
strategy along with Congress. And he brought everybody into the 
White House and into the Sun Room and it began to be basically 
the solarium project in which we developed a new threat, our 
ally, now our enemy, wanting to overtake us politically, 
economically, militarily, and the cold war began.
    We're kind of at that point right now. Where I am getting a 
little nervous is we basically have a very competent person--
not basically we do--in the Governor but he is an appointee of 
the President not answerable to Congress. And that's a fact. 
But he is in charge of doing something we need to ask questions 
about. What is the threat, what is our strategy, and how do we 
deal with it. All three commissions Bremer, Hart-Rudman, and 
Gilmore Commission said know the threat, have a strategy and 
then deal with it.
    I guess what I want to ask you do you think it's taking us 
too long to assess the threat. We've already started to take 
actions before we got the threat assessed. And who does 
Congress go to ask about these questions.
    Mr. Meese. Mr. Chairman, I think this is a very profound 
question that has Constitutional ramifications. I understand 
the reasons why a member of the White House staff, a member of 
the President's official family, is not--cannot--is not 
appropriate that they testify. I think there are, however, may 
be some way to reconcile this just as there is in matters 
relating to the budget where the Office of Management and 
Budget, which is also within the executive office of the 
President, the Director of OMB does in fact testify before 
Congress. And I think is a matter that might well be discussed 
with the President as to how to place someone, whether it's 
Governor Ridge or someone immediately as a spokesman for him 
that could testify to Congress.
    The other alternative, of course, would be to invite 
Congress to the White House for briefings there. I think 
there's no question in my mind that it's important that the 
Office of Homeland Security share information with the Congress 
so that the Congress, as the very direct representatives of the 
people, can know what's going on and obviously can deal with 
matters such as the budget, legislation, which are their piece 
of responsibility in terms of homeland security.
    I think that--so I think that this is a soluble problem 
that should probably be raised with the White House to see what 
kind of a solution can be gained. I know during the time I 
served in the White House there were many occasions where it 
was necessary to give information to the Congress such as in 
the Operation Grenada, which was a very sensitive operation 
where Members of Congress were brought to the White House so 
that information could be given to them. So I think there are 
ways of solving this. I agree with the chairman that kind of 
two-way communication is very necessary.
    Mr. Shays. Thank you. Mr. Keating, any comment? Governor, 
I'm sorry.
    Mr. Keating. I think the most information is the better. 
You all determine where the money is spent and how it is spent. 
And to have a dialog, a conversation between the executive and 
legislative branches I think is essential in order to be able 
to be truly prepared as a people. So I would certainly agree 
with what the Attorney General said.
    Mr. Shays. Thank you. You both are excellent public 
servants. You serve our country well, continue to do. We 
appreciate you honoring our committee with our presence. And 
thank you very much.
    We'll go to the next panel. Our next panel is comprised of 
four individuals. Ambassador L. Paul Bremer, who is Chief 
Executive Officer of the Marsh Crisis Consulting Co. He was 
chairman of the National Commission on Terrorism and co-
chairman of the Heritage Foundation Report, Defending the 
American Homeland.
    Mr. Randall J. Larsen is the Director of ANSER Institute 
for Homeland Security and previously a colonel in the U.S. Air 
Force. Colonel Larsen has been a frequent guest on Larry King, 
discussing counterterrorism issues, and other shows as well.
    We also have Mr. Joseph Cirincione, who is the Director of 
the Nonproliferation Project of the Carnegie Endowment for 
International Peace and a frequent contributor to newspaper 
opinion editorial sections.
    And Mr. Henry L. Hinton is the Managing Director of the 
Defense Capabilities and Management Office, General Accounting 
Office and has appeared before the subcommittee on numerous 
occasions.
    Mr. Hinton, we're going to swear in some of the other 
people as well, but is there anyone else who needs to be by 
your side?
    Mr. Hinton. No, sir.
    Mr. Shays. Let me ask to you stand. Let me swear you in and 
we'll begin with the testimony.
    [Witnesses sworn.]
    Mr. Shays. Thank you. I appreciate this panel listening to 
the first panel. Some of the questions and comments of the 
first panel you may want to make mention of in your statements. 
We are fortunate to have a co-chairman on both panels, so we 
appreciate that, and appreciate all of you being here.
    Ambassador Bremer, I give you special deference because you 
were a former resident of New Canaan, Connecticut, and also I 
might say the first Ambassador on Terrorism for the State 
Department. Sadly that wasn't continued, was it?
    Mr. Bremer. Actually I was the Ambassador for 
Counterterrorism.
    Mr. Shays. Counterterrorism, not terrorism. Excuse me. You 
always make me speechless. When you speak, would you use your 
mic.
    Mr. Bremer. Sorry.
    Mr. Shays. Go for it.

STATEMENTS OF AMBASSADOR L. PAUL BREMER III, CHAIRMAN, NATIONAL 
 COMMISSION ON TERRORISM, MARSH CRISIS CONSULTING; RANDALL J. 
LARSEN, DIRECTOR, ANSER INSTITUTE FOR HOMELAND SECURITY; JOSEPH 
   CIRINCIONE, DIRECTOR, NONPROLIFERATION PROJECT, CARNEGIE 
    ENDOWMENT FOR INTERNATIONAL PEACE; AND HENRY L. HINTON, 
MANAGING DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT, GENERAL 
                       ACCOUNTING OFFICE

    Mr. Bremer. Thank you, Mr. Chairman, for the opportunity to 
be here. You mentioned a very important point in your last 
comment to the Attorney General, which is that we are at a flex 
point in American national security policy, very similar to the 
position we were in in the period 1945 to 1947, when we had to 
find a new organizing principle for American foreign policy.
    In those days, as you pointed out, the organizing principle 
was to defeat and to contain and eventually defeat Soviet 
communism. That's a fight that took 50 years. The President has 
in his speech September 20th, in his State of the Union Address 
and in his statement yesterday in the White House made clear 
we're in a similar position now and that the new threat now is 
terrorism.
    And it's there for basically two reasons: One, because 
we're facing a new kind of terrorism where terrorists have 
moved away from a restraint in the number of people they kill 
to mass casualty terrorism most recently on September 11th and, 
second, because of the America's geopolitical situation. We 
dominate the world as no Nation in recorded history has 
dominated the world. This creates opportunities but also 
obviously creates resentments against America.
    The lesson of the Gulf War was that America is essentially 
not defeatable by conventional weapons. So people who resent 
and hate us are forced to consider moving to unconventional or 
asymmetric warfare using weapons of mass destruction or using 
terrorism. That is why we are faced in fact with a different 
situation today than we were on September 10th.
    And as the President correctly identified in his State of 
the Union address, we face a nexus, a nexus between terrorist 
groups who wish us ill, between States which support terrorism, 
and between States which have access to weapons of mass 
destruction. And in most cases, also weapons that have access 
to ballistic missile technology which poses a particular threat 
to our country, as the Attorney General pointed out.
    Now, this leaves us with a multi-faceted challenge. We've 
got to have new thinking across the board. We need to be able 
to change the culture of the way certain parts of our 
bureaucracy think, the FBI, the CIA. We need to have new means 
of communications between the Federal, State and local 
officials, as the Heritage Foundation study which I co-chaired 
showed, and we're going to have to understand there are no 
quick fixes. This is going to be a very long struggle.
    I think the most important message that the President has 
given, which I support fully is that we have to change our 
entire strategy. Mr. Chairman, in the last decade our strategy 
was basically to wait for terrorists to attack and then to 
respond. Wait and respond. The stakes are now so high that we 
have to shift to a strategy which I call detect and prevent. 
The President said yesterday in the Rose Garden there are no 
margins for errors, there is no chance to learn from our 
mistakes. And he is absolutely right. The stakes are simply too 
high to get it wrong. We have to move from an emphasis on 
deterrence to an emphasis on prevention. We have to do things 
differently.
    For example, in the Heritage Foundation we should be 
getting aircraft manifests before a plane takes off, not after 
it takes off. We need longer notice before cargo ships and 
cargos arrive at our ports. I'm glad to see that Congress is in 
the process of making that recommendation come into effect.
    Everyone needs to be involved in protecting the homeland, 
Federal, State and local officials as we said, the private 
sector and, as Governor Keating pointed out as well, nonprofit 
sector.
    The public itself needs to be involved. I was pleased to 
see that one of the recommendations of the Gilmore commission 
on which I served is being put into effect with the 
establishment of a domestic alerting system similar to the 
military DEFCON system, Defense Condition system, one of our 
major recommendations. Homeland defense does not begin at the 
border and it doesn't end at the border. As the Attorney 
General pointed out, we need to be concerned about how visas 
are issued. I'm pleased to see that the Congress is in the 
process of encouraging the establishment of a single lookout 
system, lookout data base so that everybody involved in border 
security can be looking at the same system.
    And, of course, we've had the establishment of the Office 
of Homeland Security under Governor Ridge. I have, as you know, 
Mr. Chairman, supported the establishment of the office and 
believe Governor Ridge is doing a heroic job trying to get his 
hands around the multi-headed, hydra-headed bureaucracy.
    I think it's only fair to point out that all of the 
commissions which you cited at the beginning, Mr. Chairman, 
also noted that Congress is not well organized on 
counterterrorism. There are some two dozen committees up here, 
that's before September 11th, I hate to think how many there 
are now, which assert some jurisdiction in one form or another. 
I'm pleased that the Speaker in this Chamber has at least 
established a Subcommittee on Counterterrorism to the House 
Intelligence Committee, which is at least a first step in 
trying to pull together this Chamber's approach to terrorism. 
But as you rightly criticize the Federal Government's lack of 
organization, from time to time I think Congress should look in 
the mirror as well. Congress is not very well-organized either.
    I think the most urgent thing that I would like to focus on 
today, and I'll be very brief, is to counter the threat of 
biological terrorism. It is important to get a nationwide 
health surveillance system in place. Again, steps are being 
taken in that direction. It's very, very important to 
accelerate research for drugs and vaccines against 
bioterrorism.
    Now that the human genome sequence is available on the 
Internet, the nightmare is that some microbiologist somewhere 
will create a virus we've never heard of for which there are no 
vaccines.
    I'm pleased to say that the National Academy of Sciences 
has established a commission that is looking urgently at how 
the scientific community in the United States can be brought to 
bear on the problem of focusing research on these biological-
chemical-radiological threats. I'm serving on that commission. 
We hope to have a report to Congress and the President in the 
next couple of months.
    This is going to be a long and difficult fight and every 
American life will be touched in some way by the battle. As the 
President said yesterday, there are more dangers and more 
sacrifices lie ahead. And he is surely right.
    Thank you.
    Mr. Shays. You were right, you were very mercifully brief 
but very precise. Mr. Larsen.
    Mr. Larsen. Thank you, sir. I'll be quick. Several things I 
want to discuss. First of all, I agree with Ambassador Bremer 
on many things he said. He's also been studying this for a long 
time. I've been looking at it since 1994, the idea of new 
thinking and new cultures as he mentioned.
    I was asked to talk about how we've done in the first 6 
months. I think Governor Ridge's office has done a marvelous 
job in his top priorities of training and equipping first 
responders. Bio defense, I agree with the Ambassador, I've been 
studying that for many years. Bio threat concerns me more than 
any other that we could face from external threats. Protecting 
our borders, information sharing, which was discussed earlier, 
is incredibly important, and the alert and warning system which 
will be announced today.
    However, if we could have that first slide up there, 
please. The executive order that was signed by the President on 
the 8th of October creating Governor Ridge's office, I think 
this is some of the cold war thinking that we're going to have 
to progress beyond. This is exactly what we needed on 8th of 
October. We did not know what attack was going to come on the 
9th of October, whether it was going to be larger and far 
worse. We needed something to unite us to work together on. If 
you take the word ``prevent'' out of there, it looks like a 
framework that would be used by FEMA to respond to a natural 
disaster.
    One of the things we have to understand is when Hurricane 
Andrew hit Miami it was no smarter from Hurricane Hugo's 
experience in Charleston. The thinking enemies we are dealing 
with are smarter now once they have seen our reaction to the 
anthrax attack on the Hart Building and how slow we were to 
respond.
    This is not the framework we need for the long term to 
build a national strategy that you talked about so often, Mr. 
Chairman. This is a great tactical and operational strategy.
    If I could have the next slide. This is a concept we've 
been working on since about 1999, when we first developed this 
at the National War College to look at. We began with 
deterrence over there. You sat here during the Dark Winter 
exercise when we were here in July. Deterrence, prevention, and 
preemption are the most important things and we talked about 
that. You'll see that Governor Ridge has virtually no--on my 
next slide you'll see that he has no real coverage of that.
    Deterrence is far more difficult than during the cold war. 
Deterrence is either based on punishment or denial. In the cold 
war it was all punishment because we knew civil defense was 
pretty much a placebo that didn't work. Now deterrence is much 
more based on denial. So we talk about public health 
infrastructure and consequence management, yes, that's going to 
save lives but it also may help us deter it.
    Prevention are defensive things, everything from aerospace 
defense, maritime defense, border controls. When I showed this 
to former Speaker of the House Tom Foley, he said in prevention 
you should include a Marshall like program for those parts of 
the world that tend to breed terrorism.
    Preemption used to be something that was a four-letter word 
in the cold war because it was tied to the first use of nuclear 
weapons. Something we wouldn't do. I think we need to rethink 
preemption quite a bit. When we have seen what small actors 
could do to our Nation, unfortunately there's a fine line 
between preemption and aggression. So it's something we have to 
look at carefully, but I think it's something we need to 
consider.
    Crisis and consequence management, that's FBI, lead Federal 
agency, consequence management FEMA, I'll jump over those. 
Attribution is an important element in this strategic cycle. We 
still don't know, the FBI Director last week said he doesn't 
know if it was a domestic or international source that sent 
that letter to Senator Daschle's office and the other letter. 
Until we can do the scientific work we need to help us with 
attribution for biological or cyber attacks and even nuclear 
attacks, we have very little chance of an effective response 
and re-establishing deterrence.
    Now who's in charge of attribution? Clearly the FBI. Their 
budget last year was $3 billion. They don't have the science 
capability that our national laboratories do, civilian and DOD. 
That is the linchpin to this entire cycle. Once we figure out 
who did this attack to us when it happens, then we can properly 
respond. I use the respond there because if it's domestic we'll 
prosecute. If it's an attack from an external power we'll 
retaliate, as we did in Afghanistan.
    That's not for revenge, that's for two purposes: One to 
eliminate the capability to cause further harm, and No. 2, to 
reestablish deterrence.
    Now if you'll just go quickly to the next slide. The shaded 
area up there on the left, that is a busy slide, but just look 
at the shaded area. It's kind of hard to see up there. But 
you'll see Governor Ridge's responsibilities are for crisis 
management and consequence management, one little segment in 
prevention. That executive order, all it defines prevention as 
is preventing bad things and bad people from crossing borders. 
Prevention to me is much larger than that. I brief this concept 
to senior people in Governor Ridge's office, DOD CIA, a lot of 
folks up here on the Hill. They seem to like this idea of a 
strategic cycle. I think it's something you should consider 
when we talk about building a national strategy, a threat 
assessment of what we look at.
    Just two more quick slides here to show how complex this 
is. People ask me how is Governor Ridge doing. I say well, 
first of all, you have to understand he has the most complex 
challenge any Federal official has had. You take those 7 
mission areas, you lay them across the top of that, then the 
down left side the most likely threats we're going to face. If 
you look at who the Federal Government is responsible for 
chemical consequence management, a total group of people that 
are completely different than cyber prevention. Who is in 
charge of all that? But this is a rather simplistic chart. If 
you go to the last, this is what it really looks like. Because 
you got to put Federal, State, local and the private 
organizations in there. That is the job we have given Governor 
Ridge. I'm not sure he has all the authority to do it that he 
needs. And particularly I think there should be one Federal 
official in charge of that entire strategic cycle.
    The next thing I want to mention, I'll sum up quickly here, 
a lot of money is being spent on training. I think that's very 
important that we do that. I haven't seen many proposals yet 
for education. In many respects, Mr. Chairman, I think we're 
sitting right here similar to where we were in 1952 and with 
regard to the cold war.
    In 1952 Herman Kahn hadn't started writing, Henry Kissinger 
hadn't started writing. There was no discipline known as 
national security studies at our great institutions. We need to 
develop an academic discipline called homeland security 
studies. So, yes, let's spend the money to train the first 
responders, but I'm talking about educating people from the 
State legislature level on up that are going to have to make 
decisions not just in crisis but do I fund a new sewer system 
or do I do something that is going to have to do with homeland 
security.
    I think that's very important. I see Senator Frist 
mentioned that in his speech yesterday down in Florida. He said 
people are more important than technology in this, as General 
Schwarzkopf said after the Gulf War.
    I have a few more comments, but I'll end them there because 
I'm over my time.
    [The prepared statement of Mr. Larsen follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Cirincione.
    Mr. Cirincione. Thank you very much, Congressman. It's a 
pleasure to testify here today.
    I spent 10 years in the professional staff of the House 
Armed Services Committee and this committee. From 1991 to 1994 
I served on this subcommittee. It's easier being on the other 
side, I'll tell you that right now.
    I am Director of the Nonproliferation Project at the 
Carnegie Endowment, and as such I was the author of the study 
that was referred to in the previous panel.
    Some may have interpreted Mr. Meese's remarks to indicate 
that he had some question about the integrity of that analysis. 
I had the opportunity to speak with him just as he left and he 
assured me that was not his intent.
    I did develop an analysis that indicates that the ballistic 
missile threat to the United States is actually decreasing. I 
invite comment and improvements on that analysis.
    What I'm here to talk about today is the way we've been 
doing our national threat assessments. It's my belief that part 
of the reason the United States was so unprepared for the 
attacks of September 11th is that for the past few years the 
way our political process has handled the national threat 
assessments it's been given has consistently pointed us in the 
wrong direction. In part, this is a result of some of the 
partisan political warfare that was so prevalent in Washington 
over the past few years.
    As examples of this I can point to the two studies that are 
most widely known as independent threat assessments. Those were 
both chaired by Donald Rumsfeld as it turns out. The first was 
the report of the commission to assess the ballistic missile 
threat to the United States which warned that the United States 
faced a threat by missiles that could be fielded by a hostile 
State with little or no warning.
    In January 2001, the report of the commission to assess 
U.S. national security, space management and organization 
warned just as ominously that we faced a Pearl Harbor in space 
unless we immediately deployed a new generation of sensors, 
satellites and weapons.
    Together these reports fortified a particular national 
security vision favored by some conservatives and heavily 
influenced the political debate of threat assessments and 
budgetary priorities.
    Now we've all made mistakes in the past. Let me start by 
acknowledging our mistakes; that is, proliferation experts. We 
have made serious mistakes over the past few years. As a person 
who spends most of his professional career tracking the spread 
of nuclear, chemical, and biological weapons I think we have 
overemphasized this danger. That is, we thought the main danger 
to the United States was going to come by people developing the 
kinds of weapons that we did during the cold war. And we 
overlooked the kinds of attacks that occurred on September 
11th. These terrorists didn't study physics or biology. They 
studied flight manuals. They stole what they needed and they 
turned our own technological marvels against us.
    Similarly, whoever perpetrated the October anthrax attacks 
didn't do the kind of biological attack we thought we would 
experience. They either didn't know or didn't care that a 
sophisticated dispersal mechanism was needed to maximize 
casualties. They did a cheap but extremely effective biological 
attack that we were frankly unprepared for.
    As a Nation, as experts, we have to redefine what we mean 
by mass destruction. I would say we now have to expand that 
definition of weapons of mass destruction to include the kinds 
of attacks in our critical infrastructure that we experienced 
on September 11th. We have to reassess our assessments. Are we 
getting the kind of national threat assessments that we need to 
get and we have to reorient. I strongly agree with Chairman 
Shays' comment that short-sighted attachments to the status quo 
only increase the likelihood and lethality of the next attack.
    Very often we have gotten the warnings but we have ignored 
them. And some of the gentlemen that are here today have been 
making those warnings. As I point out in my written testimony, 
we were repeatedly warned that we faced a danger, an imminent 
danger of a terrorist attack.
    One of the people that I spend a lot of time paying 
attention to is the head of the Defense Intelligence Agency, 
Vice Admiral Thomas Wilson. I have his testimony from a year 
ago, from January 2001. He detailed eight dangers that he 
feared in the next 12 to 24 months. So this is February 2001. 
The top of his list, a major terrorist attack against the U.S. 
interests either here or abroad, perhaps with a weapon designed 
to produce mass casualties. His second item, worsening 
conditions in the Middle East. He goes on to detail eight 
other--a total of eight challenges, four of which in fact 
turned out to have occurred in those next 12 months.
    He also identified a threat of an expanded military 
conflict between India and Pakistan over Kashmir, something 
that did flare up in November and December of this year and 
thankfully has receded. He also identified intensifying 
disagreements with Russia over U.S. policy options, something 
that did flare up but thanks to the skillful diplomacy of 
President Bush and the wise strategic reorientation toward the 
West of President Putin that danger is now gone.
    Anybody who is detailing eight dangers and four of them 
turn out to be right is somebody I would like to listen to. The 
problem is we didn't listen to this, because of, frankly, 
political considerations. Congress and the executive branch 
emphasized the threats that were most convenient to our 
political agendas. So we spent a lot of time and attention on 
ballistic missile threats. We spent $8 billion a year on 
ballistic missile threat. Is that where we should be putting 
our money? Is that the most urgent threat?
    I would argue that it is not, that we have to find a way to 
depoliticize our threat assessments to come up with a national 
consensus on what the true threats are. I would encourage this 
committee to see if we can't devise a way to get a global 
comprehensive threat assessment that is nonpartisan, nonbiased, 
removed from the particular political agendas of the moment 
that can help guide our budgets, our diplomacy and our policy.
    Thank you very much.
    [The prepared statement of Mr. Cirincione follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you very much.
    Mr. Hinton, thank you very much as well for participating. 
Sometimes we put GAO as a special part of a panel. But I wanted 
the synergy of the four of you together, as I said before. So 
thank you.
    Mr. Hinton. Thank you, Mr. Chairman, Mr. Kucinich, members 
of the committee. I appreciate the opportunity to discuss with 
you today our country's progress in combating terrorism to 
enhance homeland security. Protecting the United States and its 
citizens from terrorism is a national effort involving both the 
government and nongovernment sectors. Such broad-based efforts 
are inherently difficult to lead and manage. We've heard that 
this morning. It's been a theme. Enhancing homeland security 
involves all 50 States, the District of Columbia and the 
Territories, thousands of municipalities, more than 40 Federal 
agencies and countless private entities. These organizations 
have multiple specialized missions, distinct organizational 
cultures and millions of employees. Trying to effectively 
involve them in a single coordinated effort is a monumental 
undertaking.
    As requested, my testimony will cover three areas: One, 
progress in enhancing homeland security through legislative and 
executive action; two, the preliminary results of our work 
we're doing for you, Mr. Chairman, and other Members of the 
House on integrating the efforts of all levels of government 
and the private sector into an overall homeland security 
strategy and; three, an approach that could be helpful in 
integrating governmental and private sector organizations into 
the Office of Homeland Security's planned national strategy.
    Very briefly in response to those three objectives. One, a 
variety of legislative and executive branch actions to enhance 
homeland security were underway prior to September 11th or have 
been taken since that day. After the attacks the President 
established the Office of Homeland Security, which plans to 
issue its national strategy in July of this year. In the 
absence of a national strategy agencies have been implementing 
many homeland security initiatives, including planning to 
produce new vaccines against anthrax, and expanding the 
existing smallpox vaccine stockpile, providing additional 
planning and training for State and local disaster response and 
enhance aviation, seaport and border security.
    Legislative actions include appropriations of about $19\1/
2\ billion for 2002 and about $10 billion contained in the $40 
billion emergency supplemental bill that was enacted shortly 
after September 11th. And for 2003 the President has requested 
about $38 billion for homeland security.
    Our on board work, Mr. Chairman, indicates that government 
and nongovernment activities are looking to the Office of 
Homeland Security for further direction on how to better 
integrate their missions and more effectively contribute to the 
overarching homeland security effort. Without a strategy in 
place some Federal agencies are not sure what else they should 
be doing beyond their traditional missions. They also do not 
share a common definition of homeland security.
    Even though officials at key Federal agencies believe such 
a definition is needed to promote a common understanding of 
operational plans and requirements, to enforce budget 
discipline, and to avoid duplication of effort and gaps in 
coverage, although Federal agencies are looking for guidance, 
they also want to ensure that their organization's unique 
missions are sufficiently factored into the national strategy 
and implementing guidance as developed. Officials in State and 
local governments that we interviewed are also looking for 
assistance in terms of funding relief and better access to 
threat information, a theme that we heard this morning from the 
Federal Government.
    Finally, private sector entities expressed a willingness to 
contribute to homeland security, but they are concerned about 
the potential for excessive Federal regulation. Once the 
national strategy is issued, Mr. Chairman, Federal, State and 
local government agencies and private organizations will need 
to work together to effectively implement the goals and 
objectives. Public/private partnerships were used to address 
the Y2K concerns and can be similarly used to promote 
implementation of the national strategy by public and private 
sector organizations.
    These partnerships that came about in the Y2K debate were 
implemented through five broad efforts: One, congressional 
oversight of agencies to hold them accountable for 
demonstrating progress to heighten public awareness of the 
problem; two, central leadership and coordination to ensure 
that Federal systems were ready for the date change to 
coordinate efforts primarily with the States and to promote 
private sector and foreign government action; three, 
partnerships within the intergovernmental system and with 
private entities divided into key economic sectors address 
issues such as contingency planning; four, communications as 
we've heard this morning to share information on the status of 
systems, products and services and to share recommended 
solutions; and, last, but very importantly, human capital and 
budget initiatives to help ensure that the government could 
recruit and retain the technical expertise needed to convert 
systems and communicate with other partners and to fund 
conversion operations.
    There are many parallels that are evident from the Y2K 
experience that can be translated to the current debate around 
homeland security.
    Mr. Chairman, that concludes my statement. I'll be ready to 
take any questions you may have.
    [The prepared statement of Mr. Hinton follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you very much. Mr. Tierney didn't 
participate in the first round and, with Mr. Kucinich's 
concurrence, we're going to go to him first.
    Mr. Tierney. Thank you. Mr. Chairman, if it's acceptable to 
everyone, I'll submit my statement for the record and then just 
ask the questions because I have to run.
    Mr. Shays. Sure, that would be good.
    Mr. Tierney. I thank the witnesses for their indulgence. 
Somebody mentioned either, this panel or last panel, that 
President Bush said there was no margin for error, the stakes 
are too high to get it wrong, which apparently seems to be 
correct except when it comes to national missile defense, which 
is raised somewhat to the level of religion by some folks 
around here because apparently it now seeks to do a trial and 
error process of development of national missile defense. And 
our occasion for determining whether or not the trial has been 
in error won't be until we are under attack.
    That concerns me greatly because I think if we properly 
assess the threats that are posed to us and put them in the 
proper priority order, then we will have time to research and 
test any type of national missile defense before we actually 
start trying to build it and potentially wasting a lot of money 
for false security.
    Mr. Cirincione, back before 1998 most intelligence 
estimates indicated that the nearest threat we had of any 
country sending a long range ballistic missile at us was 2010 
or beyond. Then along came Mr. Rumsfeld and, not surprisingly, 
I would guess a couple of reports came out and all of a sudden 
it became much more immediate. Then the CIA then bought into 
it, the Pentagon.
    Can you explain to us what seems to have happened that 
people so radically changed their opinion apparently without 
any change in the underlying facts?
    Mr. Cirincione. Several things, Congressman. And in 1993, 
when Mr. Woolsey was Director of the CIA, he submitted a threat 
assessment, national intelligence estimate, they're called, 
NIE, on the ballistic missile threat to the United States that 
concluded that the United States would not face a third country 
developing an ICBM with a nuclear warhead for at least 15 
years. In 1995, a new assessment was done that reaffirmed and 
went even a little further, went into greater detail, the fact 
that the United States would only face a ballistic missile 
attack from Russia or China over the next 15 years.
    At that time those assessments came under harsh criticism 
from some Members of Congress, and there were a number of very 
intense hearings that criticized those assessments for 
underestimating the ballistic missile threat. The Congress then 
decided to do its own independent assessment and Congress hand-
picked a commission to review the national intelligence 
estimate.
    In 1996, that commission reported back and concluded that 
in fact the estimate was valid and in fact the case was 
stronger even than the publicly presented information. That was 
a commission that was headed up by Mr. Robert Gates, the former 
Director of the CIA under then first President Bush. That 
report was not made public until December 1996, after the 
Presidential election, but again this was now the third 
assessment in a row that it found that the ballistic missile 
threat while serious was not urgent.
    The Congress then appointed another commission and this was 
the commission that came to be known as the Rumsfeld Commission 
that came back with a very different assessment in 1998, that 
found that there was a threat of a third country, specifically 
Iran, Iraq or North Korea, developing an ICBM, missiles that 
could hit the United States with little or no warning, that we 
might not know when a country was doing this and we would wake 
up when it was too late. That report was actually criticized by 
the Joint Chiefs of Staff. They did not agree with the 
conclusion of the Rumsfeld Commission. But nonetheless, those 
views and those methodologies came to be adopted by our 
Intelligence Community, and that produced in 1999 the first 
national intelligence estimate that corresponded with the 
Rumsfeld conclusions and found that in fact there could be a 
possibility of a threat from North Korea, secondarily from Iran 
and possibly from Iraq.
    And I believe they, just to sum up, that these national 
intelligence estimates are wrong, that they overestimate the 
threat and they reach these conclusions by basically changing 
our standards of how we judge the threat, that they lower the 
standards by which we would judge a ballistic missile to be 
threatening the United States and seemed to indicate that there 
was some dramatic new threat when in fact they were assessing 
the programs that we had known about all along but now we're 
judging them in a different way.
    Specifically, they changed the range from an attack on the 
continental United States, which had been all other 
assessments, to one on any part of the United States. And the 
difference between, for example, Seattle and the tip of the 
Aleutian Island chain is 5,000 miles. So it meant that a medium 
range missile could now be a threat to the United States.
    Changed the time line and several other factors that you 
could go into if you would like; most of all focused on the 
developing missile threat from these three countries and did 
not do a global assessment of the overall situation with 
ballistic missiles which, as the report that I've submitted 
indicates, is actually declining and declining dramatically by 
most criteria.
    Mr. Tierney. Thank you, Mr. Chairman. I know that you had a 
question. I yield to you whatever time I have. I have to run.
    Mr. Shays. I would just like to have a full response to 
that question if you want to stay here. It could be your time 
if would you like. Yes, Mr. Bremer.
    Mr. Bremer. I have to say that I'm not an expert on 
ballistic missile technology, but I also don't have the 
confidence of my co-panelist in predicting the future. I'm a 
historian. Historians are students of discontinuities. I'm 
always very uneasy when people make straight line projections. 
It seems to me there are two relevant points about the 
ballistic missile technology.
    First is we've just seen one of the most extraordinary 
failures of American intelligence in our history on September 
11th. During the 1990's, people who didn't know what they were 
talking about predicted confidently that in fact the threat of 
terrorism was declining and in fact it was increasing. At the 
end of that decade we had one of the most extraordinary 
failures of intelligence. So anybody who stands today and says 
that he is confident that he knows that we will have warnings 
it seems to me is ignoring the experience we've just seen in 
the last year on a very important issue, in this case 
terrorism.
    Second point is more the historical point. One can of 
course list today the States which have ballistic missile 
technologies and might under some conceivable circumstances 
want to use that against the United States or threaten to. 
Attorney General Meese mentioned several of those countries in 
the previous panel. What one cannot say is what the world is 
going to look like 10 years from now. So even if you accept the 
original Woolsey panel assessment of 1993 that we did not face 
a threat for 15 years, I remind you that's only 6 years from 
now. I don't know how long it's going to take to develop 
ballistic missile technology. I know we have to develop it. I 
don't think it is prudent to assume that we will have warning. 
I think we've already seen 9 of the 15 years even by the 
Woolsey definition that have gone by.
    So I fully support the deployment as soon as it is 
practicable of ballistic missile technology and, as Mr. Meese 
pointed out, technologies which are--would be available to not 
only protect America and its homeland from Hawaii to Maine but 
also to protect our allies and our troops stationed abroad.
    I think the fact that five of the seven States which 
support terrorism, five of the seven have ballistic missile 
technology today, should be a rather sobering reminder to 
Members of Congress about the importance of this area.
    Mr. Tierney. That said and having stayed for it----
    Mr. Shays. You have 5 minutes.
    Mr. Tierney. I do have to run. I want to make a point. I 
think what we're talking about is assessing threats and 
prioritizing them. That's the real key here. If we're going to 
go out on some untested system that has been nothing but 
failures pretty much, unless we expect we're going to have a 
missile sent out of the country instead of in with a beacon on 
it three times the size of what's there with no decoys or 
whatever, we're putting our priorities for what is anticipated.
    What is anticipated by most accounts of reasonable people 
is that we will see more terrorism acts along the nature of 
what we have experienced so far, or things like that, well 
before we'll experience a long range ballistic missile that is 
big enough, powerful enough, accurate enough and able to carry 
the kind of payload to be concerned. So as we prioritize those 
things, that will be a little further down the line. That's 
what we have to spend our money on is the things that hit the 
top of the line first and then test the system, instead of 
starting to build the thing before it even gets tested.
    Thank you, Mr. Chairman. Thank the witnesses.
    Mr. Shays. The question I wrestle with, and that is why 
would someone send a missile when they can just put it in a 
suitcase.
    Mr. Cirincione. In fact, in the latest national 
intelligence estimate, this is what the intelligence agencies 
conclude. They conclude that it is more likely that the United 
States will be attacked by a weapon of mass destruction by 
nonmissile means; that is, by ship, plane or truck. So they do 
make that assessment that the nonmissile means of delivery is 
more likely than missile means.
    Mr. Shays. But I wrestle with Ambassador Bremer's comments 
as well. Because I realize that anything I do really has impact 
10 years from now. So we have to anticipate 10 years from now. 
So my own view based on the hearing we've had is that you 
continue the development but you don't--excuse me--the research 
and continue to try to improve the technology but then you 
don't yet proceed to go into production. It's kind of how I 
sort it out myself.
    Mr. Cirincione. I would agree with that, sir. I think 
that's a prudent course. What we're talking about here is 
balance and priorities. How far money goes to these efforts, 
how much priority, how much diplomacy, how much of our senior 
leader's attention goes to this particular threat as compared 
to all the other threats that we face.
    Mr. Shays. Yes. Mr. Hinton.
    Mr. Hinton. As you well know, one of the key 
recommendations we made last year was for the focal point being 
Governor Ridge's office that the President appointed him to to 
oversee the development of a national threat and risk 
assessment. That would bring to light all of the diffused 
threats that your Nation would face in the future and go 
through the assessment of the threat, look at the various 
vulnerabilities and look at the criticality assessments of our 
infrastructure and try to lay those out so that we could see 
everything and how they stack up, so that would help us direct 
where we need to put the resources.
    We still believe that recommendation has merit. We have not 
seen that implemented yet. And we continue to stand by that 
because we think it is very important for the oversight 
purposes of the Congress, as you are overseeing the expenditure 
of all of the money that we are making available for homeland 
security.
    Mr. Shays. I will give Mr. Kucinich 10 minutes and then go 
to Mr. Otter and I. But I will just tell you where I want to 
use my 10 minutes. I want to--I am going to real religion on 
this issue of knowing what the threat is and developing the 
strategy because we had too many hearings before September 11th 
when we were told we need to do it. And I don't--I see more the 
strategy being developed before we know what the threat is. I 
am going use as the basis of my question Ambassador Bremer's 
comments about--instead of the strategy of wait and respond, I 
guess before that is prepare, wait and respond. We need to have 
one that is prepare, detect and prevent.
    I am going to ask it based on what threat and--but that 
will be my time after my two colleagues have gone. Mr. 
Kucinich, you have 10 minutes. We will do it in two 5-minute 
lots just so you see it happen.
    Mr. Kucinich. Thank you very much. I thank the witnesses. 
Mr. Cirincione, I wanted to thank you for your testimony. I 
thought your piece in The Washington Post was breakthrough.
    Contrary to what we have been hearing in the last few 
years, it appears that the threat of intercontinental ballistic 
missiles has actually decreased over the last decade, rather 
than increased. I want to go back to that. Is that fairly 
stated?
    Mr. Cirincione. Yes, it is, sir.
    Mr. Kucinich. I took the liberty of copying the chart that 
accompanied your piece. I mentioned it earlier. Would you mind 
briefly running through that for the benefit of the 
subcommittee? It is basically divided into two timeframes, the 
situation in 1987, the situation today; is that right?
    Mr. Circincione. Yes, it is.
    Mr. Kucinich. What does each of those rows represent?
    Mr. Cirincione. The hours on the end--the hours on the end 
represent the trend lines. What I tried to do was assemble the 
various criteria by which anyone would judge a ballistic 
missile threat, and then try to assess where those criteria 
were going, what was the trend line.
    And, you know, I am obviously inviting others to bring in 
their own criteria. What other standards should we use?
    Mr. Kucinich. So when you put all of this----
    Mr. Shays. Let me ask the gentleman to yield. Do the other 
panelists have a copy of this? I would like you to be able to 
look at this to be able to respond as well.
    Thank you.
    Mr. Cirincione. Would you like me to go through it? What is 
the biggest threat that we face? Intercontinental ballistic 
missiles. There are only two countries in the world right now 
that can threaten the United States with long range land-based 
intercontinental ballistic missiles: Russia, which has 
thousands of them, and China, which has about 20.
    If we go back 15 years, where were we 15 years ago? I 
picked 1987 because it was one of the peak years of the cold 
war and it was before arms control treaties started reducing 
the ballistic missile threat. Fifteen years ago there were 
2,384 long range ballistic missiles threatening the United 
States. Now there are 1,042. All but 20 of those are Russia's.
    Mr. Kucinich. So the real concern, in terms of threat 
assessment with respect to threats to this country----
    Mr. Cirincione. To any part of this country.
    Mr. Kucinich. China.
    Mr. Cirincione. China. Russia. Those are the only countries 
that can hit us with an intercontinental ballistic missile 
currently.
    Mr. Kucinich. So based on your studies of threat 
assessment, have you seen any circumstances which would suggest 
that either China or Russia would initiate an attack on the 
United States, a missile attack?
    Mr. Cirincione. No. That is an extraordinarily unlikely 
event.
    Mr. Kucinich. In concert with that, how does that then fit 
into a newly enunciated U.S. policy of first use or first 
strike, which it appears some of our panelists have advocated?
    Mr. Cirincione. If you are referring to the recommendations 
of the nuclear policy review---.
    Mr. Kucinich. I think the word is posture.
    Mr. Cirincione. The nuclear posture review, there are 
recommendations there that the United States develop a new 
generation of smaller, more usable nuclear weapons for a wide 
variety of contingencies against States that have weapons of 
mass destruction, or that might present us with a surprising 
military development.
    Mr. Kucinich. How does that square, though, with the 
realities of the situation?
    Mr. Cirincione. In this case, there is no correlation 
between the two facts.
    Mr. Kucinich. Elaborate. What do you mean there is no 
correlation? Could it be fairly stated that this policy that 
has been enunciated and elaborated on in the nuclear posture 
review has no basis in reality that we should--that the United 
States should take a position of advocating first strike?
    Mr. Cirincione. These are two slightly different areas. But 
there is no justification in an assessment of the threats from 
ballistic missiles that would warrant the United States 
changing its nuclear doctrine at this point.
    Mr. Kucinich. And if other--is it possible that other 
countries that have weapons of mass destruction right now, 
intercontinental ballistic missiles--you talked about China and 
Russia who have them right now. How would the threat assessment 
change if they suddenly adopted the same policy of the United 
States?
    Mr. Cirincione. Well, this is always a very good test of 
our policy. How would we feel if other countries announced, for 
example, if they were developing a new generation of smaller 
nuclear weapons and were intending and developing a doctrine 
for use? I don't mean just a rogue nation, but India, for 
example.
    Mr. Kucinich. How does this change the threat index?
    Mr. Cirincione. That would substantially increase your 
risks of nuclear weapons being used in combat and significantly 
increase the chance of other countries acquiring nuclear 
weapons. So it would be a more dangerous world if other 
countries adopted the kinds of policies that are being 
recommended by this policy review. I think it is unquestionable 
that it would lead to a more dangerous world.
    Mr. Kucinich. So those policies actually increase the 
threat to this country?
    Mr. Cirincione. I think they do, sir. That is why I think 
this is a dangerous set of recommendations, and I hope that the 
senior leadership of the administration sends this report back 
for revision, and that Congress gets involved in this 
discussion. This is a very, very dramatic change in U.S. 
nuclear policy. It should not be a change that is made by the--
--
    Mr. Kucinich. I would like to say here in this hearing, as 
the ranking Democrat of one of the subcommittees involved here, 
that I think it is urgent for Congress to get involved in this, 
because the whole calculus of threat assessment is being used 
as the basis for building missile defense systems and spending 
billions upon billions of dollars for homeland--so-called 
homeland defense. And yet at the same time, those policies 
enunciated in the nuclear posture review put the United States 
in much graver danger than the United States was in prior to 
those policies being enunciated.
    Mr. Cirincione. It does get back to the chairman's main 
point here, that some of those strategies and policies are 
being developed before a concrete threat assessment.
    Mr. Kucinich. I would like to go one step further with 
that. This is not a particularly partisan statement, because I 
challenged the Clinton administration on a number of its 
foreign policies. But I think that--the fact that the potential 
first use of nuclear weapons--and when we talk about first use, 
not against necessarily government actors, but against their 
people, that the fact that can be blindly discussed anywhere is 
the height of immorality, and whatever administration, at any 
time, to throw that stuff around as though it is--as though it 
is just casual locker room banter, snap the towel, no, you 
know.
    I am looking here at one of the witnesses--a new strategy 
must be to detect and prevent attacks before they happen. Well, 
on one level that could be acceptable. But if you are talking 
about--if that is translated to nuclear first strike, just 
putting that out there, it is immoral. That is all. It puts the 
United States in a position of telling the whole world to go to 
hell. And that is not a way to conduct world affairs.
    You know, I am just stopping the music here for a moment to 
focus on this, because, you know, we can talk about all of the 
threats that Governor Keating is familiar with, and we can talk 
about the Heritage Foundation's report, which has a lot of 
interesting information that might be of real value. But when 
we get into a discussion here where we are actually talking 
about the first use of nuclear weapons, and making that a new 
doctrine, people are playing with the Apocalypse, they are 
playing with doomsday scenarios, and it has to be stopped. It 
is not an acceptable part of a dialog in a civil society. It is 
basically insane, and it needs to be challenged. And this is 
just one Member of Congress here. But whatever needs to be 
done, needs to be done nationally and even internationally to 
stop this descent into this maelstrom of chaos which is brought 
about by loose talk of a nuclear first strike.
    You know, I saw the movies about the Cuban missile crisis, 
and I saw the discussions that people had about their children 
and their grandchildren. This is just not acceptable. So if 
there is anybody here even remotely connected with the 
administration, they should just know that there is going to be 
efforts made to start a national movement to repudiate this 
first strike dementality.
    I don't have anything more to say.
    Mr. Shays. I just want to point out that the comments of 
first strike, we are not even quite sure where they are coming 
from, or any validity. I hesitate to even speak about them, 
because I don't give them much credibility, but I would welcome 
any comment that anyone else wants to make on this issue before 
we go on.
    Mr. Kucinich. Would the Chair yield?
    Mr. Shays. I just want to make sure that the full panel 
responds.
    Mr. Kucinich. Would the Chair yield for a question?
    Mr. Shays. Sure.
    Mr. Kucinich. I spent some time Sunday watching members of 
the administration on talk shows try to explain the 
administration's position that was stated in The Los Angeles 
Times story, and I didn't see anything that repudiated the 
United States or what sounds like very strongly United States' 
position with respect to first strike.
    You know, they may have backpedaled about whether or not 
the circumstances would come up, but they basically have said 
there would be a reservation of the right. And I am saying, so 
to be very clear about what I am saying here, that it is 
immoral to let that kind of talk go out there, about reserving 
the right for a nuclear first strike, and particularly--I mean 
you look at these threat assessments, there is no justification 
for it even technically, let alone getting into the morality. 
Thank you.
    Mr. Shays. What I listened to was a very cautious response 
and no--no real acceptance that those reports were accurate, 
other than to say that all administrations have had to look at 
all options and had to respond to all options as a possibility.
    Mr. Kucinich. Well, further asking the Chair for his 
indulgence, no administration has been confronted with these 
set of circumstances, nor has an administration ringingly 
rejected the comprehensive test ban treaty, the antiballistic 
missile treaty, talked about building a national missile 
defense, building bunkers they have people hiding in. I mean 
what signal does that send to anyone? And then you also have 
this loose talk about a first strike. I mean we are--you know, 
somebody is screwing around with the end of the world here. And 
I think that it ought to be called for what it is.
    Mr. Shays. I am afraid they are the terrorists that are 
screwing around with the end of the world.
    Mr. Kucinich. We need not copy them with our mentality.
    Mr. Shays. OK. Let me just invite the panel to respond to 
any comment.
    Mr. Larsen. Yes, sir. In my statement there was discussion 
of preemption, but there was no discussion of first use of 
nuclear weapons. I think that has been a long-standing policy 
of the United States. But one of the things that has to be 
discussed is we sat in here in July and talked about the Dark 
Winter exercise. There are nations out there that we believe 
have smallpox, which in many respects could be worse than a 
nuclear strike on this Nation.
    North Korea and Iraq are the two that I am greatly 
concerned about that can cause significantly more loss of life. 
People I talked to at CDC and Johns Hopkins who have studied 
this for years tell me it could take this Nation beyond the 
point of recovery. That is a serious threat to our national 
security. It is not the highest probability, just like when we 
talked about national missile defense, is that the highest 
probability? No, but what are the consequences? I think we have 
to look at it.
    The Gilmore Commission looked at low probability--I mean 
high probability, low consequence truck bombs. I don't lose a 
lot of sleep over those. Those are personal tragedies, but 
those are not threats to our national survival. I think 
reevaluating some of our issues such as preemption, as I had 
talked about in my statement, had nothing to do with nuclear 
weapons; that we need to send a very clear message to those who 
brought about September 11th attacks on this country and those 
out there who have capabilities to bring even more severe 
attacks, that the United States takes this very seriously, and 
we will respond as necessary to protect our Nation.
    Mr. Kucinich. Do you advocate that the non-state actors, 
that we respond to them by attacking the States from which they 
come?
    Mr. Larsen. I think we should attack the actors. Thirty-two 
years in the military as an Air Force pilot. I dislike nuclear 
weapons probably more than you do. They are terribly--they are 
a terrible weapon. You know, the idea of dropping a nuclear 
weapon on Baghdad is preposterous, and kill 2 million people. I 
will agree with you on that point. But I tell you what. I want 
to make it very clear to anyone who thinks that they will 
launch further attacks on the United States that we don't take 
anything off the table, and if you attack our Nation with 
something that could threaten the very survival of this 
government, we should take nothing off the table when we talk 
and think about that response. And you were talking about, oh, 
we are building bunkers out here in the mountains. Those were 
built in the Eisenhower administration. That program has been 
around--I worked in that program----
    Mr. Kucinich. Did we have a separate administration set up?
    Mr. Larsen. We have no separate administration today. There 
are different levels of alert, just like we have--you mentioned 
the force protection levels, Alpha, Bravo, Charlie and Delta. 
At times of higher threat, and I think we are in times of 
higher threat right now, I am happy to know that there are some 
folks out there. Whenever we have----
    Mr. Kucinich. Congress would have been happy to know, too.
    Mr. Larsen. Whenever we have a State of the Union address, 
we don't put the whole leadership team in one building.
    Mr. Shays. Let me give the time to Mr. Otter, but just say 
that this committee has no doubt about the reliability of 
information that has come to us that said terrorists have 
chemical, biological, potentially radioactive material, and has 
sought to get nuclear weapons. And we basically have heard 
testimony that says we are in the race with terrorists to shut 
them down before they shut us down. But I am pretty clear about 
one thing, the fact that we are concerned about the potential 
of a nuclear attack on the United States. It won't be by 
missile, it will be by suitcase or truck or something else. It 
is real. And we tell the American people the truth and then 
they respond by telling us what they want to do. That is in 
fact the truth. And I just want to make this point. It would be 
absolutely inexcusable for this administration not to 
anticipate that possibility and act on it.
    Mr. Kucinich. Well, let me ask the Chair a question then. I 
am not going to dispute your scenario with respect to a 
suitcase, but I heard seven nations named in the nuclear 
posture review now. They weren't talking about suitcases.
    Mr. Shays. I agree with you. But I am just responding to 
your whole point of why we have a government, somewhat a shadow 
government in exile. Let me give Mr. Otter 10 minutes.
    Mr. Otter. Thank you, Mr. Chairman. I hadn't intended to 
continue with this sort of discussion, but I guess I will 
because the Rumsfeld Report, I think, brought a lot of things 
to light.
    Now one of the previous questioners mentioned the greatest 
key to this whole discussion is the question of assessment. And 
I think the greatest danger to this whole discussion and this 
hearing that we are having today is to focus ourself so much on 
one potential threat as to ignore at our peril the rest of 
them.
    We did focus on a missile defense, obviously to the extent 
of ignoring potential terrorist threats, and those did not come 
without warning. You know, when you think back in the previous 
administration, when the al Qaeda organization led a strike 
against the World Trade Center, also against the Korban Towers, 
two embassies in Africa, and then against the USS Cole, and I 
would ask you and I would ask the ranking member, I suspect 
that is it worse to warn about potential threats and make 
necessary assessments and prepare for those than it is to let 
those four attacks against this country go on except for to--
over an 8-year period, except to bomb an aspirin factory in the 
Sudan and deny those people an opportunity to get over a 
headache.
    No, I think it is much more dangerous to focus our 
assessment on just one area to the exclusion of the other. And 
let me go on record as saying that I do not believe it is 
immoral for this country to prepare for its survival. And if 
that survival includes assessments of other countries' 
abilities to attack us, I think we need to know that.
    But having said all of that, I guess my question then would 
go to--relative to those assessments or relative to those 
attacks that came over the last 8 years, is there any reason to 
believe that those won't continue? Is there any reason to 
believe that perhaps those targets will come closer and closer 
to the Western Hemisphere? And if there is, instead of 
attacking the embassies in Africa, perhaps we need to have more 
assessments of the attacks that are possible on our own 
homeland. I think that is where this discussion really ought to 
go.
    And if we fail to respond in kind, as we did in those four 
instances during the last 8 years, can't we just expect to 
continue to be chipped away at to a point beyond irritation, 
and a reoccurrence of September 11th? If you will, panelists, 
respond to that. Mr. Ambassador.
    Mr. Bremer. The consensus of most people who look at the 
terrorist threat in the government, out of the government, here 
on the Hill, is that what we saw on September 11th was the 
logical if horrible extension of a trend that was visible 
throughout the 1990's.
    I know of no one who thinks that trend will diminish. Most 
of the analysis--and I think my commission was the first one to 
point out this problem in June 2000, when we pointed out that 
we thought there would be mass casualty, mass destruction 
attacks in the United States on the homeland, and we reported 
in particular to the dangers we associated with the possibility 
of chemical and biological, particularly biological attacks.
    I have been involved one way or the other, for my sins, in 
counterterrorism now for almost 20 years, and I don't know of 
anybody who disagrees with that assessment. So I think it is 
prudent to expect that we will continue to see mass casualty 
attempts in the United States, and that it is the only prudent 
and, indeed, politically defensible thing for the 
administration in power to do, to do everything that it 
possibly can to prevent that from happening.
    Mr. Otter. Mr. Larsen.
    Mr. Larsen. I think our No. 1 priority, as I said in my 
statement, should be on deterrence. And we are seeing now, much 
different than in the cold war, but in this new era, the role 
that consequence management and crisis management plays in 
deterrence. We still don't know who sent those letters to 
Senator Daschle or to the news offices. Our enemies understand 
that. Whether that was some domestic terrorist, we don't know. 
But the international enemies we are most concerned about here, 
they understand how poorly we responded. We don't know who did 
it.
    I think the most important thing is reestablishing that 
deterrence and the--the priorities that you spend--that we 
spend in the next couple of years are going to do that. What 
money is in the current budget for attribution?
    Mr. Otter. Mr. Cirincione.
    Mr. Cirincione. Thank you. I think the war in Afghanistan, 
which I strongly support, is a very powerful deterrent. Perhaps 
al Qaeda thought that they could get away with this. Perhaps 
they thought that they could provoke the United States and it 
would result in U.S. involvement in the Middle East that would 
trigger the Jihad that they sought. They were sadly mistaken. I 
think any terrorist group that thinks that mass casualties in 
the United States are somehow going to accomplish their purpose 
now has to think at least twice about that.
    As to the threats we face in the near term, I again defer 
to an international expert on this, the testimony of Vice 
Admiral Thomas Wilson, the director of the Defense Intelligence 
Agency. This February he lists again his top concerns, and 
right at the top is still a major terrorist attack against U.S. 
interests here or abroad. Second on his list is escalating 
violence in the Middle East. He goes on to worry about a war 
between India and Pakistan, widespread violence against U.S. 
citizens and interests in Colombia, and other factors, 
including the dangers of ballistic missile attack. It is a very 
comprehensive assessment.
    He also goes out of his way to emphasize some of the 
contributing factors to global instabilities, such as 
demographics and economic dislocations. He talks about 
resources shortages in many parts of the developing world. The 
danger--I think where we get into trouble is not that we don't 
listen to those assessments, but we then pick and choose the 
threats that we want to respond to. That is a problem. We are 
clearly having a problem as a Congress, as an executive branch, 
as a Nation, prioritizing the threats that we face, 
understanding how to allocate the resources. And my simple 
message is that I think we misallocated our resources in the 
past.
    We have to correct that imbalance. We have to put our money 
where our threat assessments are.
    Mr. Otter. Mr. Hinton.
    Mr. Hinton. Mr. Otter, our work has largely focused on the 
process, if you will, and I don't know if I can add any more 
than what I said earlier, which was picked up in the letter 
of--the bipartisan letter that went from this committee over to 
the President seeking a threat-and-risk assessment in this 
whole area to try to take stock of what the threats are and to 
come up with a balanced portfolio against those. So I think 
that is the process that needs to unfold. That has been the 
subject of the recommendation and our reports where we are 
looking to Governor Ridge to oversee that process, that will 
provide that information to help you all in your oversight 
capacity.
    Mr. Otter. Much has been said about the cold war, and the 
result of how the cold war came about. I happen to be a 
student, not a disciple of, but I happen to be a student of the 
notion that when the Manhattan Project was put together, had 
equal enthusiasm been in place, an equal study, an equal 
deliberation on what would happen if they were successful, if 
that had paralleled the efforts of Oppenheimer and the rest of 
the folks to make that major weapon of mass destruction, and we 
had known, and that assessment been made then, 1945 would have 
seen the total control under one government. That one 
government would have been the government that invented it, and 
they would have had the assessment that if anybody else gets 
their hands on this stuff, this knowledge, we could be in for a 
50-year cold war, which is exactly what happened.
    So we need to study these things, not only--and deliberate 
them in their total vision, in our total vision of assessments 
of danger to this country, but also I think we need to assess 
at the same time is what happens if we are successful.
    I thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Shays. Thank you. I have a number of questions. I want 
to get right to it. I was kind of thrown for somewhat of a 
loop, Mr. Bremer, when you talked about 1947. And I am 
realizing that there must have been two parts to getting our 
act together, under Truman putting the Pentagon together, 
basically building it, creating this force structure, and then 
the strategic must have been what happened in the Solarium 
Project. But I don't feel that we can wait 5 years to resolve 
this. I am getting very, very nervous that--we continue to talk 
about strategy before we have this kind of assessment of the 
threat.
    I want to--maybe I get some comfort in you kind of making 
what seems complex seem kind of simple to me. I want you to 
elaborate a bit on the wait-and-respond versus the detect-and-
prevent. What is our strategic strategy? We had to be prepared, 
correct, but it was basically--it was a deterrent, we waited 
and we responded.
    Talk to me a little about detecting and preventing. That is 
a strategy, right?
    Mr. Bremer. Well, it is a posture or a strategy. I think 
that obviously it is a bit--it does somewhat oversimplify to 
argue that all we did was wait and respond, because before 
September 11th, we also had programs to try to detect what 
terrorists were up to and to disrupt their plans before they 
could attack. But as the Bremer Commission pointed out, as the 
Gilmore Commission pointed out, as a number of other studies 
have shown, over the last decade our intelligence abilities 
have deteriorated because the intelligence agencies had adopted 
a sort of--or had acquired a risk-averse culture and we were 
not out aggressively enough going after terrorists because our 
general posture was the terrorists would attack and we would 
then try to figure out how to respond.
    That was certainly the case, as Mr. Otter just pointed out, 
during the four major incidents that he referred to in the last 
decade.
    What I am saying is that the threat posed by terrorists 
today and their new motives is such that we simply cannot 
afford, it is not morally or political acceptable to say to the 
American people, I am going to wait now for the terrorists to 
get their hands on this bad stuff, because we are talking about 
not 3,000 people being killed or 30,000 or even 300,000. It 
could be 3 million people. If it is the case of smallpox, as 
Colonel Hansen pointed out, we could be talking about tens of 
millions of people.
    So the stakes are so high now the government cannot get the 
strategy wrong and the government cannot get the organization 
of the Federal Government wrong. We don't have that margin. We 
don't have 5 years, as you pointed out.
    Mr. Shays. It strikes me, though, that one of the key 
things that this President has done--and I think most of his 
success is, you hold the country responsible that allows the 
terrorist activity to grow and prosper in that country. And the 
reason I am struck by, from all of our hearings, is that 
basically cottage industries can create weapons of mass 
destruction within a border and wipe out humanity as we know 
it, as relates to biological.
    What I am also struck with, though, it seems to me that 
what--as we sort out this threat and we develop a strategy, and 
I open it up to any comments from any of the panelists, that we 
may have to act unilaterally if in fact our strategy is to 
detect and prevent, we are not going to wait to--I mean there 
was this great cartoon one time showing Soviet tanks in 
Washington, and Congress was meeting, and we--you know, we 
finally decided to declare clear war against the Soviet Union 
in this scenario.
    It strikes me that we can't wait, if we are going to detect 
and prevent, and that may require us to act unilaterally. And I 
will throw it open to any--I will start with you, Mr. Larsen, 
and then go to you, Mr. Bremer.
    Mr. Larsen. Yes, sir. I think after a truly major attack on 
the United States, there would be no debate whether we would 
act unilaterally or wait for some sort of coalition. Perhaps we 
should look at that first. The line between unilateral 
operations and leadership is sometimes very thin. I remember 
January 10, 1991, polls in the United States, even here, 
domestically was not in a favor of starting the war in Iraq. 
President Bush started it, thought it was the right thing to 
do. Three days after the air war began, all of a sudden the 
American people, like 75 percent, said, yeah, it was the right 
thing to do. That was leadership.
    I think when we see some of the problems, like with the 
biological warfare convention--I wish we had a better treaty, 
arms control regime for biological weapons. They scare me more 
than anything else. But I don't think we should sign up to 
something that won't work. We had the most intrusive inspection 
regime going on in Iraq----
    Mr. Shays. Let me go to the next, if I could. Mr. 
Cirincione.
    Mr. Cirincione. I think there are a number of circumstances 
where the United States will have no choice but to act 
unilaterally, particularly in situations such as were just 
described. I think that should be, unless it is time-urgent, 
that should be our last option. It is always better when the 
United States acts in concert with their allies and friends. 
The 1991 Persian Gulf War is an excellent example of that. That 
is why Vice President Cheney is out in the region again.
    Mr. Shays. I put one caveat, though. There was basically an 
agreement in order to get that unification, that we weren't 
going to go into Bagdad. And this--this White House isn't going 
to--I am pretty comfortable in saying that, because I just 
remember in the dialog with the President, the former 
President, getting this Peace Corps volunteer to vote for war, 
he was saying, you know, we have an understanding, we are going 
to Baghdad. That was no secret. We didn't.
    I mean, at least that is the way I always assumed it as I 
dialogd with the White House on this.
    Mr. Cirincione. There are a number of things that we 
probably should have done differently at that end of that war. 
Whether going into Baghdad would have solved the problem is 
unclear. But you could go into lots of things. For example, 
allowing Iraq to keep flying helicopters. Allowing it to keep 
building short-range ballistic missiles, not having a no-holds-
barred inspection regime. There is a whole lot of things that 
we should have done differently.
    Mr. Shays. Mr. Hinton, and then Mr. Bremer.
    Mr. Hinton. Chairman Shays, that is a policy realm for 
which I don't feel qualified to answer that.
    Mr. Shays. Well, you are qualified, but you are wise not to 
answer it.
    Mr. Bremer. I don't think there is any question we have to 
be--the President has to be able to act unilaterally. Of 
course, it is better to have some friends along with you. As 
Winston Churchill said, the only thing worse than fighting with 
your allies is fighting without them. But there will be times 
when people won't come along with us and we will have to go 
along on our own.
    Mr. Cirincione. But when that happens, it should give us 
pause. We should think about why it is that no one else would 
agree with us, and maybe we should be rethinking our policy or 
our priorities.
    Mr. Shays. Continue.
    Mr. Cirincione. Well, the case of Iraq is much in the news. 
You know, Iraq doesn't show up on most threat priority lists. 
It isn't in Admiral Wilson's list. Is it a danger? Yes. Would 
we all be better off if Saddam Hussein were not in power? Yes. 
Should it be our No. 1 priority? Should we subordinate 
everything else to that effort?
    Mr. Shays. I am nodding my head and saying yes, because I 
don't know what reports you are looking at, but the basic 
information I get that isn't classified is three to 5 years he 
has nuclear weapons. This is a regime where basically heads are 
in pickle jars and a regime that has used chemical weapons to 
destroy 30,000 people in almost a day's work. So it shows up on 
my radar screen.
    Mr. Cirincione. I think we can separate regime change from 
acquisition of weapons of mass destruction. It is not 
necessarily so that we have to remove Saddam Hussein in order 
to prevent those programs from advancing, nor is it necessarily 
so that if we do, that the next regime would not pursue those 
capabilities. And that is part of the reason I think why the 
United States is trying its best to explore options through the 
United Nations of reestablishing the inspection regime. That 
may be ruled out. Iraq may make that impossible. He may give us 
no other choice but to once again engage in military action.
    But that is why it should be a last choice, not the first 
choice.
    Mr. Shays. When we try to determine the assessment of 
threat, I am struck by the fact that the threat is so different 
and has so many parts compared to this monolithic attack 
potentially from the Soviet Union. Is threat assessment, going 
back to the 1950's, much easier than threat assessment now, or 
it is basically the same process and it shouldn't be any more 
difficult?
    Mr. Cirincione. Let me just start this process. It is much 
more difficult now. There is no question about it. There is a 
little bit of historical revisionism going on where we now 
remember the Soviet Union as this almost benign predictable 
deterrable foe. That is not how we saw the Soviet Union at the 
time. And you, sir, got involved in many hearings where we 
started off with a very concrete threat assessment of a Warsaw 
Pact invasion through the Folder Gap.
    Mr. Shays. There are bomb shelters all over my district.
    Mr. Cirincione. Sir, we all did duck-and-cover drills. This 
was very scary times. We engaged in numerous diplomatic crises, 
we spent hundreds of billions of dollars to deter the Soviet 
Union attacks. Now we have a less concrete, more diffuse, 
somewhat less predictable threat, and it requires a lot more 
analysis and many more tools. If you just look at Admiral 
Wilson's testimony, he talks a lot about the underlying forces 
that generate global instabilities and how we have to deal with 
them, and it is a much more complicated political, military, 
economic, diplomatic issue than a straightforward military 
threat assessment.
    Mr. Shays. The bottom line, deterrence doesn't mean much, 
it strikes me.
    Mr. Bremer. I agree that the threat assessment is more 
difficult. I think one of the problems, Mr. Chairman, that we 
all have to grapple with, in some ways we are all still 
thinking of this in cold war terms as if threats were 
quantifiable, you know, how many SS-20's does the Soviet Union 
have? Where are they deployed? What is the order of battle for 
the Red Army? These are all very tidy things, difficult to get 
your hands on it, but once you do get your hands on it, you can 
do the threat assessment.
    As my colleague said, the threat is so diffuse now, it 
comes from so many directions, and it is potentially in many 
ways even greater than it was at the height of the cold war. We 
have to, I think, not--I think you would make a mistake, it 
seems to me, in Congress to say we need a very precise threat 
assessment before we can do anything. You are not going to get 
that. The threat is so different.
    America's vulnerabilities are essentially infinite. You 
cannot start with the vulnerability analysis, because with the 
country of 283 million spread across the continent and halfway 
across an ocean, our vulnerabilities are essentially infinite. 
So, of course, you have to have some sense of the threat in 
order to determine priorities, which is the theme that the 
ranking member has made and others have made here. Absolutely 
correct. But let's not get ourselves into the mindset that it 
is going to be the way it was in the cold war, that a threat 
assessment is sort of almost a mathematical thing. It is not 
going to be that easy.
    Mr. Shays. Before I give the floor to Mr. Kucinich, though, 
don't you need to know what the threat is before you develop a 
strategy?
    Mr. Bremer. I agree. I am saying let's be careful when we 
get to the issue of quantifying the threat.
    Mr. Shays. But we still need to know the threat to develop 
a strategy.
    Mr. Cirincione. I think it is quantifiable. I think it is 
knowable. It is not completely unpredictable.
    Mr. Larsen. It was much more capabilities we looked at in 
the cold war, our intelligence community, and they are still 
focused on that, counting missiles and armor divisions. Now it 
is more intent that we are worried about.
    Mr. Hinton. Chairman Shays, I would like to add I agree, 
too, that the threat is more complex, it is diffuse. But key to 
this, I think, is understanding all of the complexities around 
the different threats out there before you come up with the 
strategy.
    Mr. Shays. Mr. Kucinich, would you like the floor back?
    Mr. Kucinich. Yes. The Chair raised a very good point here, 
first know the threat before you look at the strategy, because 
otherwise we end up in, you know, Alice in Nuclear Land. You 
know, first, the strategy, then the threat.
    And that seems to be some of the case of what is going on 
here, Mr. Chairman. I want to call to the committee's attention 
an article from January 11, 2002 in The Washington Post, ``U.S. 
Alters Estimate of Threats, Non-Missile Attacks Likelier, CIA 
Says.'' And the first paragraph of the article says, ``The 
United States is more likely to suffer a nuclear, chemical or 
biological attack from terrorists using ships, trucks or 
airplanes than one by a foreign country using long range 
missiles, according to a new U.S. intelligence estimate.''
    Mr. Shays. Doesn't everyone, everyone, basically agree with 
that point in the short run?
    Mr. Cirincione. Yes, I do.
    Mr. Kucinich. Well, I am glad that there is concurrence 
among members of the panel. However, what we are seeing raised 
here with the administration is what Mr. Cirincione has said 
publicly is the elimination of the line between nuclear weapons 
and chemical and biological weapons. And we are also seeing a 
United States which is telling countries, as Mr. Cirincione has 
said, that changing the policy--that if they did not acquire 
nuclear weapons, we would not attack them with nuclear weapons. 
That policy is being abandoned. The concern that I have is that 
we are being, for some reason, pushed into a discussion about 
survival.
    And, Mr. Cirincione, I mean anything in these threat 
assessments that you have seen, would they suggest that the 
very survival of the United States is at stake at this moment?
    Mr. Cirincione. No, sir, there is not, which is why it is a 
mistake to conclude that just because the threats are more 
difficult to analyze that therefore they are greater. I do not 
believe we are under--they are greater threats to the United 
States now than there was 15 years ago. Fifteen years ago we 
were talking about national survival. Five thousand Soviet 
nuclear warheads would have destroyed the country, in fact, the 
planet. We do not face that magnitude of a threat, thank 
goodness, today.
    Mr. Kucinich. Any of the panelists want to disagree with 
that, that the very survival of the United States as we know it 
is at risk at this very moment?
    Mr. Bremer. I disagree.
    Mr. Kucinich. Do you want to explain?
    Mr. Bremer. Well, I went through it rather at some length 
in my opening statement. I think it is now clear that terrorist 
groups, the ones we are most concerned about, have made it 
clear they have a motive of killing as many Americans as 
possible. Those groups have tried to get and may have gotten 
hands on weapons of mass destruction.
    Terrorists states, of which there are seven, five of them 
have got nuclear, chemical, biological programs and ballistic 
missile technologies. Some of those states could very well, and 
have already have close relations with some of the terrorist 
groups and could either make that kind of material available to 
them or use it themselves.
    The use of a biological, a well-planned biological attack 
on the United States would absolutely threaten the survival of 
this country, no question about it.
    Mr. Kucinich. Mr. Cirincione.
    Mr. Cirincione. That is certainly a worst-case scenario.
    Mr. Bremer. So was a nuclear attack by 5,000 Soviet 
missiles which you just admitted was a threat 15 years ago. 
That was the worst case? Was there something worse than that?
    Mr. Cirincione. No, there wasn't.
    Mr. Bremer. Case made. If you want to look at worst-case 
scenarios? , that is it.
    Mr. Cirincione. In fact, Mr. Bremer, I think there is a 
remote chance that there could be a biological weapons attack 
that could kill millions of Americans. That is a terrible 
scenario. Previously we feared that kind of attack from states, 
and particularly from the Soviet Union, which had one of the 
largest biological capabilities in the world. They could have 
done that. Even so, even--granted that this is still a danger, 
I--I believe it was a much greater danger 15 years ago when 
those biological weapons existed in state hands with excellent 
delivery vehicles ready to be deployed.
    What we are now worried about now is whether a terrorist 
group would do that. Terrorists do--are trying to acquire 
biological weapons. But so far they have been unsuccessful in 
developing or possessing a usable biological weapon. Does Iraq 
have biological weapons? Absolutely. Will they launch a 
biological weapons attack against the United States? It is 
possible. That is something that we have to worry about.
    Mr. Kucinich. Do they have the capability of 
intercontinental ballistic missile technology?
    Mr. Cirincione. No, they don't. They would have to bring it 
over on a ship, a plane, or smuggle it in a truck.
    Mr. Shays. Would the gentleman yield a second?
    Mr. Kucinich. Sure.
    Mr. Shays. I have some sympathy about the immediacy of 
whether we need to have a missile defense system. And on that 
I--I have some--but I just want to say to you, we have had 
witnesses before us, doctors of noted medical journals, and one 
of the last questions we asked, unprovoked, was, is there 
anything you want to say before we close?
    He said my biggest fear is that basically a small group of 
biological specialists will basically create a biological agent 
that has no antidote, an altered biological agent that will 
wipe out humanity as we know it. And there was--there is a 
basic recognition, this is more than just a possibility. And 
the thing is, there is no restraint on them because there is no 
government that says we are not going to do it because we don't 
want to go into oblivion. There is no deterrence.
    So all of a sudden you just left me way off. I can't tell 
you how strongly I agree with--everything we have heard in our 
25 hearings backs up what Dr. Bremer says. So you are kind of 
on one side here. I would love to have you come back again. But 
good grief.
    Mr. Cirincione. Is it possible? Surely it is possible. It 
is a question of how likely such a threat is. And there have 
been some very well-funded, very determined terrorist 
organizations, particularly Aum Shinrikyo, trying to do this, 
and they have failed to do it. It is a lot harder than most 
people think. Is it possible? Yes. Is it likely? I don't think 
so.
    Mr. Shays. I am going to invite you back when we have some 
of those doctors here to respond. So I would love to get this 
hearing ended. I would love to give you an opportunity to close 
out.
    Mr. Kucinich. I would like to just--to kind of wrap up this 
discussion. We have--on this I spent a lot of time talking 
about the attempts to buildup a national missile defense system 
and the money that is being spent on that.
    The Carnegie Endowment for the National Peace again in 
their bulletin on March 4, 2002 talks about how in January 2001 
a special commission chaired by Howard Baker and Lloyd Cutler 
urged the administration to trim the money spent on securing 
and eliminating Russia's nuclear weapons and materials.
    Cutler said, ``our principal conclusions are that the most 
urgent unmet national security threats for the United States 
today is the danger that weapons of mass destruction or 
weapons-usable material in Russia could be stolen and sold to 
terrorist or hostile nation states and used against American 
troops abroad or citizens at home.''
    So it would seem that our money would be well spent in 
addressing trying to control the nuclear weapons and materials 
out of Russia. Furthermore, I think it would be important at 
some point for this committee to bring people from the 
administration in to go over this question about the 
prerogative for first use, because that has to be based on some 
kind of threat assessment, Mr. Chairman. And I have heard 
testimony here about the threat assessment with respect to 
China and Russia and the ICBMs. But the first-strike policy 
would not be consistent with that threat assessment with 
respect to ICBMs, and I just wonder why so many people are 
pushed into this survival mode with respect to ICBMs when 
others have testimony that there is other security problems 
that confront this Nation.
    Mr. Shays. I understand the gentleman's concern. I figured 
it was a slow news day and it was a newspaper that got a story 
that would could have basically written any year in the last 20 
years in terms of what we require in the military to do.
    But I am going to call this hearing to a close. I think 
there have been some really important elements that you all 
have brought out, and I think every one of you has made a very 
fine contribution, and I thank you very, very much.
    The hearing is closed.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]


       COMBATING TERRORISM: PROTECTING THE UNITED STATES, PART II

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:35 p.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Weldon, Kucinich, 
Clay, and Watson.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Dr. R. Nicholas Palarino, senior policy advisor; 
Kristine McElroy and Thomas Costa, professional staff member; 
Sherrill Gardner, detailee-fellow; Jason M Chung, clerk; David 
Rapallo, minority counsel; and Earley Green, minority assistant 
clerk.
    Mr. Shays. I would like to call this hearing to order and 
to welcome our guests, and obviously, to welcome our witnesses.
    For more than 10 years, we have been at war with 
transnational terrorists, but were unwilling to acknowledge and 
confront the unnatural menace inexorably creeping toward our 
shores. Today, while United States and coalition forces pursue 
the armies of terror abroad, we remain avoidably vulnerable to 
the next terrorist attack at home. Six months after lethal 
terrorism came to our shore through the skies and through the 
mail, we lacked the real time threat assessment, national 
strategy and organizational reforms long acknowledged as 
prerequisites to true homeland security.
    Without doubt, the task is enormous. We are a mobile open 
society of more than 286 million souls living within 7,000 
miles of open land borders and 4,000 miles of unguarded 
coastline. Public safety and public health systems are not well 
integrated. Critical transportation and information systems are 
susceptible to disruption. Intelligence sharing is stilted. 
Military capabilities have not yet been fully transformed to 
meet symmetrical threats.
    Where to begin? It is a question of priorities. Until valid 
threats are culled from innumerable vulnerabilities, until a 
strategy is crafted to meet these threats and until governments 
are organized to implement the strategy, time and money will be 
wasted and lives put at risk as we lurch from crisis to crisis, 
or succumb to bureaucratic infighting and inertia.
    Last week we heard testimony from a distinguished panel of 
experts who recommended a renewed sense of urgency to propel 
and focus homeland security efforts. That momentum and steady 
guidance are supposed to be supplied by the Office of Homeland 
Security referred to as OHS, but there are indications that 
staff level coordination mechanism may not be strong enough to 
prevail in pitched turf warfare against entrenched interests in 
the agencies and in the Congress.
    While we appreciate the briefing that we hoped to have this 
afternoon by Admiral Abbot, OHS deputy director, private 
discussions alone cannot answer questions so critical to public 
health and safety. So today we will hear from the Federal 
departments and agencies charged with key initiatives to 
protect the American people from terrorism. Their efforts, 
individually and collectively, have made the homeland more 
secure, particularly since September 11th, but the low-hanging 
fruit of homeland security has now been harvested. 
Unprecedented levels of coordination and cooperation will be 
required to reach the loftier but essential objective of a 
threat-based, strategically sound organizationally effective 
homeland security program. The question we ask our witnesses to 
answer, are we moving a pace toward that objective? We look 
forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. At this time, I recognize the distinguished 
gentleman from Ohio, the ranking member, Mr. Kucinich.
    Mr. Kucinich. I want to thank the Chair, and I look forward 
to our working to have a cooperative relationship on this 
committee. Now, despite doubling funding for homeland defense, 
despite asking Congress to provide $38 billion next year, 
unfortunately, we don't have the director here to come to the 
Hill and testify about this program. The Office unfortunately 
has ignored repeated recommendations from numerous sources, 
including the General Accounting Office, and even from this 
committee, to conduct a comprehensive assessment of the threats 
which may face this country.
    This subcommittee has heard over and over again that to 
craft a coherent strategy to fight terrorism, the 
administration must begin with one job, conducting a 
comprehensive assessment of all the threats our country may 
face. The Office must gather intelligence from sources 
throughout government agencies, must evaluate the many 
different threats to this country side by side, and must place 
them in some sort of priority order. Otherwise, how do we know 
whether the $38 billion of taxpayers' money is being used 
productively? How do we know that an additional $358 billion in 
defense spending requested by the President will be geared 
toward programs which really do protect the American people?
    The President's budget calls for 8 billion to be spent on 
missile defense in the year 2003, and 38 billion over the next 
5 years, despite the fact that experts, including U.S. 
intelligence and military officials have concluded that the 
threat of a rogue state launching a missile at the United 
States is an unlikely scenario. Who decided that in this 
funding? What threat assessments were examined? This sort of 
analysis is important.
    Mr. Chairman, we joined together in writing to President 
Bush last October when the head of Homeland Security was first 
appointed. Chairman Burton and Ranking Member Waxman also 
joined with us. This was an urgent call from all of us based on 
our many, many hearings on terrorism, recommending that the 
Office of Homeland Security determine what the threats are and 
prioritize them in a logical fashion.
    As we said, this is the first step toward crafting a 
strategy toward allocating our budget resources properly. We 
have been informed that this office refuses to take the step. 
In fact, they are skipping the step altogether, plunging into 
writing a national strategy to be released sometime this 
summer. The Chair has said it, don't you need to know what the 
threat is before you develop a strategy? Of course you do. We 
all know that. GAO and the experts know that, but the Office of 
Homeland Security has not acknowledged it. But maybe that will 
change today.
    So we must ask if the office is not basing strategy on a 
comprehensive assessment of the threat, then on what is it 
basing its decisions? I want to say I do have a lot of 
confidence in Governor Ridge. He is a fine public servant, 
someone who loves this country. He has served the people of 
Pennsylvania well, and I think he will serve this country well. 
I am confident that he can provide validated information, and I 
am confident that he can provide the intelligence. I am 
confident that he can provide analytical assessment. I am 
confident that he can provide well-crafted priorities. 
Unfortunately, the Office of Homeland Security hasn't produced 
any of these yet. But I do have a lot of confidence and trust 
in Governor Ridge's intentions and in his ability.
    Now, earlier this week the White House press secretary 
defended the administration's decision to keep the head of 
Homeland Security from testifying in public. He said, ``this is 
an important line to draw and the President has drawn it.'' But 
it wasn't a line that was drawn when we saw the new alert 
system brought forward, and of course Congress has had no 
opportunity to bring questions to that. So I think we in this 
committee try to be careful not to let politics obstruct the 
pursuit of this Nation's security. Last year we heard from 
Joseph Sirinconi of the Carnegie Endowment for National Peace. 
He gave us some good advice. He said we need to find a way to 
depoliticize our threat assessments to come up with a national 
consensus on what the true threats are, and I would encourage 
this committee to see if it can't devise a way to get a global 
comprehensive threat assessment that is nonpartisan, nonbiased, 
removed from political agendas of the moment. This can help 
guide our budget, our diplomacy, and our policy.
    Mr. Chairman, I think this is right on target. I want to 
thank the Chair for having this hearing and indicate to you I 
am pleased to be here and pleased that this is a public 
process. Thank you.
    Mr. Shays. I thank the gentleman. At this time, the Chair 
recognizes Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. I also want to thank 
you for conducting this hearing, and I want to thank you for 
your leadership on all of the issues surrounding homeland 
security and terrorism and the threat assessment that this 
Nation has undergone and needs to continue to undergo, both 
prior to and since September the 11th. No other subcommittee 
has shown the leadership that you have shown as chairman of 
this subcommittee on these issues. No other subcommittee 
chairman has been as open or as bipartisan as you have been in 
searching for answers.
    As the ranking member alluded to, there have been a number 
of joint letters, a number of hearings where under your 
leadership, you have gone out of your way to reach out to both 
sides that we may get to the truth. Unfortunately today the 
political agenda was in the driver's seat, and the political 
agenda was the message and not the truth and not the search for 
the best ways for us to secure our homeland security.
    I am very troubled that we have been given an opportunity 
to hear from the Office of Homeland Security, and because of 
the political agenda and because of political high jinks, we 
are now at least two more weeks removed from having any 
information. I too am troubled by the reluctance of the Office 
to provide testimony to Congress. I would like to have more 
information about how the threat assessments are being made. I 
would like to have more information on how the budget requests 
were arrived at, but unfortunately, I don't have that 
opportunity now because the political agenda trumped the search 
for the truth today, and more importantly and more 
disappointing to me, Mr. Chairman, is that in the greater 
political game, and all of us are elected to Congress, none of 
us are naive when it comes to politics, but in the greater 
political game, the most open, fair and bipartisan chairman in 
the Congress was trampled in the stampede, and that is what I 
regret the most.
    So I look forward to the hearing that remains. I look 
forward to the testimony of this panel and the truth that 
hopefully is yet to come. Thank you.
    Mr. Shays. Thank you. At this time I would like to 
recognize the gentlelady from California, Diane Watson.
    Ms. Watson. Thank you so much. Mr. Chairman, I too am here 
to gain as much information as we can relative to our plan, our 
design and our strategy for freeing this country from 
terrorism, sneak attacks, and securing the safety of our 
Members. However until we are fully informed, we cannot see the 
whole picture. It is regrettable that our administration 
chooses to not take us along and keep us as well informed as 
possible but there are other ways to seek the truth of the 
matter and I trust that under your leadership of the committee 
we will become knowledgeable. We all need to be partners in our 
national security.
    I wish Governor Ridge well. I know he suffers from lack of 
resources and maybe lack of communication, but I do think 
communicating to us that which can be made public will not be a 
threat. I understand there are certain things that needed to be 
kept away so that our enemies don't know what we are planning 
but I think there is a broad overview that could be presented 
to us.
    So I am hoping as a result of our hearing that we can make 
a positive impact on the administration and have somebody come 
and tell us what the plans are. We that appropriate need to 
understand and need to be part of that general planning. Thank 
you, Mr. Chairman.
    Mr. Shays. Thank you very much and thank you for that very 
articulate statement.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Mr. Chairman, we gather 
today to review the progress of goals and challenges made by 
the executive branch and its departments to develop a 
comprehensive threat and risk assessment plan. I think it is 
very important to state at the onset that from our 
constituents' point of view they do not want their Members of 
Congress to make this briefing and investigation a partisan 
fight that ostensibly erodes to name calling and finger 
pointing.
    All of us are in this together. No one can escape or 
dispute the reality that there are vulnerabilities in our 
domestic assessment because of a lack of defined methodology. 
Like the constituents we represent, there are many political, 
religious and social persuasions present here today, all coming 
together to plan for a safer America through an agreed approach 
to homeland security. However, I am deeply troubled by the 
administration's ongoing over effort to thwart Congress from 
being a part of the solution.
    Mr. Chairman, how will we, as Members of Congress, be able 
to give an accounting to our constituents of the moneys that 
are being requested by various Federal agencies without a 
comprehensive risk assessment plan in place? What methods will 
Federal agencies use to prioritize counter measures? How large 
is the domestic threat? And where will the next threat come 
from? How much time will elapse before these questions can be 
answered? What or whom is being evaluated?
    Like many Americans, I eagerly await Director Ridge's 
proposed national strategy in July. Supposedly, it will set 
clear objectives with performance measures supported by a 
crosscutting Federal budget plan according to the GAO. As the 
administration works to formulate its plan to be presented to 
the American people, I would suggest that a more expanded 
approach to its planning effort occur first. All future 
planning regarding domestic security should include Federal, 
State and local stakeholders.
    I would also suggest, as Senator Lieberman has suggested in 
the March 19 letter to Director Ridge, that the following 
components be addressed in a comprehensive homeland security 
plan, methods to improve communications among the agencies and 
between the public and private sectors, methods to better 
coordinate response efforts among all responsible entities, 
methods to improve the resolution of conflicts between 
competing agencies and an improved comprehensive national 
strategy that identifies the homeland security responsibilities 
of all relative public entities. Then after careful 
consultation with other stakeholders, goals should be 
realistically set, threats identified and priorities proposed. 
And Mr. Chairman, I ask unanimous consent to submit my 
statement.
    Mr. Shays. Thank you very much. Does anybody else seek 
recognition, any other statements before we begin? At this 
time, let me just deal with--I ask unanimous consent that all 
members of the subcommittee be permitted to place an opening 
statement in the record and that the record be remain opened 
for 3 days for that purpose. Without objection so ordered. I 
ask further unanimous consent that all witnesses be permitted 
to include their written statements in the record and without 
objection, so ordered.
    At this time, let me acknowledge the presence of our 
witnesses, and then afterwards, I will ask them to stand and 
swear you all in. We have Mr. Peter Verga, special assistant 
for Homeland Security Office of the Secretary of Defense. We 
have Mr. Stephen McHale, Deputy Under Secretary for 
Transportation Security, Transportation Security 
Administration, Department of Transportation. We have Dr. 
William Raub, deputy director, Office of Public Health 
Preparedness, Department of Health and Human Services; Mr. 
Kenneth 0. Burris, director of Region IV, Atlanta, Federal 
Emergency Management Agency; Mr. James Caruso, Deputy Assistant 
Director for Counterterrorism, Federal bureau of investigation; 
and Mr. Joseph R. Green, Deputy Executive Associate 
Commissioner for Field Operations, U.S. Immigration and 
Naturalization Service.
    I would just point out that before I ask you to stand, we 
realize it is a large panel, I'm still going to invite you to 
speak for 5 minutes plus. You have that range between 5 to 10. 
You don't want to get close to 10, but we want you to say what 
you need to say, and then we will seek to ask you questions. I 
consider this a very important hearing, and I welcome you here, 
and I think we can learn a lot in this process, and at this 
time I would ask you to stand and I will swear you in.
    Before I begin is there anyone else whom you may seek to 
ask advice from? If so, I would ask them to stand as well. Is 
there anyone else in your office? OK.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all of our witnesses 
have responded in the affirmative, and I'm making the 
assumption we are going to go in the order in which I called. 
Are we lined up that way? Let's see. We're going to start with 
you, Mr. Verga, and we'll need to hear you and there's a clock 
in front of you, just so you know--is it working? Five minutes 
and then it will get to red and you'll see the red and you will 
know you've got less than 5 minutes to conclude.
    Mr. Verga. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.

   STATEMENTS OF PETER VERGA, SPECIAL ASSISTANT FOR HOMELAND 
 SECURITY OFFICE OF THE SECRETARY OF DEFENSE; STEPHEN MCHALE, 
       DEPUTY, UNDER SECRETARY, TRANSPORTATION SECURITY, 
     TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF 
TRANSPORTATION; WILLIAM RAUB, DEPUTY DIRECTOR, OFFICE OF PUBLIC 
 HEALTH PREPAREDNESS, DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
  KENNETH O. BURRIS, DIRECTOR OF REGION IV, ATLANTA, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY; JAMES CARUSO, DEPUTY ASSISTANT 
       DIRECTOR FOR COUNTER TERRORISM, FEDERAL BUREAU OF 
INVESTIGATION; AND JOSEPH R. GREEN, DEPUTY EXECUTIVE ASSOCIATE 
    COMMISSIONER FOR FIELD OPERATIONS, U.S. IMMIGRATION AND 
                     NATURALIZATION SERVICE

    Mr. Verga. Mr. Chairman, members of the subcommittee, thank 
you very much for the opportunity to speak with you to the 
Department of Defense activities with respect to homeland 
security. I will outline the Department's organizing approach 
to oversee and conduct homeland defense missions and how DOD 
assists and coordinates with the Office of Homeland Security.
    Mr. Shays. I'm going to make a request. I can hear you 
because you, but just lower the mic a little bit. You have a 
cool mic there as well that goes somewhere else, and I want to 
make sure they can hear you as well.
    Mr. Verga. At the direction of the Secretary of Defense, 
the Department is developing organizations that will oversee 
policy and conduct operational missions related to homeland 
defense and support to civil authorities. Secretary of the Army 
White has been managing day-to-day execution of homeland 
defense activities on a temporary basis in his capacity as 
interim executive agent for Homeland Security. The Deputy 
Secretary of Defense, Paul Wolfowitz, is leading the effort 
within the Office of Secretary, to establish an office at an 
appropriate level to provide policy guidance for and oversight 
of the Department's homeland defense and civil support 
activities, and to work with the Office of Homeland Security.
    The Deputy Secretary is scheduled to propose organizational 
options to the Secretary not later than May 1st of this year. 
This office will ensure internal coordination of DOD policy 
direction and provide oversight for military activities in 
support of homeland defense and civil support. It will also 
provide a focused, coherent interface with the Office of 
Homeland Security and other agencies of government on these 
matters. The schedule calls for the new office to be 
established by June 30th of this year, subject, of course, to 
any necessary legislation.
    Second, the Department is considering a revision of the 
unified command plan which is the plan that establishes U.S. 
unified commands and assigns to them geographic areas of 
responsibilities and missions or functional responsibilities. 
The objective of this revision is unity of command in the 
conduct of homeland defense missions.
    The chairman of the Joint Chiefs of Staff has proposed to 
the Secretary the creation of a new combatant command, U.S. 
Northern Command. This command would be assigned the mission of 
defending the United States against external threats and 
providing support to civil authorities. Under the proposal, 
Northern Command would assume responsibility for security 
cooperation with Canada and Mexico as well. If approved by the 
President, the proposal is to activate the command on October 
1st of this year. At the same time, the Deputy Secretary is 
overseeing preparation of a report mandated in the fiscal year 
2002 National Defense Authorization Act.
    The Congress has asked the Department, among other things, 
to describe its supporting organization within the Office of 
the Secretary to address combating terrorism, homeland 
security, and sharing of intelligence information on these 
activities with other agencies. That report is due at the end 
of June of this year.
    Previously, the Quadrennial Defense Review recognized that 
the highest priority for the U.S. military is the defense of 
the U.S. homeland. The Department of Defense is, of course, a 
key agent for protecting U.S. sovereignty, territory and the 
domestic population and critical defense infrastructures 
against external threats and aggression. In addition to its 
homeland defense role, the Department is asked, from time to 
time, to support a lead Federal agency such as the Federal 
Emergency Management Agency in responding to domestic 
emergencies such as a major hurricane. The Department stands 
ready and willing to assist civil authorities in crisis 
situations.
    Beyond such emergency situations and other extraordinary 
circumstances, the Department of Defense support to U.S. civil 
authorities should be called for only when DOD involvement is 
appropriate and where a clear end date for the DOD mission is 
defined. The Secretary has also stressed the requirement for 
other agencies to reimburse the Department of Defense for civil 
support missions. An example of this support is what we are 
doing with the Treasury and Justice Departments to augment the 
border security activities on the northern and southern 
borders.
    To ensure the Department's readiness for homeland defense 
and civil support missions, DOD components also engage in 
emergency preparedness, that is, those planning activities 
undertaken to ensure DOD processes and procedures and resources 
are in place to support the President and the Secretary of 
Defense in a national security emergency. These include 
planning related to cognitive operations during crisis and 
protection of civil critical defense infrastructure.
    For the first time since World War II, the Department has 
been engaged in the direct defense of the American homeland. 
Operation Noble Eagle commenced immediately after the September 
11th attacks. It includes combat air patrols over various 
domestic locations, other expanded air operations, and command 
and control of active component forces. The security of U.S. 
domestic air space is, of course, a major concern. Other 
support to civil authorities in the United States includes 
National Guard's security augmentation at commercial airports, 
the support to the Olympics, and the support to the Super Bowl.
    As long as terrorist networks continue to recruit new 
members, plan and execute attacks against U.S. national 
interests or seek weapons of mass destruction, our forces and 
Department must remain engaged. Our goals are to thwart 
terrorist operations, disrupt their plans, destroy their 
networks, and deter others who might consider such attacks on 
our Nation. In the coming year, U.S. military forces likely 
will be called upon to act either unilaterally or in concert 
with others to address terrorist threats in a number of 
countries. Our forces will be prepared to do this. Thank you 
very much.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Verga follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. McHale.
    Mr. McHale. Thank you, Mr. Chairman. Chairman Shays, 
Congressman Kucinich, and members of the subcommittee, I am 
pleased to appear before you today on behalf of Secretary 
Mineta and Under Secretary John Magaw, to discuss the 
Department of Transportation's progress in improving security 
for airports and seaports as well as other parts of the 
transportation infrastructure. The Aviation and Transportation 
Security Act established tight deadlines for the Transportation 
Security Administration to implement the enhanced aviation 
security measures. We have met all of the law's deadlines to 
date and are on track to meet all of the remaining deadlines. 
Going forward, we will be using a wide variety of innovative 
approaches to check baggage screening using explosive detection 
technology, improved ways to run the passenger screening 
process, and innovative procurement and recruitment strategies 
using all of the tools that Congress has given us.
    On February 17 the TSA took over all civil aviation 
security functions performed by the FAA and responsibility from 
the airlines for passenger and baggage screening. TSA is using 
private screening companies until Federal security screeners 
can be hired, trained and assigned to all U.S. airport security 
screening check points. We have hired the first of tens of 
thousands of new employees to screen passengers and baggage at 
429 airports nationwide, and we fully expect to be able to 
certify to Congress on November 19th of this year that we have 
complied with the Act's requirement to carry out all passenger 
and baggage screening using Federal personnel.
    Our Federal security directors will be strong front line 
managers who will bring Federal authority directly to the point 
of service, the airport. An area of port security following 
September 11th, the Coast Guard refocused resources to protect 
high consequence targets in the marine environment including 
port facilities, critical bridges, and other infrastructure. In 
addition, Secretary Mineta established the National 
Infrastructure Security Committee [NISC], a coordinated 
interagency effort to address transportation security. An 
analysis of our transportation system in the aftermath of the 
events of September 11th clearly laid bare the susceptibility 
of container shipments as delivery system for terrorist 
weapons.
    The Department, through TSA and the Coast Guard, in 
cooperation with the Customs Service, is making every effort to 
ensure that the security of cargo including containerized cargo 
as it moves throughout America's seaports and the intermodal 
transportation system.
    The struggle against terrorism is a truly national 
struggle. Federal, State and local government agencies, as well 
as the private sector, must work seamlessly together. TSA and 
all of DOT's modal administrations are engaged in extensive 
outreach campaigns to all of the transportation industry. We 
are also working with law enforcement and intelligence 
officials at all levels to protect and defend against future 
terrorist attacks and to effectively manage incidents whenever 
and wherever they should occur.
    In meeting our transportation security mission and helping 
us coordinate other intelligence needs, we will rely on the new 
Transportation Security Oversight Board, which met for the 
first time in January. That board is composed of 
representatives from a number of Federal agencies, including 
the intelligence community. In addition, TSA is working 
coordination with the Office of Homeland Security on a regular 
basis as it develops national homeland security strategy. The 
TSA, on behalf of DOT, is charged with security for all modes 
of transportation and a focus on aviation must not slow the 
TSA's pace in addressing the security needs of other 
transportation modes. Across every mode we must continue to 
develop measures to increase the protection of critical 
transportation assets, addressing cargo as well as passenger 
transportation. We will maintain a commitment to measure 
performance relentlessly, building a security organization that 
provides world class transportation security and world class 
customer service.
    Thank you, Mr. Chairman and I will be happy to answer any 
questions that you or the subcommittee may have.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. McHale follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Doctor, I've learned that if you give 10 
minutes, you usually get five and when you give five you 
usually get 10.
    Mr. Raub. I'll try to keep of the pattern, Mr. Chairman.
    Mr. Shays. OK. You have 10 minutes.
    Mr. Raub. Thank you, sir, and members of the subcommittee. 
I welcome this opportunity to apprise this subcommittee about 
the activities of the Department of Health and Human Services 
related to protecting the United States from terrorist attacks. 
I have a short oral statement and with your permission, Mr. 
Chairman, I'll submit my written statement for the record.
    Mr. Shays. Thank you.
    Mr. Raub. Mr. Chairman, your letter of February 28 to 
Secretary Thompson listed six topics to be addressed during 
this hearing. I will address each briefly. First is 
coordination with the Office of Homeland Security, or OHS. HHS 
coordinates its antiterrorism activities closely with OHS. 
Secretary Thompson, Deputy Secretary Allen, and Dr. D.A. 
Henderson, director of the recently created Office of Public 
Health Preparedness, are in frequent contact with OHS Director 
Ridge and his senior multidepartment activities, as well as 
specific HHS initiatives. Deputy Director Allen participates 
routinely as a member of the Office of Homeland Security's 
deputies committee, which is the primary senior level mechanism 
for interdepartmental communication and coordination.
    Several other HHS senior staff participate in more 
specialized interdepartmental groups called policy coordinating 
committees that support the work of the deputies committee. 
Second is the establishment of HHS program priorities. The 
priorities for the use of HHS counterterrorism funds are the 
result of the confluence of the priorities articulated by the 
President in his budget request and the priorities specified by 
the Congress in the regular, and supplemental appropriations 
for fiscal year 2002.
    In general, HHS is directing its investments toward 
enhanced preparedness for bioterrorism, other outbreaks of 
infectious disease and other public health threats and 
emergencies with antibioterrorism enhancements at the local, 
State and national levels as job No. 1. Guided by this 
strategic framework, HHS's primary emphasis areas are as 
follows: One, enhancing State and local preparedness; two, 
improving HHS response assets to support municipalities and 
States as needed; third, developing and procuring safer and 
more effective vaccines against smallpox and anthrax; fourth, 
developing better diagnostic tests, drugs and vaccines for the 
microorganisms most likely to be used by terrorists; and fifth, 
reinforcing and augmenting border coverage of all imported 
products, particularly foods through increased inspectional and 
laboratory resources and coordination with the U.S. Customs 
Service.
    HHS is striving for measurable achievements in all of these 
areas. For example, recently awarded cooperative agreements to 
enhance the terrorism related capabilities of health 
departments and hospitals feature particular critical 
benchmarks, critical capacities and other specific objectives 
that the States and other eligible entities are expected to 
achieve. Third is coordination with other agencies. HHS has had 
a long-standing role with respect to the Federal response plan, 
working closely with the Federal emergency management agency, 
the Department of Justice and other agencies as appropriate.
    In particular, under the Federal response plan, HHS is the 
lead agency within the Federal Government for addressing the 
medical and public health consequences of all manner of mass 
casualty events, whether terrorist induced, accidental or 
naturally occurring. This responsibility is codified as 
emergency support function No. 8. HHS also is working to 
coordinate planning, training and consequence management 
actions at the State and local levels.
    The recently awarded cooperative agreements to enhance the 
terrorism relevant capabilities of health departments and 
hospitals across the Nation emphasize statewide and regional 
planning, training of health professionals and other 
responders, and medical and public health preparedness in 
response to mass casualty events. As work under the cooperative 
agreements progress, HHS will collaborate with its State and 
municipal partners in identifying exemplary practices in these 
and other preparedness areas and promoting common approaches 
wherever appropriate.
    The fourth topic was private sector feedback. The private 
sector seems able and eager to help advance the HHS priorities. 
In the vaccine development area for example, representatives of 
the pharmaceutical industry have stressed that to the extent 
that the Federal Government can provide its vaccine 
requirements and assure upfront that the requisite funds will 
be available, the industry will meet the challenge.
    Thanks to the President's leadership and congressional 
appropriations for fiscal year 2002, this currently is the case 
for the HHS effort to develop and acquire a sufficient quantity 
of a new smallpox vaccine to protect the entire U.S. 
population. HHS is hopeful for a similar scenario to be 
realized for a new anthrax vaccine if the advanced development 
work during fiscal year 2002 is successful and if the 
President's request for $250 million for anthrax vaccine 
acquisition in fiscal year 2003 is approved by the Congress.
    The fifth topic is other actions to facilitate the 
development of new medical products. HHS-funded research, 
primarily through the National Institutes of Health, is 
attempting to produce new knowledge that will enable the 
development of new or improved antiterrorism capabilities. 
Foremost among these is the rapidly expanding array of studies 
in microbial genomics. By sequencing the genomes of the various 
species and strains of the microbes most likely to be used by 
terrorists and by performing comparative analyses of these 
genomes and their protein products, scientists hope to achieve 
fresh leads for the development of new or improved diagnostic 
devices, drugs and vaccines.
    Moreover, such research often referred to as comparative 
microbial genomics and proteomics, also may yield new insights 
into the genetic basis for why different species of microbes or 
even different strains of the same species differ from one 
another, often substantially, in either their virulence or 
their susceptibility to antibiotics. The results of such 
research not only could spur advanced development and 
commercialization of new diagnostic, therapeutic and 
prophylactic products, but also could enable more informed 
preventative and therapeutic strategies using existing 
products.
    Finally, with respect to other necessary steps, HHS 
recognizes that much remains to be done to ensure our Nation is 
adequately prepared for bioterrorism, other outbreaks of 
infectious disease, and other public health threats and 
emergencies.
    For example, a robust infrastructure for infectious disease 
surveillance will require continuous improvement over the next 
several years. Moreover, the development and commercialization 
of new diagnostics, drugs and vaccines almost inevitably are 
complex scientific and technical endeavors and rarely proceed 
on a predictable course or time line. Nevertheless, despite 
these formidable challenges and uncertainties, HHS believes 
that its fundamental antiterrorism strategy is sound and notes 
that it is already yielding solid incremental enhancement in 
local, State and national capabilities to ensure homeland 
security. The major challenge at present is to invest in 
enhanced local, State, and national capabilities as rapidly yet 
responsibly as possible. Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Raub follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Burris, you're next. Just refresh me, your 
district is Atlanta, but how many States does it include?
    Mr. Burris. The 8 southeastern States from Mississippi over 
to North Carolina, Tennessee and Kentucky.
    Mr. Shays. Great. Thank you very much.
    Mr. Burris. Yes, sir. Good afternoon, Mr. Chairman and 
members of the subcommittee. On behalf of Director Allbaugh, 
I'd like to extend his regrets for being unable to be here 
today, but I'm more than happy to be here to discuss FEMA's 
efforts in homeland security. December 2000, the Gilmore 
Commission issued its second report, stressing the importance 
of giving States and local first responders a single point of 
contact for Federal assistance in training, exercises and 
equipment. The third Gilmore Commission report included 
recommendations to address the lack of coordination including 
proposals to consolidate the Federal grant program information 
and application process as well as to include the first 
responder community in participating in Federal preparedness 
programs.
    These findings and recommendations have been echoed in 
numerous other commission reports and GAO reports as well, and 
by first responder community and State and local officials. 
FEMA's role in responding to terrorist attacks was well 
established before September 11th. On May 8, 2001, the 
President tasked Director Allbaugh with creating the Office of 
National Preparedness within FEMA. The mission of the Office of 
National Preparedness is to coordinate and facilitate Federal 
efforts to assist State and local first responders as well as 
emergency management organizations with planning, equipment, 
training, and exercises.
    The goal is to build and sustain their capability to 
respond to any emergency or disaster, including a terrorist 
incident, weapon of mass destruction or any other natural or 
man-made hazard. By creating the Office of Homeland Security, 
the President took an important first step to improve the 
Nation's capabilities to respond to and to coordinate Federal 
programs and activities aimed at combating terrorism.
    FEMA works closely with the Office of Homeland Security, as 
well as other Federal agencies, to identify and develop the 
most effective ways to build and enhance the overall domestic 
capability for response to terrorist attack. In January, the 
President took another important step to support the efforts of 
first responders to prepare for incidences of terrorism. The 
First Responder Initiative, which would include $3.5 billion 
distributed to State and local jurisdictions, will give them 
the critically needed funds to plan, purchase equipment, train 
and exercise personnel to respond to a terrorist incident.
    These grants to be administered by our Office of National 
Preparedness will be based on lessons learned by the first 
responder community of September 11th. These lessons will be 
incorporated as national standards for the interoperability and 
compatibility of training, exercises, equipment and mutual aid. 
The grants coupled with these standards will balance the need 
for both flexibility that is sought for by States and local 
government and the accountability at the State and local level. 
FEMA's Office of National Preparedness will work with other 
Federal agencies and the States to coordinate terrorism-related 
first responder programs in order to simplify and unify the 
national response system. FEMA is well prepared and equipped to 
respond to terrorist events.
    Our goal is to ensure that the Federal Government and its 
partners provide support to disaster victim, first responders, 
and local government. We are positioned to move forward in 
these initiatives in a meaningful way and look forward to 
working with our other Federal partners, State and local 
partners in helping our Nation prepare for the future. It's 
critical that we require--this requires a commitment of all of 
our partners working together to ensure its success and if by 
doing so we can accomplish the greatest achievement of all for 
our country and that's a Nation prepared.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Burris.
    [The prepared statement of Mr. Burris follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Mr. Caruso.
    Mr. Caruso. Mr. Chairman, thank you very much, members of 
this subcommittee. With your permission, I would enter my 
written statement into the record and just make a few points.
    Mr. Shays. You can do that even without my permission.
    Mr. Caruso. The United States faces a serious threat. The 
No. 1----
    Mr. Shays. Could you move your mic just a little close 
closer to you. Thank you.
    Mr. Caruso. We face a serious threat. The No. 1 threat is 
radical international jihad movement, and the No. 1 group 
within that movement is al Qaeda. We place at the doorstep of 
al Qaeda the following brutal horrendous attacks on American 
interests, both at home and abroad now: East Africa bombings of 
August 1998 we place at that doorstep; the bombing of USS Cole 
in October 2000 we place at the al Qaeda doorstep; and the 
September 11th attacks in New York and Washington against our 
country we place at the doorstep of al Qaeda.
    The primary tactic of the radical international Jihad 
movement is attacks of large scale, high profile, and high 
casualty. A second category of international terrorists more 
clearly defined in some respects would be Palestinian Hamas, 
Hezbollah and other organizations. Director Mueller has changed 
the mission of the FBI. When he briefs the President, which is 
on a daily basis, the President of the United States does not 
ask Director Mueller how many people have you arrested today 
and how many people have you investigated today and prosecuted?
    He asks what have you done in the past 24 hours and what 
will you do in the next 24 hours to prevent a terrorist 
attack--a terrorist attack against the United States?
    What flows from a mission change is new thinking. 
Information sharing and gathering is crucial to that success. 
Under Director Mueller's leadership, we have changed, we have 
used existing channels of communication with Federal, State and 
locals, local police and public safety agencies in a way we had 
not leveraged before. We have also identified new methods 
because new thinking brings new methods of communicating 
information to our partners at the Federal, State and local as 
well as foreign, and when you share information, you also 
gather it.
    We're also placing a premium on training of individuals 
worldwide to solidify the kinds of partnerships that we need to 
successfully win this war. No agency, no country can do this 
alone. Priorities for our--for funding purposes for the FBI 
with reference to the counter-terrorism program, our priorities 
match the priority targets of the radical international jihad 
movement as well as other international terrorist groups, and 
with those targets, we plan to apply the funds that the 
Congress gives us in areas that support what I would call a 
360-degree attack against those targets, ranging from on ground 
investigation here in the United States to investigation 
overseas with other members of the U.S. intelligence community 
as well as our foreign partners and a variety of other areas 
which we can certainly discuss.
    In conclusion, September 11th caused more casualties than 
any other terrorist act. I also add that terrorists have many 
different faces, just not one kind of face, that the 19 
hijackers who perpetrated this attack were very disciplined, 
and as a result of terrorists having many faces, and the 
discipline that these 19 exhibited, it's a very big challenge 
for the FBI and the U.S. Government.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Caruso.
    [The prepared statement of Mr. Caruso follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Lots of opportunity for questions in your 
statement that was not delivered, in other words, your whole 
statement, and I appreciate your entire statement and I 
appreciate your summary. Look forward to asking questions.
    Mr. Greene, you're going to close up and then we're going 
to get to all of you in our questions.
    Mr. Greene. Thank you.
    Mr. Shays. By the way, I just want to thank again your 
willingness to participate in a full dialog, because there will 
be some exchanges, and I was feeling a little guilty in 
thinking you have to listen to the testimony of some of your 
colleagues. I don't always like to listen to the testimony of 
all of my colleagues. Sometimes it's a mutual thing here but--
--
    Mr. Kucinich. I love to listen to you, Mr. Chairman. I just 
want that on the record.
    Mr. Shays. But I think it's important that you hear each 
other, isn't it? So there's some good to this. So excuse me.
    Mr. Greene.
    Mr. Greene. Thank you. I will be brief, Mr. Chairman. I'd 
like to thank you and the members of the committee for the 
privilege of being able to talk today about the----
    Mr. Shays. I'm going to ask you to lower the mic. That's 
the one to your left, the one that magnifies----
    Mr. Greene. OK. And this is the one that picks----
    Mr. Shays. So use the one to your left and just slide it in 
an angle that way.
    Mr. Greene. All right. Is that better, sir?
    Mr. Shays. That's good.
    Mr. Greene. OK. Thank you. It's a privilege for me today to 
talk to you today about the--the work of literally thousands of 
dedicated men and women in the Immigration Service, and what 
they're doing to set new priorities and strengthen our border 
security in connection with the overall effort to enhance our 
national security. Since the terrorist attacks, the INS has 
taken a number of steps on its own initiative to increase 
domestic security, and some of these we've already discussed 
with this committee.
    We dispatched over 300 border patrol agents to major 
airports in the immediate aftermath of the attack to increase 
security at airports. We committed 50 percent of our special 
agent resources and maintained that level of commitment for the 
first 3 months after the attacks in order to support the FBI in 
their investigation of these attacks and auxiliary matters that 
grew out of that.
    This occurred within the framework of the Joint Terrorism 
Task Force and of the recently newly established antiterrorism 
task forces that the--that the Attorney General had 
established. We also detailed an additional contingent of 
border patrol agents to the northern border to provide 
additional security along that border. More importantly, very 
quickly after the attacks, we coordinated with a number of 
important agencies to increase the--reduce, rather, the 
vulnerability of our visa entrance process and the process by 
which people come to the United States.
    With the Department of State, we have expanded the 
screening process for overseas consular officers in connection 
with the visa issuance processing. We have also made--the 
Department of State has also made available to us temporary 
visa application data that is now available to INS inspectors 
at the port of entry where they do their work. With the 
Department of Treasury Office of Foreign Assets Control, we've 
assisted in the identification and freezing of assets, a 
project of which you all have widely heard.
    But our most productive partnership to date has been with 
the Federal Bureau of Investigation. We've worked with the FBI 
on leads that have arisen directly out of the attacks 
themselves. The intelligence and information that we gathered 
with respect to movement of people in and out of the United 
States was of material assistance to that investigation. We 
have interviewed with the FBI and with State and local law 
enforcement agencies, people who have been identified as 
potential witnesses that would be useful not only in the direct 
investigation, but also in our counterterrorism efforts.
    With the Department of State, we've taken steps to tighten 
our procedures regarding passengers traveling without visas 
into the United States and also tightened our refugee 
processing. We have worked under the umbrella of the 
antiterrorism task forces with State and local agencies and the 
FBI in an--an initiative that is currently directed at 
identifying, locating, arresting and removing from the U.S. 
people against whom final orders have been pending for years.
    We have worked with the Department of--with the Office of 
the Inspector General in the Department of the Interior, with 
the Department of Labor and with the FBI on an initiative 
called Operation Tarmac, which was ordered to be begun within 
days of the attacks. This is where agents of the Immigration 
Service working with FBI, working with the Department of 
Transportation, have identified employers whose employees have 
access to secure areas of major airports and other critical 
national infrastructure locations.
    To date, we have looked at over 800 employers. We have 
examined records pertaining to over 200,000 people. We have 
arrested over 100 people in connection with this initiative on 
various charges including immigration violation, and that 
effort is continuing. We have worked with the FBI and national 
security agencies under the framework of the interagency 
working group, an arm in the Department of Justice that is 
responsible for looking at international smuggling and we have 
identified and are working on a number of significant law 
enforcement cases that will materially affect the security--the 
national security of the United States.
    Finally, I'd like to say that the INS has had to redefine 
its priorities and look overseas as well in ways that we have 
not had to before, and frankly this is the critical area where 
the INS has--has worked successfully, and well with the Office 
of Homeland Security.
    As you know, the Commissioner of the Immigration Service 
proceeded to Ottawa several months--rather in December to work 
with the Canadians on the groundwork which led to the Ridge-
Manley document. Our Commissioner accompanied Governor Ridge to 
Mexico to initiate and participate in discussions there with 
respect to border security.
    We are in fact stepping forward to reset our priorities in 
terms of extending the ambit of our concern outside of the 
ports of entry at airports, outside of the port of entry at 
land borders, and to the places where people are originating to 
come to this country, and we think that there is great promise 
in these bilateral negotiations with Mexico and Canada, not 
simply with respect to the national security interest, but also 
with respect to some of the more festering problems that we 
have faced in the national migration discussion that we've had 
in this country for more than 10 years.
    That concludes my remarks, Mr. Chairman and Members. I'll 
be happy to take your questions.
    [The prepared statement of Mr. Greene follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you very much. Let me say that I'm going 
to start out with Mr. Putnam and then go to Mr. Kucinich. We're 
going to do 10-minute questioning. When a Member asks you a 
question and you ask a question of one of you and you want to 
jump in, you know, just try to stick your finger up and let 
that Member know that you would also like to make a 
contribution. It's their discretion on whether they want to use 
their time in calling you forward, but I would hope the 
Members, given that we have as much time as we need, would 
allow for that interaction.
    You all are involved interacting in some way. We need to 
get--to see how this is working. We'll have a number of 
questions. We'll get right to it and, Mr. Putnam, you have 10 
minutes.
    Mr. Putnam. Thank you, Mr. Chairman. Mr. Greene, it has 
been not exactly a chamber of commerce a couple of weeks for 
your agency. Tell me, if you would, if the INS has run the 
names of the other 17 terrorists to ascertain whether or not 
they have documents pending within the INS.
    Mr. Greene. Yes, sir, they are and they are doing it a 
second time, and I think we're working a third time now.
    Mr. Putnam. And under the Patriot Act, there was also a 
provision that prohibited INS from issuing visas to relatives 
of known terrorists. What steps have been taken to comply with 
this provision?
    Mr. Greene. It's my understanding that enabling regulations 
are in the process of being worked on that. I don't have a date 
for you, but--as to when that will be done. I'll be happy to 
provide you with the status report on that effort.
    Mr. Putnam. What is being done in the meantime?
    Mr. Greene. Well, right now, as the commissioner has 
testified before the Judiciary Committee last Tuesday, we have 
a complete freeze on all of the documents, the I-20's, for 
example, which were the issues. All of the applications that 
have been filed with the INS that are pending with the INS and 
that will be filed are being run through our IBIS system which 
contains our lookout system before they are adjudicated. There 
are a number of other steps specifically with respect to 
schools. Some of the loopholes that we--that our analysis of 
this event disclosed, such as allowing students to begin their 
course of studies before the change of status had been 
approved, have now been closed. You will not be able to study 
in the United States, if you're already here without the change 
of status having been officially adjudicated, and I will tell 
you that the effort to tighten the process of visa application 
is ongoing and continuing.
    Mr. Putnam. Thank you. Dr. Raub, Director Ridge spoke at a 
food safety summit on March 14th and indicated that one of 
their priorities was to consolidate the functions of food 
safety and inspection. At various times Secretary Veneman and 
Secretary Thompson have each indicated that one of our key 
vulnerabilities is in our food safety system. We have--if you 
make a cheese pizza--if you have a cheese pizza factory, you 
have one agency inspect you. If you throw pepperoni on it, 
another agency inspects you. When we go to our airports and 
seaports, if we're bringing in fruits and vegetables, you have 
one set of inspectors. If you're bringing in meats, you have a 
different. How far along is that planning, and please elaborate 
on that consolidation plan.
    Mr. Raub. I've not been involved directly, sir, in the 
details of those discussions, so I can't provide more than some 
very general knowledge. I know that the two Secretaries have 
been in precisely those discussions with the staff and the 
Executive Office of the President. In the short run, the 
emphasis has been on strengthening the respective capabilities 
in our department and the Department of Agriculture, in our 
case, through the Food and Drug Administration by expanding the 
number of inspectors and seeking broader authorization for 
inspection capabilities, focusing on especially the ports and 
other activities.
    I know the discussions will continue about the pros and 
cons of consolidation of those regulatory structures, but the 
objective is the same in any case, and that is to strengthen 
and ensure that our highly centralized system of food 
production and distribution is not vulnerable.
    Mr. Putnam. Is there a specific objective that any of the 
agencies have outlined where we're going to move the number of 
cargo containers inspected from 3 percent to 15 percent or from 
12 percent to 70 percent? Is there any specific, tangible, 
measurable, quantifiable goal that we can view the homeland 
security budget and the consolidation plans and the added 
emphasis on information and detection and be able to measure 
progress?
    Mr. Raub. I don't have those numbers with me, sir. I'll be 
glad to provide them.
    The FDA has as part of its budget development and 
justification laid out the goals it believes it can achieve 
with the expanded work force of inspectors and with the new 
authorities.
    Mr. Putnam. I'd like to--very much to see that. I look 
forward to receiving it.
    Mr. Burris, the--one of the key issues that this 
subcommittee explored long before September 11th in its 
discussions over homeland security and the competing 
legislative proposals involved improved coordination and 
communication and standardization of equipment, 
interoperability of equipment among local first responders, 
among the myriad of State and Federal agencies. What has been 
done to standardize our communications equipment, our 
decontamination procedures, our detection equipment, and what 
is--what is the blueprint for progress on that?
    Mr. Burris. Well, our FEMA IT directorate is undertaking 
the responsibility to provide some type of standardization 
within the communications arena. There's a lot--there's 
several, you know, manufacturers. It has to do a lot with the 
type of spectrum that's available to public safety users for 
their radios. While, you know, I doubt that we'll ever be in 
the business of telling a first responder community or telling 
a local community which radios they're going to buy, we can go 
about the business of identifying the specifications of what 
that equipment is, and we're working with the FCC to do just 
that. Some of the other compatibility issues revolve around 
working within a common incident command system or--and issues 
in that arena, and we're working on that.
    There happens to be a lot of consensus-based standards in 
this country, and they're voluntarily used around the country. 
Part of what our responsibility will be is to encourage wider 
adoption of those consensus-based standards by local 
communities and the States.
    Mr. Putnam. Mr. Verga, there have been reports that prior 
to the September 11th attacks, at least one of the terrorists 
involved in the flights that--in the flight that struck the 
Pentagon was known by the CIA to have met with a group of 
Malaysian--a known terrorist organization in Malaysia. He then 
entered the United States before that information was 
transferred to the INS and subsequently to the FBI. Have we 
successfully cleared the hurdles of intelligence-sharing, and 
have we improved the communication between agencies with 
primarily nondomestic responsibility and those with domestic 
responsibility, or are there still jurisdictional barriers that 
are clouding up our communications capacity?
    Mr. Verga. Let me say, first of all, I have no personal 
knowledge of that particular incident that you--I reported, and 
of course the director of Central Intelligence would probably 
be better in a position to address the overall coordination 
among the intelligence community.
    I will say from the Department of Defense's perspective, we 
recognize it as a challenge, and we're working very hard to be 
able to get the information, and I would differentiate between 
information and intelligence, because what is needed at the 
local level to deal with problems is the information that--for 
example, the State patrolman needs to know that an individual 
is somebody who is on a watch list that, when he stops him for 
a traffic stop, he needs to make further followup. That can be 
differentiated from the source and the method by which we 
obtain that information, and the Department of Defense is 
working as part of the intelligence community to be able to 
develop a system that will allow that information to get 
transmitted down to the level that it needs. We're making some 
progress. We have--we do have a long way to go.
    There are issues of classification of information. There 
are issues of how do you transmit the information over secure 
means, and we are working with that. For example, during the 
Olympics in Salt Lake City, we solved the problem essentially 
by establishing a classified facility on one floor of the major 
headquarters used for Olympic security, where defense and all 
intelligence information was funneled into it, analyzed, and 
then sanitized to put out to be used during the security 
operation.
    Mr. Putnam. Mr. Caruso, perhaps the FBI would like to add 
to that.
    Mr. Caruso. Thank you very much. I'll go back to the phrase 
that was used earlier, new thinking, as an effect that ripples 
out well beyond this so simple a phrase. The U.S. Patriot Act 
is one example of the Congress's leadership in fostering 
agencies that share information. In the U.S. Patriot Act, the 
prohibition of sharing Federal grand jury information was 
lifted. That allowed us and the FBI and others in the law 
enforcement community to share information with the 
intelligence community. It's something that wasn't--existed 
before, and that was an important--an important--important door 
to open. So from a legislative point of view, that's something 
that was really very helpful.
    New thinking also goes beyond--it goes into policy, and 
people look--struggling with an issue and coming about it in a 
new way. For example, through the National Law Enforcement 
Telecommunications System, it's called NLETS, it's the way the 
FBI communicates with other Federal agencies, as well as police 
departments across this country. Shortly after September 11th, 
we with the U.S. intelligence community made a conscious 
decision to take classified information and declassify it and 
send it out through the National Law Enforcement 
Telecommunications System, NLETS, and that goes to thousands of 
police departments and public safety departments across this 
land, reaching hundreds of thousands of policemen and public 
safety men and women. Before September 11th, that did not 
occur. After September 11th, that kind of new thinking brought 
on that kind of information-sharing, and information-sharing is 
a two-way street, because when you share information, you're 
providing essentially leads for policemen and women, and you 
get information back, and it's a two-way system.
    So there are just two examples of some of the new thinking 
that occurred, one because of legislative leadership, and the 
other because people sat back and thought anew.
    Mr. Putnam. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much. At this time I would 
recognize the ranking member, Mr. Kucinich, for 10 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman, members of 
the subcommittee. As I'm sure all of us would agree, democracy 
and accountability thrive on openness and universal access to 
information, and that's why this committee has held over two 
dozen open hearings on terrorism. We've heard from virtually 
every agency involved with counterterrorism. We've had 
experts--panels testify. We've sought advice from the GAO. And 
one constant theme through our witnesses that we've heard over 
and over is that we need to put one job above all others, and 
that is a job of conducting a comprehensive and analytical 
assessment of whatever threats or concerns that our country 
might face. And it's been suggested over and over that without 
this assessment, we have no way of knowing what the priorities 
should be, that our strategies wouldn't be fully informed, that 
our budget may not be key to what might be the most dangerous 
concerns we face. So we've had this repeated recommendation, 
conduct a comprehensive threat assessment, figure out 
priorities based on the assessment, craft a strategy to address 
these priorities and link up the budget. And as I indicated 
earlier, our committee actually sent a bipartisan letter to the 
President detailing our findings, recommending that the 
office's first priority be to conduct a comprehensive 
assessment.
    I'll ask Mr. Caruso, are you familiar with that issue of a 
comprehensive threat assessment?
    Mr. Caruso. Mr. Kucinich, I know that there is an interest 
in creating and developing a national threat assessment. That's 
as best as I can frame that.
    Mr. Kucinich. Did the FBI actually begin one a few years 
ago, like 1999? Was the FBI involved in starting to put 
together a threat assessment?
    Mr. Caruso. The FBI has conducted a number of different 
threat assessments. There was an effort in--I know that in 
2001. It may have started in 1999. I do not know that. But in 
2001, there was an effort to put together a national threat 
assessment, and as it was progressing, the September 11th 
attacks occurred, and suddenly, as you can--as you understand, 
everyone moved to that.
    Mr. Kucinich. So that was--that assessment by the FBI was 
basically put aside. Is that----
    Mr. Caruso. Yes. The FBI is--since September 11th, which is 
the timeframe I can speak to, since September 11th, we have an 
ongoing national threat assessment, and you see that ongoing, 
national threat warnings, and ultimately you see it in the 
proposal that Governor Ridge has made with reference to his 
national threat warning that is now out for public comment. So 
that would be an ongoing threat assessment.
    Overall, the FBI has conducted about 85 or so threat 
assessments that are event-specific or site-specific. For 
example, they will do a threat assessment when Pope John was 
here in 1999, and in the midwestern Ohio. We would do one--we 
also did one for, of course, the 2002 Olympics. So the FBI's 
overall consistent thrust has been threat assessments that are 
based either on an event or a specific site, not national----
    Mr. Kucinich. Right. The one that--the one that started a 
few years ago was an attempt, from what I understand, anyhow, 
that there was an attempt to establish a generalized 
assessment, and I understand what you have told this committee, 
in that the FBI has been dealing with some of these things on a 
case-by-case basis, but generalized, you did--you did at some 
point start a generalized threat assessment that was----
    Mr. Caruso. Yes. I also believe that a generalized threat 
assessment is too broad for the kind of dynamic country that we 
have, in the sense of size and complexity, to have much meaning 
to it even before it's published, because things do change. So 
my own personal opinion and professional opinion is that a 
national threat assessment is not quite as valuable a tool, 
that you could turn into actual--actionable items.
    Mr. Kucinich. Yes. What I'd like to know, I mean, just--and 
let me say that I appreciate the work of the FBI, that I feel 
that the FBI has done everything it can to help this country, 
and I think generally the people of this country appreciate it. 
What we're trying to figure out here is that how do you know 
your priorities if you don't have an assessment, how do you 
develop a strategy? You know, because we don't have anybody 
from the Office of Homeland Security here who could help guide 
us. Does the FBI have any recommendations that you might want 
to address to the public as to what steps might be taken to be 
able to assure the public that the big picture, which is really 
what this office is about with this $38 billion budget, that 
the big picture is going to be addressed?
    Mr. Caruso. I need to defer to Governor Ridge for the 
bigger picture. All I can speak for is the FBI, and what I 
would say is we do know the No. 1 threat that faces the United 
States and it's al Qaeda in the terrorism area, and we know 
that because we have investigations that--of the East Africa 
bombings in 1998, the USS Cole in 2000, and now the September 
11, 2001. Those investigations and information that we've 
gotten from our partners in the intelligence community and that 
partnership is crucial to success, as well as our partners 
overseas, point to al Qaeda, which is the No. 1--the No. 1 
terrorist that the United States--threat that the United States 
faces so it's the investigation and the sharing of information 
that leads us to the conclusion, and I think it's shared by the 
U.S. Government, that al Qaeda is the No. 1 group that we need 
to be concerned about. That's not to the exclusion of others, 
but that group, that sometimes amorphous group, has caused 
extraordinary damage to us, as we all know.
    Mr. Kucinich. Well, I thank the gentleman for his answer 
and I just want to point out that I--you know, as you said, you 
can't answer for Governor Ridge. I respect that. We're talking 
about two different things. One is that--the very sharp 
specific focus of the response of the FBI to whatever 
challenges come up--you come up with a plan, you learn about 
something--as opposed to just a general broader picture.
    So I respect that you can focus on that one and respond 
well as you did.
    Now you indicated that al Qaeda is not the only problem we 
face. One of the things that I thought was instructive in your 
testimony was you cited a number of groups, including--in 
addition to al Qaeda, you cite extremist groups such as Hamas, 
Hezbollah, al-Gama'a, al-Islamiyya, and then you also mention 
the Irish Republican Army. In all of the hearings I've been in, 
this is the first time that I've heard a reference to the Irish 
Republican Army in the context of activities in the United 
States. I guess what I'm looking for is a response as to how--
it's the first time I've heard of that. Would you like to tell 
this committee what the--what kind of activity the IRA has in 
this country?
    Mr. Caruso. Our interest in the IRA is--in this country is 
in the area of garnering funds to support violence overseas, 
garnering funds for--funds for--from individuals here in the 
United States and also weapons, of procuring weapons here and 
shipping them back overseas to support a violent cause. We have 
examples of that--an example of that is in the--in our Miami 
division in Florida a year or so ago, maybe a bit more, but 
it's primarily fund-raising to support violence, as well as 
weapons.
    Mr. Kucinich. Yes. Again, it's the first time that I had 
heard that. So under the Patriot Act, then, if someone had 
given funds to any of these organizations, they then would be 
subject to prosecution. Is that correct?
    Mr. Caruso. I can't speak exactly to the Patriot Act. The 
case I'm talking about occurred before the Patriot Act, so we 
were able to use existing laws that were there to prosecute 
these individuals.
    Mr. Kucinich. You're talking about something in the past, 
then, not something going on right now?
    Mr. Caruso. Not--I'd rather stick--I'd rather remain with 
the case that I cited, because that's been through the public 
and the judicial processes, etc. Etc. is not the word I want to 
use, but----
    Mr. Kucinich. I think I get the gist of what you're saying 
there, and I respect that.
    I'd like to--how much time do I have, Mr.----
    Mr. Shays. Probably about--how much time is left? 40 
seconds. You've got a good minute.
    Mr. Kucinich. Mr. Chairman, thank you very much for this 
opportunity to ask these questions, and I'll yield back. It's 
OK. Thanks.
    Mr. Shays. At this time I would recognize Ms. Watson.
    Ms. Watson. I'm going to yield some of my time back, 
because I can't spend the whole 10 minutes, but what I've 
noticed is that the further we are away from the attack sites, 
the quicker people are getting back to their regular routine. I 
represent an area that abuts the airport, LAX, and we have gone 
after airport security with a great passion, but what I see on 
the West Coast could be a threat to our waterways. We get water 
from the Colorado River, from the dam and so on. Our 
transportation system may be a big tanker full of high octane 
gasoline running directly into a wall, that suicide mission. 
Our borders and our seaports. Just anyone along the panel, 
maybe the FBI, would want to comment on what are our short-
range priorities and long-range priorities in addressing these 
various systems? That's what is troubling to me. When I go back 
to my district and hold one of these forums, they want to know 
where the nearest bunker is, and do we have water there and 
what kind of food will be there, because they expect terrorism 
will continue, this time on the East--West Coast. So can 
someone respond?
    Mr. McHale. The Transportation Department has got a number 
of different programs that address some of your concerns. We do 
not deal with the water supply. So I'll leave that to one of my 
fellow panelists. But on the--on port security, we have a 
number of programs, including some in Los Angeles and Long 
Beach that address where we place sea marshals on ships, 
particularly ships carrying hazardous cargo, and the sea 
marshals stay on that ship as it comes into port to make sure 
that it remains secure and to protect the navigational stations 
on that ship.
    In addition, you mentioned tanker trucks carrying hazardous 
cargo. Our Federal Motor Carrier Safety Administration has 
conducted almost 40,000 visits to companies that have hazardous 
material licenses and has talked to those companies about 
safety measures that they should take, reporting a suspicious 
activity, checking their records and licenses of various 
individuals employed by those companies. And in the course of 
those, they referred over 100 cases to the FBI.
    It's a vast system. The transportation system is a huge 
system, and we're trying to look at it in a comprehensive way, 
but we really have to leverage all of the resources of the 
State and local governments, as well as the Federal Government, 
and frankly the private sector. The responsibility is very 
broad. The airlines and the airports have very much stepped up 
to the plate. We've gotten terrific competition--terrific 
cooperation from the trucking industry and the railroad 
industry. The broader we work with them and communicate with 
them, I think the stronger we're going to be. TSA is only about 
2 months old, so we've got a long way to go, but the other 
administration modes--modal administration of Transportation 
have been doing a terrific job outreaching to their specific 
transportation modes, trying to raise awareness and to give 
them appropriate points of contact within the Federal 
Government to report suspicious activity.
    Ms. Watson. Since our country is so vast, so broad, have we 
considered a regional approach to securing these different 
systems and a coordinated effort here, maybe homeland security? 
I do know there's been difficulty communicating across the 
various department lines, but would it not be better in the 
nooks and crannies of this country to work out a plan that 
would address these categories I just mentioned?
    Mr. Caruso. Ms. Watson.
    Ms. Watson. Please.
    Mr. Caruso. Governor Ridge's proposed homeland security 
advisory system is out for public comment, to improve it if it 
can be, but it lays out a foundation of warning. And if you 
have an opportunity to take a look at the various colors----
    Ms. Watson. Yes. I----
    Mr. Caruso. With each one of the colors comes an increasing 
level of vigilance, and so--and that can be--and that threat 
warning can be applied to the Nation, to a region, to a 
section. So that would be one way for individuals to be able 
to--they best know their critical locations, and this system 
would be a step in the direction of allowing them to take a 
uniform precaution, a uniform understanding as to what they 
need to do and their fellow citizens need to do to protect 
certain vital critical key assets.
    The second is that there is a--the National Infrastructure 
and Protection Center, NIPC, which is a multiagency center 
which has very good connectivity with what we call the eight 
industrial communities, telecommunications, banking, finance, 
and they have a very good connectivity and growing increasing 
good connectivity with the various businesses and those 
industries. And that's another method to target, if you will, 
industries that there's a particular threat that's been leveled 
against. And so you have those two systems which are very much 
complementary in raising the bar with reference to awareness 
and then responsiveness to that.
    Ms. Watson. Two systems just failed. One was Bank of 
America and its deposit system. You know, I'm just wondering 
how we are going to assure that the systems are up and 
functioning, and I look at the INS, it's been the whipping boy 
in the last few weeks, and maybe rightfully so. I think 
probably what you need--and I understand there's a new 
structuring. You probably need more resources to hire more 
people and train them better, more educational dollars and so 
on. But my concern still is what do we know, and I'm talking 
about the Members--we have to go back to our district. I'll be 
on a plane in less than an hour--and we have to assure our----
    Mr. Shays. Excuse me. You've got to be on a plane in less 
than an hour?
    Ms. Watson. Well, I'll be leaving, not on the plane.
    Mr. Shays. Mr. Verga wanted to know how you were going to 
do that.
    Ms. Watson. Going through the security, it will be more 
than an hour.
    But we have to be able to be partners in all of this, and 
when we go back, we have to assure those American people out 
there that we got it under control. I try not to tell them 
about September 11th, but we need to know something concrete 
that we can take back to our Governors, our mayors, our board 
of superviser members and so on, something concrete. I have 
seen the color system on television, heard about it on the 
radio, read about it in the newspapers, but it still doesn't 
tell me anything. I know what green stands for and red and so 
on. You know, I know the levels, but what's behind all of that? 
And so we need more clarification. Maybe we should get a one-
on-one in secret. I don't know. Because I guess when we have 
our briefings, there are too many people in that room and too 
many people listening in. But I'm looking for concrete 
information. I'm not getting it.
    Mr. Greene. If I may respond to that, please, there are a 
couple of concrete things I can tell you that buildupon the 
statement that I made up front about the increased partnership 
of the FBI, and there have been two things I can point to 
immediately. The first is that very soon, like within a day or 
two of the attack on the United States, that some total of INS 
information with respect to people coming to the United States 
was delivered to the FBI. The kinds of information that we 
collect and then have to analyze in order to determine the 
movements of certain people or to be able to even do some 
predictive work with respect to folks coming into the United 
States, the fusion point for that kind of information is now 
the Foreign Terrorism Tracking Task Force, which I believe the 
committee has been briefed on, and that provides a concrete 
step toward the kind of information-sharing and the kind of 
analysis that we need to do to complete the kind of prevention 
work that the Attorney General has said is the strategy for the 
FBI, the INS and the justice components in that regard, and I 
want to keep this short because I know you have a plane to 
catch.
    Ms. Watson. I'll yield back my time, Mr. Chairman.
    Mr. Shays. Thank you very much. And thank you for being 
here today.
    Mr. Clay, you have the floor.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Shays. We're just starting new time.
    Mr. Clay. Mr. McHale, let me ask you, has there been an 
assessment of the new airport screener process since the new 
public law went into effect?
    Mr. McHale. We have an ongoing assessment, and we're 
actually still in the process of Federalizing the work force. 
We took over the private sector contracts on February 17th. We 
have worked to some extent to improve that process. We're 
engaged in a very detailed planning to how we will operate the 
screening check points when we bring in the Federal employees, 
but the first Federal employees will not be reporting until 
some time in May. So I'm not sure that answers your question or 
not, but we're engaged in a very--very detailed assessment of 
the current screening process.
    Mr. Clay. In the meantime, I read a pretty disturbing 
report about the lax security at the Salt Lake City airport 
during the Winter Olympics. I don't know, have you all looked 
at that situation?
    Mr. McHale. Yes, we have. We've appointed an associate 
under secretary for inspection, David Holms. He's been on the 
job about a month, and we received--we received that report 
about--about 2 weeks ago, and Mr. Holms and his staff, which is 
still growing, small and growing, like our entire agency, has 
actually assigned some people to go out there and look at that 
and report back to us as soon as he can.
    Mr. Clay. And they will make recommendations to that 
airport and hopefully others that----
    Mr. McHale. I think that's right. The situation in Salt 
Lake City, of course, was, I think, quite extraordinary. I 
mean, it's huge, huge influx of people into a relatively small 
airport, but I think we can probably draw some lessons from 
that we can apply nationwide.
    Mr. Clay. How about your--the current status of the Federal 
air marshal program? How is that going?
    Mr. McHale. I can't discuss in an open session the numbers 
of Federal air marshals, but I can tell you that the program 
has greatly expanded. We have been greatly assisted by the 
other Federal agencies, some--many of whom are here, by 
assigning to us on detail many of their criminal investigators 
who are serving as temporary Federal air marshals, and we at 
Transportation are greatly increasing that program.
    Mr. Clay. OK. Thank you for that.
    And, Dr. Raub, tell me, are you familiar with the 
precautionary measures that are in place in the postal service 
as far as mail handers who handle the mail on a daily basis, 
and if you are, are you pleased with the precautions?
    Mr. Raub. I'm not aware in detail, sir. I know that 
considerable attention has been expended through the Centers 
for Disease Control Prevention and the post office with respect 
to that. I think that will be a continuing effort of--to ensure 
the level of improvements that are necessary.
    Mr. Clay. Does your office meet regularly with the Homeland 
Security Office here?
    Mr. Raub. Yes, sir. Not only does our secretary and deputy 
secretary meet regularly, but the director of our office, Dr. 
Henderson, is in frequent contact with Governor Ridge and other 
senior staff there.
    Mr. Clay. OK. OK. Thank you for that.
    And, Mr. Caruso, you noted in your opening statement that 
al Qaeda was the No. 1 threat to this Nation. Can you give us 
any indication of what their strength is today and where they 
are? Do you know? I mean, I read a recent report that they may 
be in Indonesia, and may have left Afghanistan and went to 
Indonesia. Do you have any information on that?
    Mr. Caruso. Sir, terrorism does not have one face. It's 
made up of individuals of various nationalities and hail from 
various countries. We believe that al Qaeda is--al Qaeda 
sympathizers are spread in many places around the world, just 
not in where these 19 hijackers came from. It would be unfair 
to say that's where they came from, that all terrorists are 
based there. We find them not only in the Middle East, but we 
find them in places in Southeast Asia and in other locations as 
well.
    With reference to the numbers, I think individuals of good 
will could vary on that, and so I don't think there's a precise 
number. I think what you're--what will be there is a dedicated 
group, hard core. How many that is, I do not know. It might be 
several thousand, and then you have a concentric circle that 
goes out of individuals who are less dedicated but would be 
there to lend a hand if a situation presented itself, and then 
you have a larger group who are just sympathizers who would not 
be participants, but to put hard numbers on them, I don't have 
them, nor does anyone else.
    Mr. Clay. OK. Along those same lines of thinking, when you 
talk about terrorism not having any single face, does the--has 
the Justice Department and the FBI paid attention to the 
sensitivity as far as Arab Americans and Muslims, because, you 
know, history tells us that when we use a broad brush and say, 
for instance, in World War II when we locked up an entire race 
of people or a lot of them, it comes back to haunt us, through 
reparations, through lawsuits. Is that going to happen a few 
years out from today where we come back and look and say, oh, 
we made a terrible injustice. We painted this group with a 
broad brush. I mean, for instance, the guy that's locked up in 
Virginia, I'm sure you all have more information than I on--
Moussaoui is his name, I think? I mean, is this going to come 
back to haunt us?
    Mr. Caruso. The FBI is very cognizant of its--of the 
investigative tools that we have and the need to use them for 
the good. The rule of law is what we are guided by, and we are 
pledged to uphold. At the same time where we are vigorously 
investigating with over 4,500 agents, we are utilizing over 
4,500 agents to investigate the attack of September 11th, at 
the same time we were conducting civil rights investigations 
and hate crime investigations, because there were unfortunately 
Arab Americans, innocent Arab Americans, and the vast majority 
of them are, who were the victims of hate crimes, who were the 
victims of just absolutely un-American kind of activities. And 
so at the same time we're vigorously investigating the 19, we 
were out conducting an investigation to prosecute, and we have 
prosecuted individuals who have set upon these very, very 
innocent people.
    At the same time, we've also gone out through the 
individual leaders of our field offices, 56 across the Nation, 
and they have gone out and reached out to the--into the Arab 
American communities, to the mosques and other cultural 
centers, to extend a hand because they are part of the 
community we're there to protect and we've made that a 
conscious effort, because without the cooperation of the 
American people, the FBI is not going to be effective, and we 
want to be effective.
    Mr. Clay. I appreciate your response, and thank you. Thank 
you all for your testimony. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Clay, for being here and for your 
nice and your helpful questions.
    I'm going to proceed with 10 minutes, and then Mr.--Dr. 
Weldon will have some questions, and then I'll have some 
questions again. I would just like to say before I begin that 
Nick Palarino, who is next to me, has always insisted for years 
that I not ignore a doctor when they are before me. I called 
you Mr. Raub, and he said Dr. Raub, and I never figured out why 
he was so insistent, until I realized on February 2nd of this 
year he got his doctorate. He'd been working on it for so many 
years, so I would like the record to note that you will no 
longer be Nick to me. You will be doctor, Dr. Nick. 
Congratulations, Doctor.
    What brought that on was I was noticing that I had 
professional staff, and we had counsel there before. He happens 
to be the director, and I was thinking, if I was the director, 
I'd rather have professional staff than counsel.
    I have a number of questions, and I'm going to start by, 
this is what I believe. This is what I believe: I believe that 
we are at war with terrorists, that we have been at war with 
terrorists for over 20 years and didn't know it. They did. We 
didn't. That this war with terrorists is a fight to the finish, 
that it is a fight to shut terrorists down before they use 
chemical, biological agents, which we believe they have, heaven 
forbid, radioactive material or, even worse, nuclear weapons 
which they may have. If you ask me do our terrorists have 
nuclear weapons, I say I don't know. I don't think so. But that 
makes an assumption that every time a terrorist nation tried to 
buy nuclear weapons, we caught them. If you ask me will 
terrorists have nuclear weapons, the answer is yes. I'm 
absolutely convinced of it if they don't have it now. And if 
you said there was a nuclear explosion, heaven forbid, in this 
country, would I be surprised, the answer would be no. So for 
me the stakes are very high, and I think for every one of you 
here.
    And, Dr. Raub, I note when we had the anthrax attack, there 
was a real sense that if the terrorists used anthrax the way 
they could potentially use it, what we encountered would look 
like a cake walk. In other words, as serious as that was, it 
could be far, far worse. So we all know the stakes are very, 
very high.
    And I think it is very helpful to have all of you here. You 
all play a role in what we knew we had to address in the 19 
hearings we had before September 11th. We had all three 
commissions come before us, the Kramer Commission, the Hart-
Rudman Commission, the Gilmore Commission, all saying to us we 
don't have a proper assessment of the terrorist threat, we 
don't know what our strategy is, and we aren't organized to 
deal with it. And we're in the process of doing all three. It's 
difficult for us to have an assessment of where we're at, 
because really the only one who has anything dealing with 
homeland security in a general sense is you, Mr. Verga, and 
you're not Tom Ridge. And I know Tom Ridge.
    So having said that, we're using all of you to help put the 
pieces together, but there's going to have to be a time, and I 
have to say this, in which the administration is going to 
recognize that while they're seeking to protect the advice and 
counsel to a President of someone who is close and intimate to 
the President, Mr. Ridge, that ultimately there has to be a 
process for Congress to respond to, and that doesn't require a 
yes or no from any of you. You have your own roles to play, but 
I want to state that for the record.
    And I want to state for the record that ultimately I 
believe that the assessment of the threat will require a 
strategy that will require some reorganization of government 
where we will have potentially a homeland office.
    Now, Mr. McHale, let me start with you. When we passed 
legislation dealing with terrorist threat as it related to 
protection of airplane travel, I will say something else I 
believe. I don't believe airline travel today is safe. I 
believe it will be safe, but I believe that it is still 
possible for terrorists to get explosives on an airplane, 
particularly if they're willing to ride an airplane, and since 
we had 19 go under riding an airplane, we know that's not going 
to inhibit them, the old strategy.
    Now what I'm interested in knowing is we put a law that 
said originally in the House check for explosives the end of 
2003. That was legislation that was pushed by me and others, 
and the reluctance was that we didn't even know if we could do 
it by 2003. What was fascinating was when it came back from the 
conference committee, it said by the end of the year--I don't 
mean 2003. By the year 2003, that by the year 2002 now it has 
to be done.
    Now we don't have the equipment yet to check for explosives 
on an airplane, so I need to understand what it means by the 
legislation language that says you will check all baggage by--
it's--the date has already passed. It doesn't say for 
explosives. It just says you'll check all baggage. So help sort 
that out to me. We need a candid conversation, and we'll go 
from there.
    Mr. McHale. There are two dates in the statute. One is 
within 60 days of enactment, we had to screen all baggage for 
explosives, ideally using explosive detection equipment or--and 
then Congress listed a number of alternative means if we 
couldn't do it. The second is a date the end of the year, 
December 31st, by which we have to screen all checked baggage 
using explosive detection equipment, with very limited 
flexibility there.
    We met the deadline of January 18th, I think it was, by 
using explosive detection equipment where it was located. We 
required that it be used to the maximum extent possible. We had 
discovered that a lot of the equipment that had been out 
there--and there weren't very many machines out there but the 
equipment that was out there was not being used full time, and 
we mandated that it be used if it is operational, that it be--
being used.
    Mr. Shays. So is it fair to say we're using all the 
equipment available, but we don't have enough equipment to 
check all bags?
    Mr. McHale. That's right. So we supplement it with dogs, 
with manual search, and with origination bag match, all of 
which were things that Congress recognized that would probably 
be the only tools available to us on that short a timeframe.
    To get to the end of the year, we have really worked on a 
multiple strategy. There are two manufacturers in the United 
States of what are called EDS machines. Those manufacturers are 
relatively small. In the past they produced a relatively small 
number of machines every year. We've been working with them to 
get them to ramp up their production, but we've also worked 
with them to procure the intellectual property rights to their 
products on a license basis, and we are going to be using 
additional--the assembly of these machines is not actually as 
difficult as it is to develop them. So we can use additional 
manufacturing facilities to put the machines together with the 
intellectual property rights. So we're going to be able to 
greatly increase the production.
    And we're also going to be using other equipment to help us 
deal with some of the issues that machinery raises. So there's 
a lot of--we're proceeding on a lot of tracks.
    We're also in the process of testing some additional 
explosive detection equipment to see if we can certify it and 
add to the total--I guess the total types of machinery that are 
available to us.
    Mr. Shays. OK. Let me ask you, though, the very clear 
answer is not all baggage is checked yet for explosives?
    Mr. McHale. All baggage is subjected to some form of check, 
but one part of that check may be the origination bag match, 
which is to ensure that the passenger gets on the plane with 
their bag or that the bag does not get on the plane without the 
passenger.
    Mr. Shays. Now if you were walking on the plane, you take 
the risk that your baggage will be randomly searched?
    Mr. McHale. That's right.
    Mr. Shays. But if you load it on the plane, it's less 
likely that it's going to be opened up? Correct?
    Mr. McHale. We use a lot of different techniques. It is--
you know, I don't--we don't open up every bag at the passenger 
check point either so----
    Mr. Shays. No. I understand. There's a difference. There is 
a random check process. You don't have a random check process 
to open up baggage that's in the belly of an aircraft.
    Mr. McHale. We do.
    Mr. Shays. How do you? Most of the baggage is locked. You 
destroy the lock? What do you do?
    Mr. McHale. We use--as I said, we use explosive detection 
dogs. We use EDS equipment when it's available.
    Mr. Shays. Here's what I asked you. You don't open up a 
bag?
    Mr. McHale. There are bags that are opened up at the 
baggage check-in point. If there is a reason to open the bag, 
we will call the passenger over and we will open the bag.
    Mr. Shays. So your point is that it's a--is that the first 
round? That was 10 minutes. Boy, it goes quick. Let me just 
pursue this and then we'll go right to Mr. Weldon. I want to be 
clear on this. You're saying that the way you make it random is 
that sometimes before it's sent down, they check it right on 
the spot?
    Mr. McHale. There is a process that we use to identify 
individuals whose bags we want to check very carefully, and 
those bags are generally opened--they can be opened, or they 
can be checked by explosive detection machine, or they can be 
checked by a canine or whatever else is----
    Mr. Shays. OK. So what you're saying is your sense of 
search isn't necessarily that it is opened up, but if you 
suspect a bag, you're going to make a second pass.
    Mr. McHale. Right.
    Mr. Shays. With an animal, with--I'm told animals have 
hundreds--dogs have--certain dogs have hundreds--thousands of--
hundreds of thousands of times the capability of smell that 
humans do.
    Mr. McHale. Yes.
    Mr. Shays. That----
    Mr. McHale. The dogs are very effective.
    Mr. Shays. Yes. That's what I've been told.
    OK. Dr. Weldon. Dr. Weldon. I'm sitting next to Dr. Nick.
    Mr. Weldon. I just have a quick followup question on the 
random searches, Mr. McHale. I've gotten some complaints from 
constituents, elderly people, young women carrying babies, 
families with small children coming up on the random checks. 
Have you any information that these random checks have 
uncovered any potential terrorists getting on planes since 
September 11th, or dangerous materials? And when I say 
dangerous materials, I don't mean, you know, the little pen 
knife that the Secretary of the Air Force gave me 4 years ago 
that they took away from me shortly after September 11th. I 
mean--it's--you know, my concern is, you know, aviation is a 
big part of our domestic economy, and there are a lot of people 
who are saying I'm going to drive, mostly out of fear of 
flying, but I have had some people--constituents complain about 
the random searches. Can you give me some information that I 
can tell my constituents about these----
    Mr. McHale. There is a 2-week period--unfortunately I don't 
have all of the statistics here but there's a 2-week period 
from the first 2 weeks we took over the check points. We took 
over the check points on February 17th and during the first 2 
weeks of that time, we confiscated over 100,000 items. Probably 
a lot of those were little pen knives and things, but among 
that were 40 weapons, firearms, a number of them loaded, a 
large number of knives in excess of 3 inches and other things, 
box cutters, etc. So there is a--there is a lot of material 
still being recovered at check points. But we, too, are 
concerned about the number of searches of individuals who fall 
in those kind of categories----
    Mr. Weldon. Perceived as harassment----
    Mr. McHale. I don't think it's harassment. The system we've 
got set up is one--we use the cap system to identify 
individuals. That's still a somewhat crude tool that we're 
working very hard to refine. That will actually pick up some--
many individuals who probe--who certainly are not terrorist 
terrorists.
    Another thing, though, is that we also do have random 
searches. We have a certain number of passengers who are 
identified for random search, particularly at the gate as they 
board. And last, a requirement that we put into place right 
after September 11th that is still in place is that the 
individuals who stand behind the check point and use wands to 
check passengers should be fully occupied so that if there 
isn't someone who is alerted by going through the metal 
detector, at a time they will actually call someone over to 
check them. That again is another form of random search.
    We actually have a number of projects under way to make our 
checks a lot more sophisticated. Improving the cap system is a 
project that we are engaged in with the hope of deploying the 
new system by September, and one of the problems we have at the 
passenger check point today, as those passengers arrive, they 
arrive anonymously. We don't have a way at most passenger check 
points to know who's arriving at that check point to be 
checked. Not until you get to the gate do we often know who you 
are.
    Mr. Weldon. I hate to interrupt you, but I'm going to run 
out of time. You answered my question right at the beginning. 
You've discovered weapons, and you feel that the random checks 
are justifiable--well, he's saying something to me that I think 
you really ought to look at. Women with small babies, you know, 
I guess it's within the realm of possibility that somebody 
would do that. The terrorists that we're facing, I believe, are 
the most diabolical and demonic opponent America has ever 
faced.
    But I have a question for you, Mr. Greene. And maybe we can 
get back to this issue. But as you probably are aware, Congress 
provided in the USA Patriot Act some requirements on the INS to 
develop access and sharing of intelligence and criminal 
background information, a tamper-proof machine-readable 
passport and tamper-proof and machine-readable immigration 
documents as well, along with the development of a biometric 
evaluator like an iris or fingerprint scan. Also we provided 
resources for the expedited implementation of this visitor 
tracking system.
    Mr. Greene. Yes, sir.
    Mr. Weldon. It's been a few months. Can you report to us 
the status on implementing a lot of these----
    Mr. Greene. Just in two areas, and I can provide a fuller 
piece on this after the hearing, but we have a project manager 
in charge of the entry/exit system now that is looking at the 
technical side of the sorts of questions that will have to be 
in place in order to make an entry/exit system a viable system 
for us. We know that in the airport environment and, to a 
slightly lesser degree, the seaport environment, it is a--it is 
not anywhere near as challenging as it is at a land border 
environment, and so the plan, as I think it has been discussed, 
is to look at a phased implementation starting with the--in the 
airport environment at first and then proceeding directly to 
overcoming the more difficult technical challenges.
    Mr. Weldon. Well, it's safe to say at best for months, and 
some cases we're years away, from implementing most of these 
provisions.
    Mr. Greene. Well, I don't know. The entry/exit system is on 
a very fast track. I think we're looking at I want to say 
airports by the end of this calendar year. That's my 
recollection. I can confirm that with you when I get back to 
the office. In terms of the--in the meantime, we have a 
companion piece which arises out of the Congress's Data 
Management Improvement Act, where the private sector who are 
affected by this is also being folded into this process of 
development, so that the exhibition impact, especially at land 
borders of entry, again are sort of evaluated and their 
concerns taken into account.
    Mr. Weldon. Well, I just want to share with you, Mr. 
Chairman, that while the INS is making its best effort to 
implement all of these features, some of the provisions in the 
act are months away. Some of them are actually years away, and 
that we do have a period of vulnerability where the Immigration 
and Naturalization Service cannot protect our borders from the 
continued ongoing entry of terrorists in the United States, and 
that's why I think I've spoken to you before, I've introduced 
legislation to place a moratorium on entry from about 15 
nations that are known to sponsor, harbor or produce 
terrorists.
    I just--I have a followup question for you, Mr. Greene. I 
spoke with Congressman Hal Rogers who used to chair the 
appropriations subcommittee that had the INS jurisdiction, and 
he informed me that the budget for the INS was double to twice 
during the 1990's. The impression I get is that with 11 million 
visas that are issued every year, and I don't know what the 
figure is, several hundred million tourists and students that 
are coming in and out of the country and people who come back 
and forth and back and forth, that even with all of these added 
resources, that the agency is totally overwhelmed.
    Mr. Greene. Well, I think the commissioner, Congressman, 
has looked at the problems facing the INS in a number of 
different dimensions. The first one certainly is a resource 
question. The budget growth that Congressman Rogers described 
to you is accounted for primarily by the increased assets that 
were placed on the southern border to address a problem that 
was, you know, demonstrably out of control in the beginning of 
the 1990's.
    In addition to the sort of management issues that the INS 
faces, which the commissioner intends to address through his 
restructuring plan, we also have problems with information 
management which he has indicated he would like to address 
through chief information officer appointed, working for him 
and under him, and the current process that we're looking at, 
the enterprise architecture project which we're looking at to 
sort of standardize and consolidate the various discrete 
information systems that have been set up through the INS over 
the last 25 years to address specific missions and specific 
problems that arose.
    It is more than a resource problem, clearly. I think the 
recent events have demonstrated that, and I think the 
commissioner has acknowledged that it is more than a resource 
question and he is taking steps to address those issues as 
well.
    Mr. Shays. I would like another round here, and if you can 
stay, we can go back. I would like to ask each of you, first 
off, is there any question that was asked of someone else that 
you had made notes that you wanted to comment on before we go? 
Is there any comment that any of you would like to make based 
on any question that has already been asked? Yes, sir.
    Dr. Raub. Just a brief comment related to Representative 
Watson's comment before. I think appropriately her question and 
the response of my colleagues keyed on prevention and securing 
infrastructure and interdiction of events, but there's a 
corollary side of detection and response in areas and 
particularly related to biological terrorism, and the only 
point I would have made--points, there were two, one is that 
this spring, thanks to the President and the Congress, we are 
investing more than $1 billion in the upgrading of State health 
departments, local health departments and hospitals, with a 
major emphasis on improving infectious disease surveillance and 
response such that we could detect and respond quickly to a 
biological event, and I believe that was important in the 
context of your questions because that preparation has to be 
uniform across the country. A communicable infectious disease 
starting in any one place, given our mobile society, could 
quickly end up in any number of other places. So it's important 
that our protection be as nearly uniform as possible.
    Second, while we're--bioterrorism is our No. 1 concern, we 
recognize that the most likely type of terrorist event remains 
the conventional explosive or variance thereof, and so we need 
to continue investing in the--the medical response systems with 
respect to burn and trauma and other types of medical 
consequence management.
    Mr. Shays. Thank you. When we had our hearing last week, 
one of the witnesses basically--let my preface my comment by 
saying that in the early 1950's, President Eisenhower 
recognized we had a new threat, we had a new assessment of 
threat, we had a new strategy, and we reorganized, and that was 
the cold war. And it was a whole different war. It lasted 40-
plus years, and ultimately we were successful. It was based 
pretty much on containment and responding to acts of 
aggression. It was based on mutual assured destruction, and we 
basically outlasted the Soviet Union economically, politically, 
socially, and militarily.
    The new strategies--the new type of response suggested by I 
think former Ambassador Bremer on counterterrorism is that we 
need to detect and to prevent--that a mutually assured 
destruction would guarantee basically we would mutually 
destruct each other, that it would in fact happen given that 
people have a different sense of the value of life.
    I'm interested in knowing from each of you, do you think it 
is reasonable, based on your side of the equation, for us to 
assume that the Office of Homeland Security will be able to 
come up with an assessment of the total threat and to integrate 
it to all your different parts, that it will be possible to 
develop an overall strategy much like we did, and do you 
ultimately see that would require some reorganization of 
government?
    Now I'm asking you all to go a little outside your box, 
but, Mr. Verga, not as much for you. This is probably more apt 
for you to respond to, and maybe Mr. Caruso, but all of you are 
welcome to respond.
    Mr. Verga. Thank you very much. First of all, let me say 
we--we in the Department appreciate the leadership that the 
Congress has taken on this issue and, quite frankly, those of 
us in the executive branch recognize that in some cases 
Congress was out ahead of us in looking at the homeland 
security problem in a more holistic way than--than we have 
looked at it, and we appreciate that leadership.
    It's clear that traditional ways of looking at a threat, 
counterthreat-based strategy, are not adequate for this 
situation that we find ourselves in. By the same token, the 
flexibility that's necessary to deal with these asymmetric 
threats and essentially nondeterrable actors because to be--be 
able--for deterrence to work, the other actor has to be a 
rational actor, and in this case they're not rational actors, 
as you pointed out--requires that we have a great deal of 
flexibility and moreover a capability----
    Mr. Shays. Can I--just since you attributed it to me, it's 
rational to them, though, isn't it?
    Mr. Verga. I would not pretend to be an expert on their 
culture. I think that they think that the acts that they take 
have a purpose in their--in their way of looking at it. So you 
could probably say it's rational, but----
    Mr. Shays. It's not our way of----
    Mr. Verga. True, that's a good point. What I was about to 
say is that in order to be able to accomplish and to have an 
effective strategy in--in this world of asymmetrical threats, 
we have to be much more flexible, much more adaptable, and move 
more toward a capabilities-based approach, particularly in the 
defense arena as opposed to trying to say you've got tanks, we 
have to have tanks, you've got airplanes, we have to have 
airplanes, because you can't find those--those symmetries that 
you can balance off against. So that's why you find that we're 
moving in those types of directions.
    With regard to trying to do a threat assessment, you 
somewhat run up against the same problem in that if you guess 
wrong or even if you analyze wrong of what the threat is and 
you counter that threat, you may have missed the one that you 
end up facing, just as we did on September 11th and, therefore, 
if you move toward analyzing vulnerabilities that you find 
inside your own system and then develop capabilities to counter 
those vulnerabilities, it may give you a better strategic way 
of approaching this problem of asymmetrical threats.
    Mr. Shays. Would anyone else like to respond? Because I 
have a followup. Anybody? Yes, sir, Mr. Burris.
    Mr. Burris. Yes. If I could, I think--and I want to echo 
sentiments on this capability assessment. You can go about this 
in a different manner, as opposed to, you know, a threat 
assessment, by doing a capability assessment, and FEMA's done 
just that, assess, you know, States' capabilities to handle 
catastrophic disasters.
    A good example is the REP program which does our nuclear 
power plants, provides for preparedness initiatives around our 
nuclear power plants. Whether or not you have a radiation 
incident from a nuclear power plant because it's accidental or 
because it's intentional, you still have to have the capability 
to deal with it. And so a part of, I think, the first responder 
initiative that the President's put forward is just to do that, 
to address as a down payment, as it were, some of the 
capabilities that we know need to be racheted up for our local 
and State responders to be able to handle those incidences, 
should they take place. So while the vulnerability assessment 
is certainly important, I think we have a beginning point by 
moving forward with the capability assessments that's taking 
place in the States by the Department of Justice, by FEMA, 
after September 11th and other agencies as a starting point to 
start off in preparing our country.
    Mr. Shays. Yes, sir. Dr. Raub.
    Mr. Raub. Mr. Chairman, in a similar vein I'm optimistic 
that the executive branch and the Congress can make some 
considerable progress toward a broader base of assessment and a 
better integrated look at the various threats and their 
consequences.
    For example, in the area of biological terrorism, over the 
last several years we have consulted extensively, not only with 
the medical and public health community, but with the 
intelligence community, the law enforcement community and--and 
others, and have been able to develop what we think is a strong 
list of what the major threats are, either because the 
probability is high or the consequences of their use are 
enormous. We'll continue to build on and refine that, but we 
believe that can and should be integrated with a broader look.
    In our case, as I indicated before, our responsibilities 
are primarily those of early detection and medical and public 
health response. We need to rely heavily on others to interdict 
those events in the first place, whether they be from other 
nations, whether it be through law enforcement. We have a 
limited role ourselves in the regulation of the transfer of 
certain hazardous materials called select agents, but we need 
to be an integral part of a larger effort from the whole scope 
from prevention and interdiction all the way through detection 
and response.
    Mr. Shays. Well, what I'm struck with is that when we were 
dealing with the Soviet Union, our strategy, our assessment was 
pretty simple when you came right down to it. It was 
symmetrical. We matched them, they matched us, we tried to not 
make it a fair fight and to have superior whatever they had. 
Here we--it being asymmetrical, we don't know where it will 
come from and we don't know what it will be. And so, for 
instance, I wonder if we decide that we have a pretty good idea 
that if it's a biological agent, it's going to be this kind of 
a biological agent, we almost can't make that a public 
disclosure because then our enemies say, well, they're wise to 
this, we'll do this. And the only thing I have comfort with 
right now, the only thing, really, is that we are going to hold 
the country accountable that allows the terrorist act to take 
place in that country, and that simplifies it. But I mean--and 
then Dr. Weldon will have the floor here, but we had one of our 
witnesses say to us his biggest concern that relates to your 
area is that a group of cottage industry scientists will 
develop an altered biological agent that will wipe out humanity 
as we know it.
    So it's a real determination that we have great 
intelligence work and also law enforcement efforts to uncover 
this, but I guess what I'm saying is in the end when we hear 
from Homeland Security, are we going to have--do you anticipate 
that we are going to have a strategy that we can put--an 
assessment that we can put on one page and a strategy that will 
fit on another page, or will it fill an encyclopedia? I dated 
myself.
    Mr. Raub. Or a CD ROM, perhaps.
    Mr. Shays. Yes. Just let me get a response to that and 
then, Dr. Weldon, we'll go with you.
    Mr. Raub. From my vantage point, sir, I think it's most 
unlikely you'll see two side-by-side pages. I don't think it 
needs to be the CD ROM or the encyclopedia either, but I think 
realistically, given the array of different types of threats 
that we can identify or imagine and the myriad ways they have 
to be addressed, I think this will be of necessity a fairly 
complex document.
    Mr. Shays. Do you want to make a response?
    Mr. Verga. I would just say I would imagine that you'll see 
something that will be akin to the President's national 
security strategy that's published every year, a book of about 
50, 60 pages that will lay out in various shapes and forms that 
approach.
    Mr. Shays. And constantly being revised and so on?
    Mr. Verga. Yes, sir.
    Mr. Shays. But there will be some basic tenets in it like 
we go after terrorists wherever we find them, that it's 
preemptive rather than reactive? Those things will probably 
last in all of them?
    Mr. Verga. I think--I think that's fair.
    Mr. Shays. And just the point that we are learning that we 
have to somehow learn intent in order to know the likely areas 
of vulnerabilities that we want to focus on, will intent matter 
a big deal?
    Mr. Verga. We in the Defense Department, of course, in 
prosecuting the global war on terrorism are--are approaching it 
from the--removing the capability of others to have safe havens 
upon which they can then plan and train and attack the United 
States from, and I think that will continue to be our approach. 
It is very difficult and, of course, we have no internal 
security function in the United States. That's left to the law 
enforcement community. But it's very difficult to determine 
intent on the part of terrorists. At least that's been my 
observation.
    Mr. Shays. Yes.
    Mr. Caruso. Mr. Chairman, I would just add that the human--
human intelligence, whether it comes from the lips of an 
individual or document he or she has written, is--is the--is 
our best avenue for understanding what's in the hearts and 
minds of men who want to destroy us, and that is a premium on--
that's something that we need to as a government have as 
important key to our strategy.
    Mr. Shays. I just would say--did you want to say, Mr. 
Greene, anything?
    Mr. Greene. No.
    Mr. Shays. Before giving it to Mr. Weldon--Dr. Weldon, 
excuse me, there is a conviction on the part of some of us that 
when we look at September 11th we will say if we listen to what 
they said in Arabic and not English we would have known about 
September 11th, which is basically saying that if we had even 
used our information systems and just monitored newspapers and 
public discussions in other communities we might have known, 
besides the human intelligence. I'm led to believe that will be 
found to be true, but we'll see.
    Dr. Weldon, you have at least 5 minutes.
    Mr. Weldon. Thank you. Thank you, Mr. Chairman, and I did 
want to commend you for calling this hearing and I apologize 
for missing the verbal testimony from the witnesses in getting 
here a little late, and I do want to say to you, Mr. McHale, 
that I would like to followup with you on the random search 
issues particularly at the gate. I think that's the area of 
concern of a lot of my constituents.
    But, Mr. Greene, I did read your written testimony and 
there were a number of questions I had about it. I was very 
glad to hear that the INS is implementing an improved 
information and data sharing system. Right after September 11th 
we were provided some very disturbing information about the 
inability of INS to communicate with various agencies that have 
very valuable information that can help INS agents. You said at 
the bottom of page 2 in your statement, ``We have been working 
with the State Department to expand data-sharing to ensure that 
immigration inspectors have access to issued visa information 
and the consolidated consular data base. As a result, this 
information is now available at all POE's.''
    Have there been any results from any of this? Can you point 
to any cases where we've been able to prevent a terrorist 
entering the United States based on the information----
    Mr. Greene. I don't think we----
    Mr. Weldon [continuing]. Sharing that's available?
    Mr. Greene. I'm sorry. I don't think we have information 
with respect to terrorist prevention. It has been very useful, 
though, in a number of other cases with respect to fraud. What 
this data base provides us is a copy of the--basically the 
nonimmigrant visa application that's filled out by the 
applicant overseas and also a photograph. So it's--the 
photograph that was presented with that application at the 
time. So it has dramatically cut down on the photo substitution 
vulnerability that we used to face with a valid visa in a valid 
passport with a photo substitution allowing people into the 
United States. I don't have those numbers off the top of my 
head. There has been an increase in fraud detections since 
September 11th----
    Mr. Weldon. The photo substitution issue was one of the 
major reasons why the language in the bill calling for the 
development of a biometric evaluator was replaced----
    Mr. Greene. That's right.
    Mr. Weldon. So are you saying the need for that biometric 
evaluator is diminished----
    Mr. Greene. No. We----
    Mr. Weldon [continuing]. Or do we still need----
    Mr. Greene. Yes. We want to be able to have a biometric 
identifier on all of the nonimmigrants who travel to the United 
States because that's going to be key to the eventual success 
of our entry/exit system.
    Mr. Weldon. I think you go on in page 5 and you talk about 
the passenger analytical units, PAUs, at airports, seaports, 
determining whether a noncitizen seeking admission to the 
United States is admissible. Particularly dealing with 
airports, shouldn't a lot of this screening actually be done at 
the consular level before it actually gets to the INS?
    Mr. Greene. Well, I think that's part of our strategy and 
that has become more and more prominent in--in our strategy 
working with the Department of State since September 11th. We 
used to talk about the immigration inspector as being the first 
line of defense, but in actuality we appreciate that it's the 
consular officer overseas who is the first line of defense, and 
that's why we have also provided information to the Department 
of State to assist them in--in doing the evaluation necessary 
to--to make the right decision on whether to grant a 
nonimmigrant visa or not.
    Mr. Weldon. On page 10 you mentioned the INS and other task 
force agencies. If anybody wants to contribute to this 
response, feel free to do so. Coordinate their efforts to 
develop lead information on counterterrorism-related subjects 
and to neutralize the threat of alien terrorists. How many 
leads have been generated by all this? What type of actions 
have been the result? You've gotten a lot of bad press lately 
and you've got an opportunity for some good press here if 
you've kept some people out.
    Mr. Greene. The--well, we actually do have some information 
that I could brief you on separately with respect to----
    Mr. Weldon. Classified----
    Mr. Greene. Yes, sir.
    Mr. Weldon. Yes. I would be very interested in hearing 
that.
    Mr. Greene. Above and beyond that, the Foreign Terrorism 
Tracking Task Force is the--the group that has done the 
manipulations of INS and other data bases in order to identify 
potential witnesses who would come forward during the last 
interview process, the--the list of approximately 6,000 people 
that were jointly interviewed by Federal agencies and State and 
local officials inviting them to come forward with information 
that might be useful in our counterterrorism effort. The 
President announced a similar initiative yesterday following on 
that--that same line.
    In terms of specific leads, I'd be happy to give you a--a 
more thorough conversation about that in a different setting.
    Mr. Weldon. Mr. Chairman, I yield back. Thank you very 
much.
    Mr. Shays. Thank you. I don't have many more questions and 
so we'll probably get you out of here by 4 o'clock.
    Mr. Greene, it's been reported that the administration is 
considering a merger of INS and Customs within the Department 
of Justice. What are the statuses of that consideration?
    Mr. Greene. I'm not in a position to--to comment on that at 
all, Mr. Chairman. The commissioner has--has put forward a 
reorganization plan for the INS that was reviewed and approved 
by the President. That was the proposal that was brought up to 
the Hill in December. What we--what we are able to say about 
any subsequent considerations----
    Mr. Shays. Fair enough.
    Mr. Greene. It's just----
    Mr. Shays. OK. One of the issues on the Patriot Act was 
that information the FBI--our committee had dialog in another 
hearing before September 11th in which we learned that some 
information that the FBI had was not--it was being shared with 
INS but not with the State Department, and the Patriot Act 
requires information to be shared with the State Department. 
Can you give me any insights on how that's working out, Mr. 
Caruso?
    Mr. Caruso. Mr. Chairman, we are--the State Department has 
a system, a visa system, known as Class, also known as Tip-off, 
where U.S. intelligence--the U.S. intelligence community and 
the FBI contribute names to that system so that consular 
officers, when they are confronted with an individual who's 
applying for a visa, can check that system and determine 
whether there's an interest in a particular person by the U.S. 
intelligence community or the FBI. We've contributed to that in 
the past and we've stepped up our contribution of names to that 
system. We are doing that--we want greater electronic 
connectivity direct with that system so that we can avail 
ourselves with modern technology to get the information in 
versus disk and bringing it over periodically.
    With reference to requirements beyond that, I would like to 
provide you with some additional information outside the 
hearing here only because I don't have the kind of satisfactory 
answer that your question deserves.
    Mr. Shays. Fair enough. That would be something I would 
like you to convey with the committee staff, if you would. Just 
to say parenthetically, I don't have a lot of faith in our--I 
have a lot of faith in the people who work in our government, 
all of you and your dedication. Most of you I believe are civil 
servants as opposed to appointments of the President, though 
both are appreciated and--but I don't have much of a comfort 
level with our information technology in government. We put out 
the bids, it takes so long, the system seems to be outdated 
before it's implemented.
    When we chaired the Human Resource Committee, we were never 
happy with what we saw happening with Social Security, with 
Medicare, with a whole host of systems that were put in place, 
obviously not pleased with what INS has, and I will--the State 
Department isn't here, but the State Department was using Wang 
computers 4 years ago and they can't even communicate 
internally in some cases within their own embassies, much less 
communicate with other embassies. They can communicate with 
Washington, but you can't have Ambassadors from neighboring 
countries communicate.
    So we know that there is a lot of work in this area and Mr. 
Horn in particular in our Government Reform Committee has been 
working on it.
    Can any of you say anything that can make me feel 
comfortable about any progress using information systems, 
anything that I can--that this committee can say, well, this is 
a good sign? I don't mean a hopeful sign, I mean a good sign. 
Anything beyond hope? Yes, Doctor.
    Mr. Raub. It may be one of those times when it's--when it's 
dangerous to volunteer, Mr. Chairman, but I'll try. One of the 
major emphases in our billion-dollar-plus investments that I 
mentioned earlier in State and local preparedness is on 
information and communication technology for public health, and 
a major element of that is striving for interoperability of 
those systems. The worst thing that could happen would be for 
us to invest in myriad ways in State and local health 
departments and our hospitals only to find that information 
about infectious disease could not be shared efficiently and 
effectively among them. So the guidance that we set out has as 
one of its cornerstones a set of communication standards 
developed at the Centers for Disease Control and Prevention 
that is to guide the implementation of those activities. We are 
going to work very hard at achieving that. I don't present it 
as a completed act. I present it as one of our highest 
priorities to achieve.
    Mr. Shays. And will you be able to break the red tape and 
the procurement challenge--my view is almost when I voted for 
some of--for this immense amount of new dollars that in the 
process I would waste some money, but do a lot of good in the 
process, but we don't have time to not--we have to just move 
forward quickly. Are you going to be able to move forward 
quickly?
    Dr. Raub. We believe we will, sir, and that the principal 
acquisitions for this are going to be done by the State and 
municipal entities. It's not important that we prescribe which 
particular brand of hardware one gets or which particular 
modem, but rather that certain functional characteristics are 
met, and in general those functional characteristics have been 
designed with knowledge of the market in mind. So there should 
be for almost any entity an array of choices so long as the 
connectivity and the so-called interoperability is achieved, 
and--and that's our goal.
    Mr. Shays. Just dealing with your area, I had been led to 
believe before September 11th, based on previous committee 
work, that we monitored every day potential outbreaks in urban 
areas and that we checked with every hospital every day more 
than once, and we learned after September 11th that we weren't. 
Will there be a day and, if so, when will that day occur, 
when--just like my Department of Transportation that can tell 
you an accident any place on I-95, any place where it's cueing 
up, will there be a day that you will be able to look on a 
board and tell us there's so many outbreaks of this disease in 
Cleveland, so many outbreaks of this disease in San Francisco, 
so many issues of concern in another area? Will that day happen 
where it will be centralized, up to date, kind of like what a 
major company will do in being able to tell you how many 
products they sold every day and what they were and what towns 
they sold them?
    Dr. Raub. I'd be overstating my knowledge and misleading 
you if I said I thought I could tell you exactly when that 
might happen.
    Mr. Shays. Is that a goal?
    Dr. Raub. Yes. That's one of the major goals of this 
investment in the infectious disease surveillance. In many 
parts of this country still, the surveillance of an infectious 
disease depends upon an alert and conscientious and energetic 
physician noticing something and reporting it to the local 
Health Department. In many parts of the country that's still 
done with a postcard, and perhaps a telephone call, perhaps a 
fax message. We're a long way away from having any kind of 
routine transaction recording that would get that information 
to the local Health Department and enable it in turn to look 
across the whole community and be able to see unusual patterns.
    One of the interim steps that have been taken in 
association with certain of the special events such as the 
Olympics or the two national conventions in the last several 
years, our Centers for Disease Control and Prevention, in 
collaboration with the Department of Defense, implemented what 
they've referred to as drop-in surveillance, that is, ad hoc 
capability where the local hospitals, using an Internet and 
Web-based connection, were on a daily basis reporting certain 
information about syndromes that they were seeing, certain 
characteristics of patients, that information not--being 
recorded and not only returned to that particular hospital but 
looked at regionally for patterns for possible outbreaks of 
activity. That's a forerunner of the kind of thing we would 
like to see routine, and I know that's a high priority for the 
Office of Homeland Security to see us achieve that kind of 
electronic surveillance. We're not there. We're not close. It's 
certainly doable within the technology. It will require the 
will and the investment to follow through and make it happen.
    Mr. Shays. I'll just say that of all the concerns expressed 
before this committee, the greatest one was the biological. It 
wasn't chemical, wasn't nuclear, wasn't conventional. It was 
biological. And it would strike me that the long way off has 
got to be a concern to us because I don't believe that we have 
the capability to deal with an outbreak that we didn't see 
early enough. Counsel has--OK. Basically I'm going to just be 
true to my word at 4 o'clock and just ask is there anything you 
wish we had asked that you had prepared to answer and that you 
would feel good knowing that you were prepared to be--is there 
anything you would like to respond to before we close the 
hearing, any question you would like to ask yourself and 
answer? Mr. Greene. Mr. Caruso. Mr. Burris. Mr. Raub.
    Dr. Raub. No, sir.
    Mr. Shays. Mr. McHale. Mr. Verga.
    Mr. Verga. I would--would only say that when you talk about 
homeland security for the Department of Defense, the biggest 
and best contribution, of course, that we are making is in fact 
the global war on terrorism and we look at--we look at 
everything that we do in the Department of Defense as homeland 
security because that's the mission of our Department.
    Mr. Shays. I think that's pretty clear. I appreciate your 
making that point. I appreciate all of your contribution today, 
particularly your patience in having a large panel, but I think 
it certainly helped us out a lot and I appreciate that. And if 
there's no further comment, we will call this hearing 
adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]


</pre></body></html>
